<html>
<title> - THE ENVIRONMENTAL AND ECONOMIC IMPACTS OF OCEAN ACIDIFICATION</title>
<body><pre>[Senate Hearing 111-962]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-962
 
     THE ENVIRONMENTAL AND ECONOMIC IMPACTS OF OCEAN ACIDIFICATION

=======================================================================

                                HEARING

                               before the

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 22, 2010

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                  U.S. GOVERNMENT PRINTING OFFICE
66-170                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7d1a0d123d1e080e091518110d531e121053">[email&#160;protected]</a>  

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           JOHNNY ISAKSON, Georgia
AMY KLOBUCHAR, Minnesota             DAVID VITTER, Louisiana
TOM UDALL, New Mexico                SAM BROWNBACK, Kansas
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
                 Ann Begeman, Republican Staff Director
             Brian M. Hendricks, Republican General Counsel
                  Nick Rossi, Republican Chief Counsel
                                 ------                                

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

MARIA CANTWELL, Washington,          OLYMPIA J. SNOWE, Maine, Ranking
    Chairman                         ROGER F. WICKER, Mississippi
DANIEL K. INOUYE, Hawaii             GEORGE S. LeMIEUX, Florida
JOHN F. KERRY, Massachusetts         JOHNNY ISAKSON, Georgia
BARBARA BOXER, California            DAVID VITTER, Louisiana
FRANK R. LAUTENBERG, New Jersey
MARK BEGICH, Alaska


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 22, 2010...................................     1
Statement of Senator Cantwell....................................     1
Statement of Senator Snowe.......................................     3
Statement of Senator Boxer.......................................     5
    Prepared statement...........................................     7
Statement of Senator Lautenberg..................................     7
Statement of Senator Begich......................................    52

                               Witnesses

Sigourney Weaver, Actress........................................     9
    Prepared statement...........................................    11
Thomas Ingram, Executive Director, Diving Equipment and Marketing 
  Association....................................................    12
    Prepared statement...........................................    14
Donald A. Waters, Commercial Fisherman, Pensacola, Florida.......    21
    Prepared statement...........................................    23
James P. Barry, Ph.D., Senior Scientist, Monterey Bay Aquarium 
  Research Institute (MBARI) and Member, Committee on Development 
  of an Integrated Science Strategy for Ocean Acidification 
  Monitoring, Research, and Impacts Assessment, National Research 
  Council, The National Academies................................    25
    Prepared statement...........................................    27
Dr. John T. Everett..............................................    32
    Prepared statement...........................................    34

                                Appendix

Response to written questions submitted by Hon. Olympia J. Snowe 
  to:
    Thomas Ingram................................................    61
    Donald A. Waters.............................................    63
    James P. Barry, Ph.D.........................................    65
Response to written questions submitted by Hon. Roger F. Wicker 
  to:
    James P. Barry, Ph.D.........................................    67
Response to written questions submitted to Dr. John T. Everett 
  by:
    Hon. Olympia J. Snowe........................................    71
    Hon. Roger F. Wicker.........................................    72


     THE ENVIRONMENTAL AND ECONOMIC IMPACTS OF OCEAN ACIDIFICATION

                              ----------                              


                        THURSDAY, APRIL 22, 2010

                               U.S. Senate,
Subcommittee on Oceans, Atmosphere, Fisheries, and 
                                       Coast Guard,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:02 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Maria 
Cantwell, Chairman of the Subcommittee, presiding.

           OPENING STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. The Senate Committee on Commerce, Science 
and Transportation, Subcommittee on Oceans and Atmosphere and 
Fisheries, Coast Guard, will come to order.
    Today, we're having a hearing on the environmental and 
economic impacts of ocean acidification. And welcome, to our 
panelists here. We appreciate them testifying before us today, 
and we will introduce them shortly.
    We live on a blue planet. And on this day, the 40th 
anniversary of Earth Day, it's no coincident that we are 
focusing our attention on our oceans. They are 70 percent of 
the Earth's surface and provide a foundation for all of life.
    And yet, there is a grave threat that lies hidden beneath 
the surface, called ``ocean acidification.'' And since the 
start of the Industrial Revolution, humans have increased the 
global atmospheric carbon dioxide concentration by 35 percent. 
But, carbon dioxide is not only accumulating in our atmosphere, 
it is being absorbed by our oceans. Approximately one-quarter 
of our global carbon dioxide emissions end up in oceans, and we 
know now that this is changing the very chemistry of our 
oceans. And while the full implications of these changes are 
unclear, the initial signs are frightening.
    As sea water becomes more acidic, it begins to withhold the 
basic chemical building blocks needed by marine organisms. 
Scientists predict that a more acidic ocean could dissolve the 
shells of tiny organisms that make up the base of the ocean's 
food chain. And when it comes to ocean acidification, we are 
not just damaging the ocean's ecosystem, we are threatening its 
very foundation.
    And even though these changes are occurring out of sight 
and below the surface of the ocean, we are starting to see some 
of the very worrying signs. And that's what this hearing today 
is to discuss.
    In May 2008, I held a field hearing, in Seattle, of this 
subcommittee to examine the impacts of ocean acidification and 
climate change on Washington State's marine environment. The 
most vivid testimony came from one of my constituents, a fifth-
generation shellfish farmer named Brett Bishop.
    Mr. Bishop's family shellfish farm is on the Little Scookum 
Bay in Mason County. His parents live next door, and his two 
teenaged sons are the sixth generation to live on that 
homestead and grow clams and oysters. And over the past several 
years, ocean acidification decimated the source of oyster by 
dissolving the larvae shells and increasing the susceptibility 
to dangerous marine bacteria.
    Damaged natural reproduction, coupled with failing oyster 
hatcheries, is threatening the entire shellfish industry in the 
Pacific Northwest. Generations of Brett Bishop's family have 
invested everything they have into their family farm, growing 
shellfish for 126 years. And if ocean acidification prevents 
the Bishop family from growing shellfish, they will lose their 
farm, their home, and six generations of hard work, hopes, and 
dreams.
    Today, I received a letter from the shellfish growers, 
commercial fishermen, seafood industry representatives from 
across the United States, requesting that Congress work to 
mitigate the cause and reduction--the economic harm resulting 
from ocean acidification. I want to read just a paragraph from 
that letter, because I think it sums up today's hearing, quote, 
``While some organisms are likely to be more adaptive than 
others to high CO<INF>2</INF> oceans, seafood producers and 
consumers cannot afford to whistle in the dark about these 
changes. The U.S. seafood industry generates approximately 60 
billion annually, fueling jobs and businesses that sustain 
thousands of families along the Gulf, Atlantic, Pacific and 
ocean--and Alaskan Coast. Even for the fisheries, where no 
direct harm from acidification has yet been documented, the 
disturbing signs of trouble on the front lines reveal a very 
compelling case to prevent the impacts from spreading and 
growing more severe.''
    Stories like the Bishop family and this letter is why we 
called this hearing today, so this subcommittee can look at the 
threats, challenges, and questions posed by ocean acidification 
to our coastal communities, to the businesses and the people 
who rely on these healthy systems.
    It is also why this committee worked so hard to enact 
legislation Senator Lautenberg--Federal--in his Federal Ocean 
Acidification Research and Monitoring Act, which I was proud to 
cosponsor; that law established the Nation's first 
comprehensive program to specifically study ocean 
acidification.
    And there he is, on cue.
    [Laughter.]
    Senator Cantwell. We're glad to see you.
    Ocean acidification is real, and there is a clear link 
between our society's carbons emission and the resulting change 
in the ocean's chemistry. Fortunately, we can slow down this 
process by ending our dangerous over-reliance on fossil fuel 
and transitioning to a cleaner, more diverse energy source. 
This effort has been one of my top priorities, and I will 
continue to fight to craft responsible, effective, bipartisan 
legislation to move us forward.
    Doing so is not only vital for our oceans and our 
environment, but for people like Brett Bishop and some of our 
witnesses who are here today, Mr. Waters and Mr. Ingram, but 
also for our Nation's long-term economy and our sustainability.
    So, again, I would like to thank the witnesses for being 
here, and like to turn it over to the Ranking Member, Senator 
Snowe, to make an opening statement.

              STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Thank you, Madam Chair, for calling this 
hearing today.
    It's only appropriate that we would be convening this 
hearing today on the 40th anniversary of Earth Day, to discuss 
perhaps the greatest threat facing our planet's oceans. If 
current trend of ocean acidification continues, by the end of 
this century vast areas of the sea could very well become 
inhospitable to many species which form the foundation of the 
marine food web.
    Our oceans, which make up 70 percent of the planet's 
surface, are far too often overlooked, and as a source of the 
very building blocks of life, we cannot risk placing them in 
jeopardy.
    That's why I'm very pleased today to be able to welcome our 
witnesses. Dr. Barry and Dr. Everett, your efforts to identify, 
to monitor, and to predict the trend of ocean acidification 
will be integral to protecting the marine environment, and the 
businesses that will be directly affected, like those 
represented here today.
    Mr. Waters and Mr. Ingram, your work in the industry drives 
our coastal economy, and you're on the front lines of the 
battle to protect our ocean resources.
    And, Ms. Weaver, thank you for being here and for adding 
your eloquent voice and your presence in working as an ocean 
advocate and narrator of the stunning piece that we'll have the 
opportunity to see a portion of here today, in the documentary, 
``The Acid Test: The Global Challenges of Ocean 
Acidification.'' This will continue to raise the public profile 
of this issue. It's vital that we not only garner the public's 
attention, but also galvanize public action, both here and 
across this country, and, indeed, around the world. So, thank 
you for your contribution and being such a champion.
    In just a few short years, ocean acidification has 
developed from a relatively new theory into one of the most 
disconcerting aspects of global climate change. In 2005, when 
the U.S. Commission on Ocean Policy submitted its final report 
to Congress--it just seems like yesterday--the term 
``acidification'' did not appear in the 676-page document. And 
yet, today we're holding the second subcommittee hearing on 
this topic since May of 2007.
    In the past 250 years, atmospheric and oceanic carbon 
concentrations have increased by 40 percent, and the pH of our 
oceans has decreased by roughly 30 percent, a rate of change 
not seen in more than 800,000 years, and that was underscored 
in the National Research Council's publication, which was 
released this week. That report, coauthored by Dr. Barry, on 
ocean acidification, confirms the current state of knowledge 
about this issue and delineates the areas requiring additional 
information. In effect, this document provides a litany of 
things we still don't know: how individuals and species will 
react to acidification in conjunction with other environmental 
stressors, the potential for adaptation and acclimation to 
lower pH levels, and the socioeconomic fallout that we will 
experience.
    Clearly, following through with this work, which has been 
outlined in the NRC's report, will be vital to the future of 
our coastal economies, as I'm sure Mr. Waters and Mr. Ingram 
will attest. And what affects our coastal economy drives our 
national economy; in fact, more than 75 percent of the growth 
in this country between 1997 and 2007 was in coastal states, 
whether measured by population, jobs, or GDP. Every year, the 
ocean-dependent economy, comprised of tourism, fishing, and 
other marine industrial activities, generated more than $138 
billion in revenues, including $70 billion from tourism alone.
    As ocean acidification weakens coral reef structures that 
protect many of our southern shores, we also risk losing a 
vital buffer against coastal storm surges, leaving these 
regions increasingly vulnerable.
    In my home State of Maine, our shellfish industry, led by 
the iconic Maine lobster industry, represents more than 80 
percent of our landings totalling over $250 million, in fact, 
in 2008. To date, the brunt of the effects of acidification has 
been outlined very eloquently by the Chair regarding the 
Pacific Northwest. So, it remains unclear what increasingly 
acidic oceans will mean for New England's fishermen. Some 
reports have shown that lower pH levels can result in lower 
shellfish reproductive rates and decrease shell thickness, 
leading to greater vulnerability to predators. However, in some 
species, such as lobster, shell growth can actually speed up. 
The point is, we don't know.
    Regardless of what the final results will be, we simply 
cannot leave the future of our oceans and their valuable 
resources to chance. That's why I joined the Chair in 
cosponsoring legislation offered by Senator Lautenberg that, 
fortunately, became law in 2009, to create a program within 
NOAA to study ocean acidification. I also joined in sending a 
letter to the NOAA Administrator, Dr. Jane Lubchenco, in her 
appearance at Copenhagen asking her to prioritize, not only 
climate change, but also the issue of ocean acidification.
    As we know, the conference did not, ultimately, produce a 
consensus on climate change; acidification was a prominent 
topic. The world is beginning to acknowledge this looming 
catastrophe, and our obligation to act quickly and decisively 
to manage it. To do that, we must enhance our research 
capabilities, including a greater commitment to the Integrated 
Ocean Observing System. I sometimes sound like a broken record 
on this issue.
    At this subcommittee's hearing in 2007 on ocean 
acidification, all six of the witnesses underscored the view 
that the ocean observing systems are integral to boosting our 
ability to monitor this problem.
    I introduced legislation that was enacted along with the 
Ocean Acidification Act, paving the way for enhancement of this 
vital tool. Unfortunately, NOAA has failed to adequately 
support the implementation. For 2011, the agency has requested 
just $21 million for this program, more than $12 million less 
in the previous year, and less than half of the $53 million 
that has been requested by the National Federation of Regional 
Associations that estimates the regional components of the 
system required in order to function properly. The NRC report, 
released today, lists an ocean-observing network as its first 
recommendation, and rightfully so, further reinforcing the 
imperative to sustain and enhance this system.
    As we'll hear from our witnesses today, the implications of 
ocean acidification are still being researched, but the basic 
equation is simple: acidification makes it more difficult for 
shell-building organisms to survive. This leaves less food for 
larger fish that we catch and eat. It leaves fewer corals to 
serve as fish nurseries, act as storm buffers, and to inspire 
visitors, as vibrant reminders of the diversity and the 
complexity of marine life. Follow this trend to its logical 
conclusion, and the cost of inaction is too great to 
contemplate.
    So, again, Madam Chair, thank you for holding this hearing 
today, and thank you all for being here.
    Senator Cantwell. Thank you. And I want to give my 
colleagues, who have been leaders, Senator Boxer and Senator 
Lautenberg, a chance to make opening statements, and then we'll 
turn to the witnesses, as well.
    And I want to just thank Senator Boxer for her leadership 
as Chairman of the EPW Committee--and has been an advocate of 
oceans policies, passed many bills through this committee. And 
so, we appreciate her being here today.

               STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Well, I want to thank you, Madam Chairman 
and Ranking Member Snowe. Senators Lautenberg, and I know we've 
been joined by Senator Nelson.
    You know, all of us see this in a very similar light. We 
have to act. And it's very fitting that, on this day, Earth 
Day, we're discussing ocean acidification. Because I believe it 
is one of the biggest threats facing our oceans.
    I want to thank our panel, each and every one of you, for 
coming forward.
    About a third of the carbon dioxide we've emitted into the 
atmosphere has been drawn down into the ocean. The climate 
change our planet is experiencing would be even more severe 
without this important process. The ocean is a very large 
carbon sink, and it is now showing the stress and the strain of 
that.
    Adding so much carbon dioxide to the ocean has caused its 
pH to decrease by a tenth of a unit since the beginning of the 
Industrial Revolution, and that is what ocean acidification is. 
When you add carbon dioxide to water, it makes calcium 
carbonate minerals that dissolve more easily, and that 
threatens species whose shells or skeletons contain these 
materials, such as the corals, commercially imported shellfish, 
like mussels, clams, and oysters, and some microscopic algae 
that form the basis of the entire marine food web.
    Earlier this morning, I did a little experiment. I was 
thinking of doing it out here, but I thought that this--``This 
belongs in the science lab.'' But, I did a little experiment.
    We had a jar of plain water, and we had a jar of sparkling 
water, which has carbon dioxide added to it, and we took two 
pieces of chalk and--those are basically calcium carbonate--and 
we dropped one into each glass. And when you drop the chalk 
into the still water, nothing happened. It just--the chalk sat 
there. But, immediately upon dropping it into the carbonated--
the carbon dioxide water, you saw, immediately--immediately, 
the chalk began to dissolve. And it's a very simple, well- 
known chemical reaction, but it has complex impacts on our 
marine ecosystems.
    And I won't reiterate what Senator Snowe said about the 
economic impact of losing this very special and precious 
environment. My estimates are, from my staff, that if you take 
``the rainforests of the sea,'' as we call them, and you look 
at the tourist attraction they are, and you look at everything 
else that goes along with it, you're looking at a global 
economy of fishery resources and tourism of $375 billion. 
Imagine. And the devastation would be enormous, in so many 
ways, if we lose this environment.
    I won't go into my support of Frank's--Lautenberg--Senator 
Lautenberg's legislation. I was proud to do that, as well. We 
all are working to make sure that we have this research done.
    But, I want to give you my opinion, and it may be worth 
something to somebody, and that is that unless we have a 
climate change bill, we're going to whistle past the graveyard, 
because this is--we're talking about a carbon sink. This is the 
problem. The carbon is going into the ocean, so much of it.
    And so, I hope, and even pray, yes, that, here in the 
Senate, we will have the breakthrough with the bipartisan 
efforts--I would say tripartisan--an Independent, a Republican, 
and a Democrat--the Kerry-Lieberman-Graham bill, and I'm 
working with them, and hope it will a good bill. And if we can 
make that breakthrough, we're going to turn this around. And I 
just am so committed to that and hope that my colleagues will 
move forward, because we can study this, and we must, and we 
should. But, we know the oceans are a carbon sink. So, the 
obvious thing to do is just cut down on the amount of carbon 
we're putting into the atmosphere. It's simple. It's not simple 
to pass the bill, I understand. But it--we know what we have to 
do.
    And I just want to say to my colleagues on this committee, 
on both sides of the aisle, what leaders they have been on the 
environment. And it gives me a lot of solace, to know that 
they're here, looking at these issues. At the end of the day, 
we have to be bold, and we have to address this.
    I just want to say to Ms. Weaver, you know, I--representing 
the State of California, we have so many very, very famous 
stars, and we have famous directors, and we have--a lot of 
fame.
    [Laughter.]
    Senator Boxer. And I so appreciate when people with that 
aura come forward, because what you do--first, you give up a 
little bit of your privacy, and I know that's hard. But, what 
you do is, you gain attention to the issue that--a lot of us 
try to gain attention to it. We get a little bit, but we really 
can't hold a candle to the attention that you will get by your 
testimony here. And, obviously, your work in the movies--and 
Jim Cameron and all the rest. So, I want to thank you from the 
bottom of my heart for that.
    And I would yield back to the Chair or the Ranking Member.
    [The prepared statement of Senator Boxer follows:]

 Prepared Statement of Hon. Barbara Boxer, U.S. Senator from California

    Thank you, Madam Chairman, for holding this hearing--fittingly, on 
Earth Day--to discuss ocean acidification. This is one of the biggest 
threats facing our oceans.
    About one-third of the carbon dioxide we have emitted into the 
atmosphere has been drawn down into the ocean. The climate change our 
planet is experiencing would be even more severe without this important 
process.
    Unfortunately, as reported by the National Research Council today, 
adding so much carbon dioxide to the ocean has caused its pH to 
decrease by a tenth of a unit since the beginning of the industrial 
revolution, a process called ocean acidification.
    When you add carbon dioxide to water, it makes calcium carbonate 
minerals dissolve more easily, threatening species whose shells or 
skeletons contain these minerals--such as corals, commercially-
important shellfish like mussels, clams, and oysters, and some 
microscopic algae that form the basis of the entire marine food web.
    The economic consequences of ocean acidification could be enormous. 
The ocean economy generates $230 billion in economic activity and 3.6 
million jobs nationwide, with more than half of those revenues and two-
thirds of those jobs coming from ocean tourism, recreation, and 
fishing. Coral reefs, which have been called ``rainforests of the 
sea,'' provide an estimated $375 billion per year in economic activity, 
while covering less than 1 percent of the Earth's surface. Imagine the 
economic devastation if we lose these important resources.
    Much is still unknown about exactly how ocean acidification will 
affect marine ecosystems, and this is a top priority for ocean 
research. That's why I proudly co-sponsored the Federal Ocean 
Acidification Research and Monitoring Act, which was signed into law in 
March 2009. This legislation established a coordinated Federal research 
and monitoring program on ocean acidification.
    While we continue to study the impacts of ocean acidification, we 
also need to reduce our emissions of carbon dioxide that are changing 
global climate and ocean chemistry--which is why moving clean energy 
legislation has been one of my top priorities as Chairman of the 
Environment and Public Works Committee.
    I look forward to hearing from our panelists about the latest 
information on ocean acidification, and will continue to work with my 
colleagues in Congress to address this important issue.

    Senator Snowe. Thank you very much, Senator Boxer.
    Senator Lautenberg.

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Thank you, Madam Chairman. And my 
colleagues, I think, amply laid out the problem. Around here, 
everything may have been said, but everybody hasn't said it. 
So, we'll take our----
    [Laughter.]
    Senator Lautenberg. And, Ms. Weaver, thanks for your help. 
The last time I saw you, you weren't looking back at me, but 
you were in outer space, and it was quite something. And, at 
that time, I also had hair. So, we've had----
    [Laughter.]
    Senator Lautenberg.--we've had changes.
    Our oceans cover, as we know, 70 percent of the Earth's 
surface. In my home State, New Jersey, though small in size, we 
have 127 miles of shoreline, and we're terribly--extremely 
dependent on our coast to energize our economy, create jobs, 
and support families. In fact, our coast is a $50-billion-a-
year economic powerhouse that's responsible for one out of 
every six jobs in the State of New Jersey. Whether it's 
fishermen, hotel workers, shop owners, our state depends on 
this natural resource; so does our country. Our oceans generate 
more income for our economy, the U.S. economy, than the entire 
agricultural sector. And despite that, our oceans are under 
assault--water pollution, climate change, offshore drilling--
all pose severe threat to their future. But, it doesn't end 
there, and the ocean acidification is a problem that is 
intensifying, as we've heard.
    About one-third of all carbon dioxide pollution that we 
release into the air is absorbed by the Earth's oceans, making 
the oceans more acidic. This increase in acidity threatens to 
decimate entire species, including those that are at the 
foundation of our marine food chains. If that occurs, the 
consequences are devastating.
    And when I look at my grandchildren--and that's my 
motivator--and I think about what life might be like in 20 or 
30 years, it's not a pleasant prospect. And I'm going to do 
whatever I can to fight against it.
    Imagine what the collapse of the food chain would mean to 
commercial fishing, tourism, and coastal communities. And 
that's why I wrote the Federal Ocean Acidification Research and 
Monitoring Act. It became law last year, and coordinates all 
Federal research on this serious threat.
    And, once again, Sigourney, your help--immense on being--in 
getting that law passed, and I'm equally grateful to you. We 
all should be.
    The President's budget funds this new law for the first 
time, and it includes more than $11 million to assess the 
effects of the ocean acidification. It's a good start, but I 
have questions about whether it's enough.
    And now, even as we zero in on the effects of ocean 
acidification, we also have to address the causes, as Senator 
Boxer said. We cannot sit on our hands while carbon pollution 
continues to spew from trucks, cars, power plants. And that's 
why we've got to pass an effective climate change bill that's 
going to cut global--the global warming pollution and spark a 
new clean energy economy.
    Putting limits on carbon pollution will not only protect 
our vibrant coastal economies, it's going to create 
manufacturing jobs, clean up the air that our children breathe, 
and reduce our dependence on dirty, unsafe fuels.
    And I thank all of you for being here, for your willingness 
to testify. And it's even possible we might have a 
disagreement, but welcome.
    Thank you.
    Senator Snowe. Thank you very much, Senator Lautenberg, I 
appreciate it.
    Before we hear from our panel of witnesses, I'd like to 
play a short video produced by the Natural Resources Defense 
Council.
    We thank you very much for creating this documentary that I 
think sends a very powerful message about the challenge that 
we're facing with respect to our oceans.
    Now we'll see if the technology works.
    [Video presentation.]
    Senator Snowe. Well, it's clear that that portion of the 
video, I think, again underscores and powerfully portrays the 
challenge that we face and must confront.
    So, again, I thank all of you for joining us today, and now 
I'd like to introduce our panel for their testimony.
    Ms. Sigourney Weaver, Actress, narrator of ``The Acid Test: 
The Global Challenge of Ocean Acidification''; Dr. James Barry, 
Senior Scientist,, Monterey Bay Aquarium Research Institute; 
Mr. Donny Waters, Commercial Fisherman from the Gulf of Mexico; 
Mr. Tom Ingram, Executive Director, Diving Equipment and 
Marketing Association; Dr. John Everett, President, Ocean 
Associates, Incorporated.
    Ms. Weaver, we'll begin with you.

             STATEMENT OF SIGOURNEY WEAVER, ACTRESS

    Ms. Weaver. Red light--oh, testing, testing.
    [Laughter.]
    Ms. Weaver. OK, thank you.
    [Laughter.]
    Ms. Weaver. Hi. My name is Sigourney Weaver, and I am 
honored to appear before you today, the 40th anniversary of 
Earth Day, as we've all said, to testify about ocean 
acidification. I am not here as a science--a scientific or a 
policy expert, but as a concerned American and as an Earthling.
    [Laughter.]
    Ms. Weaver. My father was a Navy man. His one requirement 
as we grew up was that he always had to be in sight of a body 
of saltwater. So, I had the great advantage of growing up next 
to the sea and listening to foghorns at night and being chased 
by horseshoe crabs by day. And I think, like a lot of us, I 
thought of the oceans as these vast, infinite places, certainly 
infinitely forgiving, in terms of whatever we were doing to 
them or throwing into them. And now, of course, we know that 
this is not the case.
    One of the things I love about the ocean is the mystery of 
marine life. The oceans contain so much life and variety, as 
you've just seen, and a lot of it is hidden from our sight. A 
lot of it is, if you'll excuse the pun, alien to us. And this 
makes the process of learning about the oceans, and what lives 
in them, an unending series of surprises and discoveries, 
because the oceans are so full of organisms that are unlike 
anything we know on land, that sometimes their very existence 
seems impossible. For instance, there are life forms that don't 
even need light or food to survive. They consume chemicals, 
like hydrogen sulfide, that bubble up from deep sea vents.
    And these same features that make the ocean so wonderful, 
their mystery and their otherworldliness, have actually worked 
to the oceans' disadvantage now, because for many of us, the 
oceans are sort of out of sight and out of mind, and we take 
them for granted. Their inaccessibility has limited our 
scientific exploration, and their vastness and power have made 
them seem indestructible, with endlessly renewing resources. 
So, we tend to forget the oceans are finite and vulnerable, and 
that we all depend on them for our survival, and for our 
completeness, regardless of where we live or what we eat.
    The oceans generate most of our oxygen, they regulate our 
climate, they provide most of our population with sustenance. 
We cannot prosper unless the oceans prosper, too. And the 
oceans are not prospering.
    Unfortunately, one secret that the oceans have kept very 
well is their sensitivity to carbon dioxide pollution. 
Scientists have known for decades that when CO<INF>2</INF> 
mixes with ocean water, it creates carbonic acid; but only 
recently did we begin to realize that this growing quantity of 
carbonic acid--what that would mean for ocean life. And, you 
know, as you have seen in ``Acid Test,'' this new understanding 
has many of the world's leading scientists deeply concerned.
    So, what they say is that the oceans are 30 percent more 
acidic today than they were during pre-industrial times, and if 
we continue burning fossil fuels as we are now, we will 
actually double the ocean's acidity by the end of this century. 
And scientists believe that many organisms may not survive so 
radical a shift in chemistry. Some of those organisms, certain 
plankton and corals, for instance, which form the foundation of 
ocean food webs, if they perish--and they are already 
suffering; we have scientific data that is indisputable--what 
happens to the hundreds of thousands of species further up the 
food chain? What happens, then, to our shellfish, our oysters, 
clams, and mussels that appear particularly vulnerable to ocean 
acidification?
    Now, despite scientists' concern, this phenomenon of ocean 
acidification was, until very recently, little known to the 
public, certainly not known to myself. And that is the reason 
``Acid Test'' was made, and certainly the reason I joined the 
project, which Natural Resources Defense Council, an 
organization whose work I have long admired, called and said, 
``Will you participate in this?''
    Now, despite the seriousness of this threat from ocean 
acidification, there is cause for hope. And my hope, one that's 
shared by millions of Americans, is that you, our legislators, 
will put aside your differences and enact climate and energy 
legislation that will move America to a clean energy economy, 
an economy based on efficiency and renewable power that will 
build a workable future for all living things.
    In addition, lawmakers must help ocean ecosystems adapt to 
the changes brought about by a warming climate and acidifying 
oceans. To make the oceans more resilient to these changes, we 
need to do a better job of keeping oceans healthy. That means 
restoring depleted fish populations, protecting important 
marine and coastal habitats, and reducing pollution, 
particularly nutrient pollution, in the coastal zones.
    Finally, it is critical in--critically important that our 
Nation invest in research that will help us all better 
understand the implications of ocean acidification, because 
we're only now beginning to understand the changes that occur 
in an increasingly acidic ocean world.
    Having been in the movie ``Avatar,'' I know how 
passionately people feel all over this country, and all over 
the world; they want to preserve and protect our planet. This 
is particularly true in our country, I think. It's not 
considered a partisan issue for Americans. And we need your 
leadership, we need your courage, and we need your willingness 
to act.
    The recent documentary series on our National Parks showed 
how, time after time, with the Grand Canyon and Yellowstone and 
the Adirondacks, it was our legislatures--legislators who had 
the foresight and courage to save us from our own lack of 
vision. The oceans are sending us a message, loud and clear: 
Dirty fossil fuels are killing them, and time is running out. 
We need you to listen and to lead.
    Thank you for this opportunity.
    [The prepared statement of Ms. Weaver follows:]

            Prepared Statement of Sigourney Weaver, Actress

    My name is Sigourney Weaver and I am honored to appear before you 
today, the 40th Anniversary of Earth Day, to testify about ocean 
acidification. I am here not as a scientific or policy expert, but as a 
concerned citizen.
    My father was a Navy man and the one requirement he had as I was 
growing up, in terms of where we lived, is that we had to be within 
sight of a body of salt water at all times. So I grew up listening to 
foghorns at night and being chased by crabs by day. And I think like a 
lot of us, I thought of the oceans as infinite and vast, and certainly 
infinitely forgiving in terms of what we were doing to them. We now 
know, of course, that that is not the case.
    What I love about our oceans is the mystery of marine life. The 
oceans contain so much life and variety and most of it is hidden from 
our sight. A lot of it is--if you'll pardon the pun--alien to us. And 
this makes the process of learning about the oceans and what lives in 
them an unending series of surprises, a constant discovery of 
treasures.
    The ocean is full of organisms that are so unlike anything we know 
on land that their very existence seems impossible. For instance, there 
are life-forms that don't need light or what we'd think of as food to 
survive. They simply consume chemicals, such as hydrogen sulfide, that 
bubble up from deep sea vents.
    These same features that make the ocean so wonderful--its mystery 
and other worldliness--have actually worked to the oceans' 
disadvantage, because for many of us, the oceans are out-of-sight and 
out-of-mind. Their inaccessibility has limited our scientific 
exploration, and their vastness and power have made them seem 
indestructible, with endlessly renewing resources.
    So we tend to forget that the oceans are both finite and 
vulnerable, and that we all depend on them for our survival, regardless 
of where we live or what we eat.
    Organisms in the oceans generate most of our oxygen, the oceans 
regulate our climate, and they provide a large portion of the world's 
population with sustenance. We cannot prosper unless the ocean 
prospers, too. And the oceans are not prospering.
    Unfortunately, one secret the oceans have kept very well is their 
sensitivity to carbon dioxide pollution. Scientists have known for 
decades that when CO<INF>2</INF> mixes with ocean water it creates an 
acid; this is textbook chemistry. But only recently did they begin to 
realize what this growing quantity of acid would mean for ocean life. 
As you see in the film Acid Test: The Global Challenge of Ocean 
Acidification, this new understanding has some of the world's leading 
ocean scientists deeply concerned.
    What they say is this: the oceans are 30 percent more acidic today 
than they were during pre-industrial times and, if we continue burning 
fossil fuels as we are now, we will double the ocean's acidity by the 
end of the century.
    Now scientists fear many organisms may not survive so radical a 
shift in chemistry. And some of those organisms--certain plankton and 
corals, for instance--form the foundation of ocean food webs. If they 
perish, what happens to the tens of thousands of species further up the 
chain? What happens to our shellfish--our oysters, clams, mussels--that 
appear particularly vulnerable to ocean acidification?
    Despite scientists' concern, the phenomenon of ocean acidification 
was, until very recently, little known to the public. That is the 
reason the film Acid Test was made. And it is the reason I joined the 
project when the Natural Resources Defense Council (NRDC), an 
organization whose work I have long admired, called.
    Despite the seriousness of the threat from ocean acidification, 
there is still cause for hope. My hope, one shared by millions of 
Americans, is that you, our legislators, will put aside your 
differences and enact climate and energy legislation that will move 
America to a clean energy economy--an economy based on efficiency and 
renewable power--that will build a workable future for all living 
things.
    In addition, lawmakers must help ocean ecosystems adapt to the 
changes brought about by a warming climate and acidifying oceans. To 
make the oceans more resilient to these changes, we need to do a better 
job of keeping the oceans healthy. That means restoring depleted fish 
populations, protecting important marine and coastal habitats and 
reducing pollution, including nutrient pollution, in the coastal zones.
    Finally, it is critically important that our Nation invest in 
research that will help us better understand the implications of ocean 
acidification. We are only beginning to understand the changes that 
could occur in an increasingly acidic ocean world.
    Thank you for the opportunity to share my testimony today.

    Senator Cantwell [presiding]. Thank you, Ms. Weaver. And 
let me add my thanks to you for your leadership on this issue. 
In Washington State, we have a statement, that 
environmentalists make great ancestors. And----
    [Laughter.]
    Ms. Weaver. We hope.
    Senator Cantwell.--I think that your--I think that your 
stewardship is about helping us take care of the planet. So, 
thank you for being here on Earth Day and for----
    Ms. Weaver. Pleasure.
    Senator Cantwell.--your active effort in helping to explain 
this to the--to many people, who yet need to be convinced. So, 
thank you.
    Mr. Ingram, we're going to turn to you and go right down 
the line of our panelists, and then we'll go to questions.

    STATEMENT OF THOMAS INGRAM, EXECUTIVE DIRECTOR, DIVING 
              EQUIPMENT AND MARKETING ASSOCIATION

    Mr. Ingram. OK, thank you very much.
    Good morning, Chair Cantwell, Ranking Member Snowe, members 
of the Committee. I'm Tom Ingram, I am Executive Director of 
the Diving Equipment and Marketing Association, and I want to 
thank you for the opportunity to testify on the potential 
economic impacts of ocean acidification on the recreational 
scuba and snorkeling industries.
    DEMA is a nonprofit trade association, we represent dive 
businesses worldwide. Our mission is to promote sustainable 
growth in safe recreational diving and snorkeling while 
protecting the underwater environment. So, we have a vested 
interest in what's going on here today.
    My testimony today will focus on several areas: the 
dependence of the diving industry on a healthy marine 
environment, now and for the future; the overall economic value 
of recreational diving and snorkeling; how ocean acidification 
could impact diving-related businesses; and then DEMA's ability 
and desire to provide additional input as policies are 
considered and crafted.
    You know, divers, perhaps more than many, are very aware of 
the need for a long-term sustainability of this resource; far 
more than others, perhaps, because we see it firsthand every 
time we go into the water. The health of the ocean directly and 
immediately impacts our business, and without an appropriate 
place to dive, there simply isn't a diving industry at all. 
Divers, and diving professionals for that matter, are stewards 
of the aquatic environment; they respect it, they want to 
protect it. And DEMA itself, as a representative of the 
industry, has been an advocate of appropriate legislation, 
where science and economics indicated the need.
    In the past, we've advocated reauthorization of the 
National Marine Sanctuaries Act, we supported and commented on 
the creation of marine life protection areas, we drafted the 
2008 Ships To Reefs legislation in Florida to take pressure off 
natural reefs by sinking retired ships as artificial reefs.
    There are between 2.7 and 3.5 million active scuba divers 
in the U.S., and about 6 million active scuba divers worldwide. 
In that little chart that you all had up here earlier, we're 
about a sliver, that big, we're very tiny. But, every year, 
about 200,000 people become certified in the United States. And 
by some estimates more than a million people worldwide try 
diving under the direct supervision of a dive professional, 
without ever becoming certified. All of these groups are 
attracted to coral reefs, and all help support the diving 
business. Any loss of access to dive sites, or the destruction 
of coral reefs due to ocean acidification--or any other reason, 
for that matter--are going to impact our industry in a number 
of different ways.
    Probably the most immediate is the loss of activity, which 
equals the loss of jobs. In the U.S. there are about 92.5 
million snorkel diver days per year and about 22.8 million 
scuba diver days per year. U.S. economics studies show that 
diving activity alone, just the activity itself, aside from 
manufacturing and training and travel and retail and the diving 
media, the activity itself is responsible for about 340,000 
full-time equivalent jobs here in the U.S. We also contribute 
about $11 billion to the gross domestic product through direct, 
indirect, and induced revenue.
    So, we have a contribution to make, as well, and I think, 
beyond dollars and jobs, there's something that's very 
important. Reefs have another value, and I like to call this a 
``nonmarket value.'' And it's truly an economic value for 
divers, because we like to see these reefs, and we like to see 
them in an unharmed state. And that is our economic value. 
Long-term, you can think of that nonmarket value as being 
something that's giving me, giving my industry, the ability to 
show these coral reefs to my children and to my grandchildren, 
two of whom are sitting right here in the room today.
    The loss of reefs through ocean acidification will impact 
business, for sure; it will hit the human side of our business. 
There are approximately 1800 retail dive centers in the United 
States, there are about 200 DEMA member destinations around the 
world; all of those could be lost if we were to lose our coral 
reefs, because they all depend on them, to some extent.
    And I think the challenge for this committee with regard to 
ocean acidification, at least from our perspective, is finding 
the balance of keeping these businesses viable while protecting 
the oceans. We, at DEMA, believe we can assist in understanding 
what that market value is, and what the nonmarket value is, of 
these resources, and in finding the balance that allows 
continued usage and access, but also helps protect the resource 
and the businesses that are built around them. We can provide 
you with firsthand information that could be helpful to the 
Committee.
    We strongly support the economic and environmental 
investigation of the effects of ocean acidification being 
undertaken by this committee. We look forward to working with 
Congress to develop a balanced approach between the immediate 
economic business issues and the long-term health of the 
critical coral reef and ocean resources.
    Thank you very much for this opportunity to express the 
diving industry's concerns regarding ocean acidification.
    [The prepared statement of Mr. Ingram follows:]

       Prepared Statement of Thomas Ingram, Executive Director, 
               Diving Equipment and Marketing Association

Introduction
    Good morning Mr. Chairman, Senator Cantwell, and members of the 
Committee. I am Tom Ingram, Executive Director of the Diving Equipment 
and Marketing Association. Thank you for the opportunity to testify on 
the potential economic impacts of ocean acidification on the 
recreational scuba diving and snorkeling industries.
    The Diving Equipment and Marketing Association (DEMA) is a non-
profit trade association (501 (c) 6) based in San Diego California, 
representing the business and consumer interests of the recreational 
scuba and snorkel diving industries all over the world. DEMA's mission 
is to promote sustainable growth in safe recreational scuba diving and 
snorkeling while protecting the underwater environment.
    My testimony today will focus on the interest of snorkeling and 
scuba diving participants in protecting and respectfully using the 
marine environment while keeping it clean and healthy, on the economic 
benefit of access to healthy dive sites for U.S. and international 
recreational scuba diving and snorkeling interests, on job creation and 
economic benefit to communities based on diving activity and access to 
an attractive environment, and on the economic concerns of these 
industries should such access be lost due to ocean acidification or for 
any reason. I will also reiterate our industries' interest in 
participating in and assisting with policy development and 
implementation as such policies are considered.

Interest of Snorkelers and Scuba Divers in Protecting the Marine 
        Environment
    DEMA strongly supports scientific and economic investigation to 
determine the potential impacts of ocean acidification and looks 
forward to working with Congress to ensure that the marine environment 
remains clean and healthy, a viable place for continued diving consumer 
use, and remains open to careful stewardship by diving businesses 
around the world. We applaud Congress for scheduling this hearing as a 
means of gathering information for such investigations.
    The diving industry depends on continuing interaction with a 
healthy marine environment for its very existence, and is aware of the 
need for long term sustainability of these resources for all. 
Consequently, the diving industry is dedicated to protecting the marine 
environment for its own well-being and for the well-being of all. For 
these reasons DEMA's mission statement includes an expressed 
acknowledgment of the need for protecting the aquatic environmental.
    Scuba divers and snorkelers are strong advocates for environmental 
protection in part because they can observe first-hand the coastal 
marine ecosystem, and can relate that information to friends, family 
and acquaintances. Divers have long been concerned with the effects of 
pollution and other potential sources of damage; whether from run-off 
that originates from populated regions in proximity to diving areas, 
from potential sources of CO<INF>2</INF>, or from other sources. Scuba 
divers and snorkelers are stewards of a unique environment upon which 
they depend for recreation and study. All ``certified'' scuba divers 
today are educated to maintain proper buoyancy and positioning while 
diving, which helps to prevent accidental damage to natural marine and 
other aquatic resources. Many divers seek additional training to better 
understand the complex nature of coral reef communities, fishery 
resources and how to contribute to the knowledge base needed to monitor 
and protect these environments. With their first-hand observation of 
these protected areas, divers can and do encourage others to protect 
these resources.
    The most active divers in the U.S. today participate in diving 
activities in many areas of the country, including such locations as 
the Florida Keys National Marine Sanctuary, areas of California and 
Hawaii, and other U.S. territories in the Caribbean and in the Pacific. 
According to a study by the Professional Association of Diving 
Instructors (PADI), 78 percent of divers travel to dive within 12 
months of receiving their initial diver training and certification.
    According to a 2006 and 2009 DEMA study, today's most active divers 
fit the following profile:

  <bullet> Age--Between 38 and 53 years old--Mean: 45 Median: 46

  <bullet> 76 percent are male

  <bullet> Household Income--56 percent make between $75,000 and 
        $100,000

  <bullet> Occupation--80 percent are White-Collar/Professional/
        Technical/Management

  <bullet> Home ownership--93 percent own their own home

  <bullet> Mortgage amount--Median of $148,000

  <bullet> Marital Status--71 percent married

  <bullet> Presence and age of children--17 percent have kids under 18

    Generally an affluent demographic such as described above is 
concerned with the environment and with the sustainable use of natural 
resources (Source: Murch, Arvin. 1971. ``Public Concern for 
Environmental Pollution.'' Public Opinion Quarterly 35:100-106). The 
environmental concerns of divers are consistent with this study.
    A 2003 study by Flexo, Hiner and Partners (FHP), which included 
divers and non-divers in the age range of 20 to 59, indicated that 81 
percent participate in aquatic activities because they wish to be 
``closer to nature.'' In addition, a 2005 study by Knowledge Networks 
indicates that adults within this demographic (age 41-59) are attracted 
to ``Adventure Activities'' indicating an affinity for nature or ``eco-
related'' activities (See Exhibit B).
    Scuba divers and snorkelers regularly participate in such 
activities as underwater photography, observing and counting fish, 
reporting environmental concerns to state and Federal authorities, and 
participating in beach and submerged coastal clean-up activities. Non-
profit, U.S.-based organizations, such as The Reef Environmental 
Education Foundation (REEF), the Coral Reef Alliance (CORAL), and the 
Project AWARE Foundation provide many opportunities for divers and 
others to understand more about reefs, ecosystem management, 
sustainable tourism, and how to become effective environmental 
advocates. To date for example, REEF has involved divers in more than 
118,000 surveys of aquatic life, contributing to the knowledge base in 
areas of fish populations and invasive species. During almost two 
decades, Project AWARE Foundation has completed thousands of beach and 
underwater clean-up activities involving divers and non-divers with an 
interest in protecting the marine and aquatic environments.
    A study by Knowledge Networks in 2005 indicated there are 60 
million active travelers vacationing specifically for outdoor 
activities, one-third of which are over the age of 45. The Outdoor 
Industry Association Foundation indicates that adults with similar 
demographic characteristics as those of the most active divers are 
predisposed to water-related activities on vacation. This 
predisposition appears to be related to their desire to observe the 
diversity of marine environments accessible first-hand only to divers 
and snorkelers, and helps explain the attraction of diving to the 
described adult population. In fact, some organizations use this 
environmental concern as a means of promoting diving and attracting new 
diving participants.
    In conclusion of this point, divers and diving professionals, and 
all of those connected with the diving industry actively observe and 
protect the environment on which they depend for recreation, and for 
their livelihoods. Perhaps John J. Cronin, one of the founders of PADI 
said it best, ``If divers do not take an active role in preserving the 
aquatic realm, who will?''

Economic Impact of Access to Healthy Dive Sites: the Economics of 
        Recreational Diving and Snorkeling
    There are approximately 2.7 to 3.5 million active divers in the 
U.S. alone, with estimates as high as 6 million worldwide. According to 
Understanding the Potential Economic Impact of SCUBA Diving and 
Snorkeling: California (2006), Linwood H. Pendleton, Associate 
Professor, Environmental Science and Engineering Program at the 
University of California, Los Angeles, estimated that by 2010 there 
would be about 11 million snorkelers in the US. PADI estimates that 
there are some 20 million snorkelers worldwide.
    Leeworthy and Wiley estimate that about 5.07 percent of the U.S. 
population participates in snorkeling (approximately 11 million) and 
they participate at the rate of 92.5 million diver-days annually. 
Leeworthy and Wiley further estimate that 1.35 percent of the U.S. 
population participates in scuba diving (about 2.79 million) at the 
rate of 22.8 million diver-days annually (See Exhibit F).
    A 2006 DEMA study indicated that divers remain active in the sport 
for a long time. Studies indicate that divers have a participation 
``half-life'' of about 5 years. That is, some 5 years after receiving 
their initial training and diver ``certification,'' about 50 percent of 
the diver population will have discontinued their diving activity. 
Approximately 5 years later an additional 50 percent of the initial 
diver population will cease or reduce diving activities, and so on. In 
the U.S. about 200,000 new divers are trained and certified each year.
    Interestingly, many ``divers'' never actually become ``certified.'' 
A large number (by some estimates more than one million globally) 
participate in ``try diving'' experiences. These individuals are under 
the direct supervision of a diving professional, and though they never 
complete a certification course, they nonetheless participate in diving 
activities, many on living coral reefs in the ocean. They are therefore 
impacted by potential environmental degradation such as ocean 
acidification.
    Recreational scuba divers and snorkelers contribute to U.S. and 
international tourism revenue by purchasing dive trips, equipment and 
other diving-related items, and by spending on ancillary items such as 
hotels, food, fuel, air, water and ground transportation, and other 
items while traveling to local and distant dive destinations. Divers 
contribute to sales tax revenues for local counties, municipalities and 
states, and to Federal and state tax revenues through the creation of 
diving tourism-related jobs.
    Divers visit natural and artificial reefs, as well as other bodies 
of water to observe natural or man-made structures. Recreational diving 
is, therefore, possible under a variety of conditions and in a variety 
of locations. Most are attracted to clear warm water, and natural coral 
reefs and clean ocean environments play a key role in developing the 
``market value'' of these diving experiences.

Natural Reefs: Trade and Industry Value Including Snorkeling and Scuba 
        Diving
    Numerous individual economic studies have contributed to the 
economic picture of recreational diving and the value of natural reefs 
in terms of usage, tourism revenue, goods and services, and shoreline 
protection. Several of these are cited here.

Overall Reef Value
    According to Coral Reef Ecosystems Value: Enhancing Resilient 
Communities presented during Capitol Hill Ocean Week, June 4, 2008, 
Billy D. Causey, Ph.D., Regional Director, Southeast Region, National 
Marine Sanctuaries (See Exhibit C--Florida Coral Reefs Recreational 
Use), natural coral reefs contribute some $375 billion in goods and 
services annually to the world. Rodney V. Salm, PhD in his 
presentation, Taking the Heat in Tropical Seas (also for Capitol Hill 
Ocean Week, June 4, 2008) indicated that the average value of coral 
reefs was estimated to be about $813,000/sq. mile for recreational use, 
food, jobs and other services combined.
    A 2002 study of Hawaii estimated the value of that state's coral 
reefs at $364 million. It was noted in this same presentation that 
reefs provided shoreline protection that would otherwise cost an 
estimated $400,000 to $24 million/mile. In the Caribbean, shoreline 
protection provided by coral reefs is valued between $0.7 billion and 
$2.2 billion.
    Clearly, natural reefs have a significant impact on local and state 
economies in the U.S. as well as providing cost savings in terms of 
shoreline protection.

Value of Recreational Divers and Snorkelers Attracted to Natural Reefs
    Recreational divers, snorkelers, fishers, and others are attracted 
by the presence and accessibility of coral reefs, making them a 
significant part of diving tourist and travel promotional strategies.
    In the March 2003 An Assessment of the Socio-Economic Impact of the 
Sinking of the HMS Scylla the South West Regional Economy Centre at the 
University of Plymouth indicated that for every 10,000 diver days, 
three full time equivalent (FTE) jobs were created, half of which were 
direct (associated directly with diving) and half of which were 
indirect (associated with hotels, restaurants and other tourist and 
service employers). This same study indicates a contribution to the GDP 
of approximately <brit-pound>669,000 (US$1,027,800) for every 10,000 
diver-days (See Exhibit E).
    A 2000 report from the World Resources Institute indicates that 
coral reefs in the Caribbean alone contribute $2.1 billion for dive-
specific tourism. This same presentation recorded more than 8.80 
million visitor-days in Florida annually by snorkelers and scuba 
divers. The annual direct economic value of coral reefs to world 
tourism is estimated at some $9.6 billion.
    A study of Martin County Florida published in 2004 indicates that 
snorkeling on Martin County reefs generates about $465,000 in annual 
expenditures within the county, of which one-half are spent on boat, 
oil, and gas. Scuba diving on Martin County reefs generates about 
$672,000 in annual expenditures within the county of which about one-
half is spent on boat, oil, and gas. For all activities combined, the 
use of natural reefs generates $6,886,000 in annual expenditures within 
the county. Total annual reef-related expenditures, including natural 
and artificial reefs, are estimated at $12,000,000.
    According to the Socioeconomic Study of Reefs in Southeast Florida 
(October 2001, Florida Fish and Wildlife Conservation Commission, 
National Oceanic and Atmospheric Administration, in association with 
Florida State University), reef-related expenditures generated over 
$4.395 billion in sales in Palm Beach, Broward, Miami-Dade and Monroe 
Counties combined, during the 12-month period from June 2000 to May 
2001. These sales resulted in generating $2.047 billion in income to 
Palm Beach, Broward, Miami-Dade, and Monroe County residents during the 
same time period. During the same period, reef-related expenditures 
provided 71,300 full and part-time jobs in these four southeast Florida 
counties. Two-thirds of the economic contribution was associated with 
natural reef-related expenditures in Miami-Dade and Palm Beach 
Counties, 75 percent of the economic contribution was associated with 
natural reefs in Monroe County, and about fifty percent was associated 
with natural reefs in Broward County (See Exhibit A--Economic 
Contribution of Reef-Related Expenditures in Four Florida Counties).
    It should be clear that recreational diving and snorkeling 
contribute significantly to tourism-related businesses, in addition to 
the revenue contribution from diving activities derived directly by 
diving-related businesses. It should also be clear that recreational 
diving and snorkeling generate jobs in many different sectors, some of 
which are highly specialized, requiring extensive training.

Economic Concerns of Recreational Scuba Diving and Snorkeling 
        Regarding Loss of Coral Reefs or Coral Reef Access Due to Ocean 

        Acidification
    The recreational diving industry is dependent on the availability 
of quality diving and snorkeling sites, and this economic dependency 
extends to hotels, restaurants, marinas and other businesses associated 
with coastal and coral reef diving activities.
    As noted, it is estimated that three full time equivalent (FTE) 
jobs are created for every additional 10,000 diver-days. With 
approximately 115 million combined snorkeling and scuba diver-days 
annually in the U.S. alone, it is projected that such recreational 
diving activity, through direct and indirect contributions, delivers 
about $11 billion to the U.S. annual GDP (See Exhibits E and F) and 
creates more than 340,000 FTE jobs.

The Effects of Ocean Acidification and the Human Side of Coral Reef 
        Loss
    There are approximately 1,800 retail dive centers in the United 
States, most offering diving instruction, diving equipment sales and 
rental, providing clean filtered breathing air, and often selling dive 
travel (for a complete listing of retail dive store fronts, see 
www.BeADiver.com). There are more than 200 international destination 
DEMA members, many of which depend almost solely on healthy coral reefs 
to attract scuba divers and snorkelers.
    These businesses are the ``customer interface'' for the diving 
industry. They are the conduit by which diving equipment manufacturers, 
training organizations, the media and travel access potential diving 
consumers. All of these (typically larger) businesses depend to some 
extent on the retail dive center or its Internet equivalent. Without 
retail stores and tourist diving destinations, the industry cannot 
easily reach customers and the scuba and snorkel diving industries 
suffer.
    Many of these retail businesses are small or micro-businesses, most 
are independently owned and operated, and many are family operations, 
providing household income which puts children through school, buys 
homes, and feeds and clothes the entire family. These businesses are 
also job centers for specialized and highly trained professionals such 
as diving instructors, underwater photographers, biologists, aspiring 
writers, life-support service technicians, Coast Guard-licensed vessel 
captains, and a variety of others.
    Undoubtedly, losing coral reefs due to ocean acidification, or 
losing access to coral reefs for any reason would be economically 
detrimental to the recreational scuba and snorkeling industries in the 
U.S. and in every nation or territory that enjoys access to these 
natural wonders. Such loss would be devastating to members of the 
diving community and their families, and would place an economic burden 
on the coastal communities which depend on recreational diving and 
snorkeling for their livelihood.

Research and Policies
    By investigating both the economic and environmental impacts of 
ocean acidification, the Congress is being appropriately cautious and 
prudent in their actions. The recreational scuba diving and snorkeling 
industries could be detrimentally impacted by regulatory policies that 
create more immediate cost or reduction of access when such policies 
may be unnecessary or overly burdensome. In times of economic downturn 
the recreational diving industries experience many of the same 
circumstances as do other small recreational businesses; reduced 
revenue, fewer new customers, and less overall participation. According 
to a recent CNBC article (Survey: Pilates Exploding, Darts & Billiards 
Plummeting, published Tuesday, 30 Mar 2010), this reduced participation 
is common to many other water-related activities, ``Water sports are 
almost toxic. Since 2000, jet skiing (down 18.5 percent), scuba diving 
(36.7 percent) and water skiing (44.5 percent) have seen massive 
declines.''
    To introduce regulation without the critical research input that 
this Congress is now sensibly seeking may adversely impact these 
industries during the first fragile part of the economic recovery. By 
understanding more about the economics of ocean acidification on the 
diving industries, and on the families that participate in these 
businesses, it should be possible to balance the long term 
environmental needs of the oceans and reefs, with the more immediate 
concerns of those that help their customers enjoy the ocean 
environment.
    Since its inception DEMA as an organization has worked for the 
betterment of the environmentally sensitive resources on which our 
industries depend, while balancing the needs of diving businesses, and 
encouraging diving consumers to further protect these resources. Our 
efforts to protect the ocean, create jobs and recruit additional 
stewards for oceans and coral reefs have been enhanced by programs such 
as our Ships 2 Reefs program, providing information to those who would 
create environmentally safe artificial reefs. Using retired ships, 
carefully submerged in appropriate locations, takes fishing and diving 
pressure off natural reefs and helps increase aquatic life populations. 
DEMA's efforts resulted in the Ships 2 Reefs legislation enacted in 
Florida in 2008. DEMA has also been privileged to advocate for the 
reauthorization of the National Marine Sanctuaries Act, and comment on 
establishment of Marine Life Protected Areas, as well as other efforts 
to protect the underwater environment. We openly offer our assistance 
in understanding the economics of these industries or in other ways 
that make the most sense to this committee.

Suggestions from the Recreational Scuba and Snorkeling Industries
    DEMA applauds the Congress for their efforts and recognition that 
there is a need for additional economic and environmental investigation 
with regard to impacts of ocean acidification or other factors which 
might limit or prevent access to natural coral reefs. DEMA suggests 
that such economic and environmental investigations should:

        1. include input from all user groups

        2. provide for a clear balance between the long-term 
        environmental health and of this critical resource and the 
        immediate economic issues such as access limitations and 
        regulations that impact the industry and the cost to 
        participate in diving

The Diving Industry's Interest in Continued Participation in the 
        Economic Investigation of the Effects of Ocean Acidification
    DEMA and the recreational scuba diving and snorkeling industries 
appreciate the opportunity to be included in this economic discussion 
regarding the effects of ocean acidification. As the trade association 
for the recreational diving industries, DEMA has a strong interest in 
additional and continuing opportunities to contribute suggestions and 
ideas with regard to policy considerations and related activities.

Conclusion
    In closing, DEMA strongly supports the economic and environmental 
investigation of the effects of ocean acidification on coral reefs 
being undertaken by this committee. The recreational scuba diving and 
snorkeling industries can continue to be a formidable instrument in 
this committee's toolbox for discovering, reporting, studying and 
evaluating the impact of ocean acidification by providing first-hand 
information in areas such as coral reefs status, fish counts and other 
observable areas. DEMA willingly offers its assistance in these areas 
and looks forward to working with Congress to ensure that there remains 
a balance of consideration between the immediate economic issues and 
the long term health of the critical coral reef and ocean resources.
    Thank you for the opportunity to offer my thoughts on how the 
diving industry could be economically impacted by ocean acidification.
                                 ______
                                 
                                Exhibits
 Exhibit A--Economic Contribution of Reef-Related Expenditures in Four 
                       Southeast Florida Counties

    Economic Contribution of Reef-Related Expenditures to Each County
              June 2000 to May 2001--Residents and Visitors
------------------------------------------------------------------------
    Type of Economic      Palm Beach    Broward    Miami-Dade    Monroe
      Contribution          County       County      County      County
------------------------------------------------------------------------
Sales--All Reefs (in            $505     $2,069        $1,297      $490
 millions of 2,000
 dollars)
------------------------------------------------------------------------
Artificial Reefs                $148       $961          $419      $127
------------------------------------------------------------------------
Natural Reefs                   $357     $1,108          $878      $363
------------------------------------------------------------------------

------------------------------------------------------------------------
Income--All Reefs (in           $194     $1,049          $614      $139
 millions of 2,000
 dollars)
------------------------------------------------------------------------
Artificial Reefs                 $52       $502          $195       $33
------------------------------------------------------------------------
Natural Reefs                   $142       $547          $419      $106
------------------------------------------------------------------------

------------------------------------------------------------------------
Employment--All Reefs          6,300     36,000        19,000    10,000
 (number of full- and
 part-time jobs)
------------------------------------------------------------------------
Artificial Reefs               1,800     17,000         6,000     2,000
------------------------------------------------------------------------
Natural Reefs                  4,500     19,000        13,000     8,000
------------------------------------------------------------------------
Source: Socioeconomic Study of Reefs in Southeast Florida, Johns,
  Leeworthy, Bell, Bonn

                                 ______
                                 
       Exhibit B--Top 10 Adventure Activities of Adult Travelers

------------------------------------------------------------------------

------------------------------------------------------------------------
Top 10 Adventure Activities on the ``Most Adventurous Trip'' for adults
 age 41 to 59:
------------------------------------------------------------------------
1.                    Hiking/backpacking/rock and mountain climbing
2.                    Escorted or guided tour
3.                    Snorkeling
4.                    Camping (tent)
5.                    Fresh or saltwater fishing
6.                    Horseback riding (tied for 6th)
6.                    Biking (tied for 6th)
7.                    Whitewater rafting/kayaking
8.                    Sailing
9.                    RV camping
10.                   Scuba diving
------------------------------------------------------------------------
Source: 2005 Travel Survey, Knowledge Networks

                                 ______
                                 
            Exhibit C--Florida Coral Reefs Recreational Use

------------------------------------------------------------------------

------------------------------------------------------------------------
               Recreational Use of Coral Reefs in Florida
------------------------------------------------------------------------
Snorkeling                   4.24 million visitor days
------------------------------------------------------------------------
Scuba Diving                 4.56 million visitor days
------------------------------------------------------------------------
Fishing                      9.72 million visitor days
------------------------------------------------------------------------
Glass-bottom Boats           0.12 million visitor days
------------------------------------------------------------------------
TOTAL                        18.64 million visitor days
------------------------------------------------------------------------
Ref: Dr. Vernon R. Leeworthy, Chief Economist, Office of National Marine
                               Sanctuaries
------------------------------------------------------------------------

                                 ______
                                 
  Exhibit D--Recreational value of coral reefs in Hawaii in 2001 (US 
                                dollars)

----------------------------------------------------------------------------------------------------------------
                                        Value Added of
                          Consumer          Direct       Value Added of Indirect    Multiplier      Total Value
                           Surplus       Expenditure           Expenditure            Effect           Added
----------------------------------------------------------------------------------------------------------------

---------------------------------------------------Snorkelers---------------------------------------------------
----------------------------------------------------------------------------------------------------------------
Residents                 10,053,899          2,318,704                       --         579,676      12,952,279
----------------------------------------------------------------------------------------------------------------
U.S. West                 47,833,826         20,882,055               23,136,504      11,004,640     102,857,025
----------------------------------------------------------------------------------------------------------------
U.S. East                 33,174,006         14,482,250               20,450,444       8,733,174      76,839,874
----------------------------------------------------------------------------------------------------------------
Japan                     13,340,508          5,823,854                2,189,058       2,003,228      23,356,648
----------------------------------------------------------------------------------------------------------------
Canada                     5,236,964          2,286,218                3,587,133       1,468,338      12,578,653
----------------------------------------------------------------------------------------------------------------
Europe                     3,809,326          1,662,977                2,246,766         977,436       8,696,505
----------------------------------------------------------------------------------------------------------------
Other                     11,782,791          5,143,826                6,794,101       2,984,482      26,705,200
----------------------------------------------------------------------------------------------------------------
Subtotal                 125,231,322         52,599,883               58,404,007      27,750,973     263,986,183
----------------------------------------------------------------------------------------------------------------
                                                  Scuba Divers
----------------------------------------------------------------------------------------------------------------
Residents                  3,450,231          5,137,088                       --       1,284,272       9,871,591
----------------------------------------------------------------------------------------------------------------
U.S. West                  1,588,179          3,152,878                3,545,777       1,674,664       9,961,498
----------------------------------------------------------------------------------------------------------------
U.S. East                  1,101,444          2,186,603                3,134,126       1,330,182       7,752,355
----------------------------------------------------------------------------------------------------------------
Japan                      1,255,768          2,492,969                2,710,742       1,300,928       7,760,407
----------------------------------------------------------------------------------------------------------------
Canada                       173,878            345,185                  549,745         223,733       1,292,541
----------------------------------------------------------------------------------------------------------------
Europe                       126,477            251,085                  344,327         148,853         870,742
----------------------------------------------------------------------------------------------------------------
Other                        391,212            776,641                1,041,228         454,467       2,663,548
----------------------------------------------------------------------------------------------------------------
Subtotal                   8,087,190         14,342,448               11,325,946       6,417,099      40,172,682
----------------------------------------------------------------------------------------------------------------
                                            Total Recreational Value
----------------------------------------------------------------------------------------------------------------
Residents                 13,504,130          7,455,792                       --       1,863,948      22,823,870
----------------------------------------------------------------------------------------------------------------
U.S. West                 49,422,006         24,034,932               26,682,281      12,679,303     112,818,522
----------------------------------------------------------------------------------------------------------------
U.S. East                 34,275,450         16,668,853               23,584,570      10,063,356      84,592,229
----------------------------------------------------------------------------------------------------------------
Japan                     14,596,276          8,316,823                4,899,800       3,304,156      31,117,055
----------------------------------------------------------------------------------------------------------------
Canada                     5,410,842          2,631,403                4,136,878       1,692,070      13,871,193
----------------------------------------------------------------------------------------------------------------
Europe                     3,935,804          1,914,062                2,591,094       1,126,289       9,567,249
----------------------------------------------------------------------------------------------------------------
Other                     12,174,003          5,920,467                7,835,329       3,438,949      29,368,748
----------------------------------------------------------------------------------------------------------------
Total                    133,318,511         66,942,331               69,729,953      34,168,071     304,158,866
----------------------------------------------------------------------------------------------------------------
Multiplier effect: The total economic contribution of the reefs of Hawaii includes the contribution of reef
  expenditures to sales, income and employment. Expenditures by visitors generate income and jobs within
  industries that supply reef-related goods and services, such as charter/party boat operations, restaurants and
  hotels. These industries are called direct industries. In addition the visitor expenditures create multiplier
  effects wherein additional income and employment is created as the income earned by the reef related
  industries and their employees, is re-spent in the local economy. These additional effects of reef-related
  expenditures are called indirect and induced. Indirect effects are generated as the reef-related industries
  purchase goods and services from other industries locally. Induced effects are created when the employees of
  the direct and indirect spend their money locally.

                                 ______
                                 
    Exhibit E--The Impact of Scylla on the South West Economy with 
                           Projected U.S. GDP

----------------------------------------------------------------------------------------------------------------

----------------------------------------------------------------------------------------------------------------
               The Impact of Scylla on the South West Economy
----------------------------------------------------------------------------------------------------------------
                              Extra Diver Days                                                  U.S. Diver-Days
                                                                                                    115,300,000
----------------------------------------------------------------------------
                               2500         5000         7500        10000
----------------------------------------------------------------------------------------------------------------
Employment (FTE)
----------------------------------------------------------------------------------------------------------------
Direct                          3.9          7.7         11.6         15.5
----------------------------------------------------------------------------------------------------------------
Indirect                        3.5          7.1         10.6         14.2                       Projected U.S.
                                                                                               Employment (FTE)
                                                                                                        342,441
----------------------------------------------------------------------------
Total                           7.4         14.8         22.2         29.7
----------------------------------------------------------------------------------------------------------------

----------------------------------------------------------------------------------------------------------------
GDP (<brit-pound>)
----------------------------------------------------------------------------------------------------------------
Direct                       66,060      132,120      198,180      264,240
----------------------------------------------------------------------------------------------------------------
Indirect                    101,275      202,551      303,826      405,102
----------------------------------------------------------------------------------------------------------------
Total                       167,335      334,671      502,006      669,342
----------------------------------------------------------------------------------------------------------------
TOTAL Contribution to                                                                        Projected U.S. GDP
 GDP
----------------------------------------------------------------------------
                                                                                                               Contribution
----------------------------------------------------------------------------
                                                                                          (Direct and Indirect)
                                                                                           US$11,856,415,621.34
----------------------------------------------------------------------------------------------------------------

   Exhibit F--Participation in SCUBA and Snorkeling Recreation (2000)

----------------------------------------------------------------------------------------------------------------
                                                                 Number of Participants       Number of Days
                                       Participation Rate (%)*        (millions)*             (millions)***
----------------------------------------------------------------------------------------------------------------
United States
----------------------------------------------------------------------------------------------------------------
Snorkeling                                                5.07                    10.46                     92.5
----------------------------------------------------------------------------------------------------------------
Scuba Diving                                              1.35                     2.79                     22.8
----------------------------------------------------------------------------------------------------------------

----------------------------------------------------------------------------------------------------------------
California
----------------------------------------------------------------------------------------------------------------
Snorkeling                                                0.34                     0.71                    3.818
----------------------------------------------------------------------------------------------------------------
Scuba Diving                                              0.14                     0.29                    1.383
----------------------------------------------------------------------------------------------------------------
From Leeworthy and Wiley (2001), *Percent of the U.S. population that participated in the activity, **Number of
  participants is equal to the participation rate multiplied by the non-institutionalized population 16-years or
  older in all households in the U.S. as of September 1999, ***The number of days the respondents participated
  in each activity over a year. Note figures from top to bottom of table differ due to the use of different base
  population levels in each report.


    Senator Cantwell. Thank you, Mr. Ingram. And we have a lot 
of diving in the Northwest, although people don't believe that, 
because they think it's dark and cold waters, but they are----
    Mr. Ingram. It's beautiful there.
    Senator Cantwell. Yes, right off--right where I live, in 
Edmunds, Washington----
    Mr. Ingram. Oh, you bet.
    Senator Cantwell.--there is a big underground city that 
people dive to, so----
    Mr. Ingram. We're very privileged to see all of that stuff 
that you saw in the video, firsthand.
    Senator Cantwell.--yes, thank you.
    Mr. Waters, welcome. We look forward to your testimony.

                STATEMENT OF DONALD A. WATERS, 
            COMMERCIAL FISHERMAN, PENSACOLA, FLORIDA

    Mr. Waters. Good evening. Thank you, Chair Cantwell, 
Ranking Member Snowe. And I also want to thank the Senators of 
the Gulf State regions for my support and their hard work to 
promote sustainable fisheries in the Gulf of Mexico.
    I have been a fisherman owner-operator for most of my life 
in reef fishing--better part of four decades. My home port is 
in Pensacola, Florida. I currently fish for red snapper and 
king mackerel. I've also participated in other fisheries in the 
Gulf of Mexico, and I also participate in stock-assessment 
panels for red snapper and king mackerel.
    In this business, we have to keep our eyes open and be 
prepared to what we meet on the ocean. In my opinion, this is 
something that's unseen as we have our battles amongst the 
commercial fishermen on how we want to do policy, catch shares, 
no-catch shares, this, that. And this seems to be something 
that has been put on the back burner by a lot of the commercial 
fishermen, but it seems to be really creeping up on us. And it 
was my first eye opener, when I came up last December to 
testify in front of some of my Senators on some of the changes 
in Magnuson-Stevens. And I met Mark Wiegardt, from Oregon, and 
his oyster hatchery there, and got to talking to him, and he 
was telling me how the oysters were just dying off from 
acidification. And I--you know, I just kind of said, ``Well, if 
that's really going on in a closed-loop circuit, what's really 
going on in the wild?'' So, it really got my attention.
    So, the more that I thought about it and started 
investigating and started reading up on it, I learned things, 
you know, about what is really happening in the wild, what is 
happening to the food for our commercial fin fish. This 
acidification could just totally devastate the food chain, 
therefore we would lose our main fin fish that we harvest for 
the customers of the United States. These are the citizens, 
they own a part of this resource.
    So, I--it just upset me dearly. And I know I'm kind of 
talking behind everybody that's a whole lot more speaker, but 
this is just--to me, this is just a----
    Senator Cantwell. Mr. Waters?
    Mr. Waters.--devastating----
    Senator Cantwell. Mr. Waters, I think you're actually 
stealing the show. You're doing such----
    Mr. Waters. Yes, I mean--[Laughter.]
    Mr. Waters.--as you can all tell, I'm a commercial 
fisherman, not a public speaker. But, this is just--to me, 
would be totally upsetting. It would just totally destroy our 
economic survival--I mean, in a whole nationwide capacity. 
The--it's just--the whole bearing of it is just incomparable. I 
mean, it's just something that you can't imagine. If you 
could--if you lost the jobs, the men, the boats--it's just--I 
mean, it--to me, it's just--you can't even speak of the 
devastation that our country would be facing if our oceans 
turned, more or less, into poison.
    I mean, I know that this is basically off of my written 
testimony, but it just really takes--just really takes it to my 
heart. And I'm speaking with passion, I'm speaking from my 
heart. And I know my fellow fishermen, sometimes we compete--we 
compete hard in the fields, and we--you know, it's a 
competitive--but, this is something that we have to join hands 
with, and we have to move forward with, and we have to get a 
hold of. We need to move forward and try to protect, because 
this is something that we do need to fight over; this is 
something that we need to join up with and move forward with.
    And my opinion is that this is something that we need to be 
proactive on, and not reactive to something after it's too 
late.
    And I'm sorry that I really can't sit here and stay 
straight to my written testimony. My written testimony's from 
the heart, too. But, when I start speaking--I'm sorry I have to 
speak with such passion, because this is a devastating ghost 
lurking in the shadows that would just totally devastate our 
economy in this country. Because without the shores and the 
beaches and the restaurants, the--I mean, it would just change 
our whole lives. We would be--I mean, I can't even explain it. 
I mean, you could use your imagination, and it takes you to 
another world.
    Mr. Ingram. It sure does.
    [The prepared statement of Mr. Waters follows:]

     Prepared Statement of Donald A. Waters, Commercial Fisherman, 
                           Pensacola, Florida

    Chair Cantwell, Ranking Member Snowe, and members of the Committee, 
I would like to thank you for the opportunity to offer testimony of my 
concerns about ocean acidification and its possible effect on fisheries 
in the Gulf of Mexico and other U.S. waters. And I would also like to 
express my appreciation for all the support that I have received in the 
past from my Gulf State Senators. It has been a privilege to work 
together to keep our fisheries sustainable.
    I have been an owner-operator fisherman for most of my life, reef 
fishing for the better part of four decades. My home port is Pensacola, 
Florida. I currently fish for red snapper and king mackerel but have 
also worked the waters of the Gulf of Mexico for others species. People 
need to work hard on and off the water to keep our fisheries 
sustainable, so I am heavily involved in the fisheries management 
process, participating on both the red snapper and king mackerel 
assessment panels.
    In this business we have to keep our eyes and ears open. When an 
issue comes up that could affect my fishery and livelihood, I learn 
everything I can about it. That's what I've done since I first heard 
about ocean acidification.
    I don't pretend to be an expert on ocean acidification but I do 
know this problem is real, and we need to get on top of it. I first got 
word of ocean acidification not long ago, in December 2009, when I was 
in D.C. to talk with my Senators and Representatives about proposed 
changes to the Magnuson-Stevens Act. I ran into a group of fishermen 
and shellfish growers who were in D.C. to talk to their Senators about 
ocean acidification.
    One of the shellfish growers I met was Mark Wiegardt from the 
Whiskey Creek Shellfish Hatchery in Netarts, Oregon. Three or four 
years ago, for no apparent reason, the oyster larvae that Mark grows 
for a living started dying in the first few days of their lives. The 
usual culprits, like marine bacterial infections, turned out to be 
innocent this time. After a few years of major larvae die-offs and 
barely staying in business, scientists working with Mark and his 
partners correlated the die-offs with upwelling deep water that is 
acidified by high concentrations of CO<INF>2</INF>. For juvenile 
oysters, the water was corrosive, and larvae simply couldn't survive in 
it.
    The other people in the group I met in December were mostly 
fishermen from Washington and Alaska. They saw the problem of larval 
shellfish die-offs as a canary in a coal mine. It was a problem to get 
ahead of before it expanded to their fisheries. If the seawater that 
was pumped into the hatchery from the ocean was killing the oyster 
larvae, what was going on in the wild? Wild larval shellfish and other 
tiny marine plants and animals are the food source for most 
commercially important finfish in their juvenile stages of life. The 
way these fishermen saw it, less food for juvenile fish would mean 
fewer adult fish to catch. Sometimes it doesn't take much to push a 
stock below the threshold for commercial production. No fish means no 
fishermen. I started to consider fisheries in the Gulf of Mexico and 
how ocean acidification might affect us.
    I have learned since I started looking into ocean acidification 
that:

  <bullet> Research shows that CO<INF>2</INF> emissions from burning of 
        fossil fuels and other man made sources of CO<INF>2</INF> are 
        absorbed into the ocean from the atmosphere. In the ocean, the 
        CO<INF>2</INF> reacts to form carbonic acid. The acid changes 
        the ocean's chemistry.

  <bullet> As a fisherman I can tell you that a lot of us aren't sure 
        where we stand on climate change, but ocean acidification is 
        real. It has been documented by researchers all over the world 
        and there is no doubt that the pH of the ocean is dropping, 
        becoming more acidic. Measurement show that the open ocean, on 
        average, is about 30 percent more acidic today than it was 
        before the Industrial Revolution. In some places, like the West 
        coast, local factors compound that change in seawater. With 
        upwelling or the kind of conditions that produce nutrient-
        driven hypoxia like we get in the Gulf of Mexico, seawater can 
        become corrosive to some of the fish and shellfish and to the 
        species they eat.

  <bullet> Mixing CO<INF>2</INF> into seawater doesn't just make it 
        more acidic. The carbonic acid from CO<INF>2</INF> changes a 
        lot of the ocean's chemistry. For one thing, it reduces the 
        availability of nutrients in seawater that clams, oysters, 
        crabs, lobsters; corals need to build and maintain their shells 
        and skeletons. They absorb nutrients from the seawater. The 
        increased acidity depletes those nutrients. That makes it 
        harder (and sometimes impossible) for a lot of these shell-
        builders to survive.

  <bullet> Even small changes in the ocean's chemistry can disrupt the 
        marine food web and cause trouble for fish higher in feeding 
        order. For fishermen to make a living, we need fish stocks that 
        are abundant and dense enough so we can harvest them 
        efficiently.

  <bullet> Cold water absorbs more CO<INF>2</INF> than warm water. The 
        oceans in high latitude places like Alaska are more acidic than 
        the warmer waters nearer the equator.

  <bullet> For a lot of species, it looks like they are most vulnerable 
        in early life, especially their larval stages.

  <bullet> Even adult shellfish, corals and other calcifiers show 
        slower rates of shell building, diminished reproduction, muscle 
        wastage, and other problems when exposed to acidified seawater.

    What does ocean acidification mean for fisheries in the Gulf of 
Mexico?
    In the Gulf of Mexico, we already experience serious impacts from 
the dead zones that are usually attributed to hypoxia. The coastal 
communities that rely on the shrimp and oyster industries and fishing 
are beginning to recover from the devastation caused by Hurricane 
Katrina and the other storms that followed on her heels. New management 
tools that fishermen and managers put in place have helped to rebuild 
fish stocks. The last thing we need is to have our recovery efforts 
threatened by something we didn't even see coming.
    I have invested a lot of my time and money to participate in reef 
fishing. I don't go out to sea unprepared for whatever might come up 
while I am on the water. Right now I feel like those of us in the Gulf 
States have no idea what we may be up against with ocean acidification. 
So far, it looks like there isn't much research yet on this problem in 
the Gulf I found out about one study by USGS that's meant to create 
baseline data on ocean chemistry for the West Florida shelf. That's a 
start, but it's not enough. We ought to be monitoring the Gulf so we 
can recognize changes when they come our way. For instance, if this is 
affecting coral, we need to know. We need healthy reefs to have a 
healthy reef fishery.
    Commercial fishing and the shellfish industry in the Gulf of Mexico 
are not only important to the fishermen and the coastal communities 
that they live in. Inland regions of the Gulf States also receive the 
benefits of the seafood industry. I offload fish in both Florida and 
Louisiana so let's consider the State of Louisiana. Commercial 
saltwater fishing has a dockside value of $264.9 million in Louisiana. 
Once that seafood leaves the fishing boat, hits the dock and gets into 
distribution that dockside value turns into retail sales of $1.8 
billion with a total economic impact that is ripples out to $2.3 
billion. Shellfish and commercial fishing support 26,345 jobs from the 
dock to inland in Louisiana. Every person who touches that fish from 
ocean to plate sees the economic benefit. The state and local tax 
revenues that result from the seafood industry are $166.9 million in 
Louisiana. These numbers show that commercial fishing and the shellfish 
industry play a big part in the providing jobs and a viable economy in 
Louisiana.
    If the fisheries of the Gulf States went away the impact would be 
felt nationwide. The money from our healthy fisheries works its way 
through marinas, repair shops, gas stations, fish gear shops, grocery 
stores, lodging, seafood restaurants--the list goes on. So you can see 
a lot of people have an economic interest in keeping our fisheries 
strong. And we haven't even considered the revenue and jobs from 
recreational fishing or the saltwater tourist industry with people who 
want to walk on beaches or dive on reefs.
    I've talked about the Gulf of Mexico because that is where I work, 
where I live, and what I know. The 2008 edition NOAA's annual document 
called ``Fisheries of the United States'' looked at fisheries landings 
and how the value is amplified as our catch moves from the fisherman to 
the consumer. Nationwide, the revenues swell from the dock to the 
dinner plate:

  <bullet> Fishermen $4.5 billion

  <bullet> Processors $7.6 billion

  <bullet> Exporters $23.4 billion

  <bullet> Importers $28.5 billion

  <bullet> U.S. commercial marine fisheries industry $35 billion 
        (producing and marketing fishery products for domestic and 
        foreign markets)

  <bullet> Consumers: $69.8 billion (about two thirds in food service 
        venues, one third in stores)

    Fishing is a way of life for me and a whole lot of other people 
from coast to coast. Fish and shellfish provide jobs and food. The 
ocean that makes all this possible needs to be taken care of. People 
are seeing changes on the water and we don't yet know why. Without 
increased research and monitoring we are not going to find out if ocean 
acidification is eating our lunch. Looking the other way and hoping for 
the best is not the way I respond to challenges to my livelihood. It's 
not the way we should respond as a country, either. I think that it 
would better to be proactive than reactive.
    I want to thank the Chair and members of this subcommittee for 
taking a good hard look at this problem and how it might affect the 
country. In closing I hope that you can supply adequate funding for 
monitoring and research on ocean acidification. Let's keep our eyes 
open.

    Senator Cantwell. Thank you, Mr. Waters.
    Mr. Waters. Thank you, ma'am.
    Senator Cantwell. Thank you for that testimony. It's very--
we appreciate it very much.
    [Applause.]
    Senator Cantwell. And I think that you are right, it takes 
that passion to convince people. And you're right, it's 
unfathomable what would happen. And I thank you for delving 
into it, and understanding, and for bringing a real face and 
passion to that issue. So, we thank you.
    Dr. Barry?

     STATEMENT OF JAMES P. BARRY, Ph.D., SENIOR SCIENTIST,

        MONTEREY BAY AQUARIUM RESEARCH INSTITUTE (MBARI)

           AND MEMBER, COMMITTEE ON DEVELOPMENT OF AN

             INTEGRATED SCIENCE STRATEGY FOR OCEAN

        ACIDIFICATION MONITORING, RESEARCH, AND IMPACTS

             ASSESSMENT, NATIONAL RESEARCH COUNCIL,

                     THE NATIONAL ACADEMIES

    Dr. Barry. Sometimes you just have to stand up and shout 
because things are changing. And I hope that the science about 
ocean acidification is incorrect, actually; but there are so 
many unknowns with this that we're not sure about how it will 
translate into ecosystems services. In many cases, it looks a 
little bit scary. But, it's nice to have passion about issues. 
Now I'll start my testimony.
    Good morning, Madam Chair, Ranking Member Snowe, and 
members of the Committee. My name is Jim Barry. I'm a marine 
biologist at the Monterey Bay Aquarium Research Institute, 
where we perform research and development--technology 
development for important issues in ocean science.
    Today, I'm going to highlight some information concerning 
ocean acidification based on research from myself and others, 
and then touch briefly on the report summary that was released 
today from the National Research Council's Committee on Ocean 
Acidification.
    Carbon dioxide emissions are now being absorbed in the 
ocean's surface at a massive rate. Roughly 1 million tons per 
hour enter the sea surface, leading to higher CO<INF>2</INF> 
levels, increased acidity, and reduced levels of calcium 
carbonate minerals that are important to the formation of 
shells and skeletons by a wide variety of marine organisms.
    Changes that we expect to occur by the end of this century 
as ocean acidification intensifies will be the largest and most 
rapid shift in ocean chemistry thought to have occurred for 
many millions of years, if the science is right about this.
    Ocean acidification does not affect ecosystems directly, it 
affects individual marine organisms. And marine organisms faced 
with ocean acidification, or other environmental stresses, 
respond based on physiological adaptations that have been 
developed throughout their evolutionary history. They may 
respond by acclimation, adaptation, or extinction.
    Individuals may acclimate to new conditions by adjusting 
their physiology a bit. Over generations, adaptation may allow 
species to tolerate new conditions. If not, generate--or, 
extinction is the only other option. The ability to acclimate, 
or adapt, is expected to vary greatly among organisms and among 
habitats in the oceans.
    Several physiological functions are affected by ocean 
acidification. Photosynthesis, calcification, the formation of 
these skeletons, acid-based balance of our internal tissues, 
and metabolic rates are--as well as respiration rates--are all 
important processes that can be affected by environmental 
stress of any kind. Some photosynthetic species exposed to 
ocean acidification may benefit, but many animals may be 
stressed by these higher CO<INF>2</INF> levels.
    Can I have the first slide, please?
    On this graph, I'd like to talk about changes in 
physiological performance and how they play out with 
environmental stress, because they have consequences for 
individuals that then play out through the food web.
    So, this is just a simple pie diagram, on the left, that 
shows how much we're spending, or how much an organism spends 
on taking care of its body; the cost of living, you might think 
about it. And you can think of this as the same as a household 
budget; that cost of living is just as much as, maybe, how much 
we pay for rent. And when we have an income we pay for rent, 
the rest of it goes to education and toys. And for animals it 
goes to growth and reproduction.
    Now, if our cost of living goes up, the rent goes up, we 
just can't buy as many toys. But, for an individual organism 
that's more stressed, if it has to spend more energy taking 
care of its body, there's less energy for growth and 
reproduction. Now, for that individual what happens is, it may 
grow more slowly, it may reach a smaller size, and it may die 
earlier. And that translates, through the population, to a 
lower abundance of those sorts of animals in the ocean, maybe a 
lower productivity for the food chain up above it, as well as a 
greater likelihood of extinction of that species.
    Next slide, please.
    Ecosystem performance--for example, how many fish actually 
are taken by humans or make it up to the top of the food 
chain--depends upon the flow of energy through food webs. Any 
change in the abundance or loss of key species due to 
environmental stress can disrupt this flow of energy and 
degrade ecosystem performance. So, if we start pulling out 
important species in this food web, maybe we can do that for 
awhile, but as we lose too many, you can collapse that. And 
if--in extreme cases, this can lead to ecological tipping 
points; for example, the failure of a fishery.
    Next slide, please.
    There is much we can learn from Earth history. This is a 
slide of the number of animals on Earth from 542 million years 
ago to the present, starting from right to left. And those 
black arrows point out where we've had mass extinctions on 
Earth.
    CO<INF>2</INF> levels have been much, much higher in the 
past, more than 25 times higher than they are now, and life has 
thrived. But, there have been many episodes of mass extinction 
during the past 600 million years of Earth history, several 
causing more than 70 percent of all species to be lost. Coral 
reefs disappeared during most of these massive extinctions. 
Each of these events is associated with a rapid change in 
environmental conditions. Life recovered, but that recovery 
required 10 to 20 million years.
    The general lesson is that when the environment changes, 
many species may, and do, go extinct. The change in condition 
during these extinctions was far greater than we're 
experiencing now, but how much environmental change is too 
much?
    Next slide, please.
    Because this field is relatively new, there are major 
uncertainties in how future ocean acidification will affect 
ecosystems. Marine fisheries are a good example. Will changes 
in primary productivity at the base of the food chain lead to 
more or less fish at the top? What about coral reefs? The 
preponderance of the recent scientific literature, and the 
fossil records, suggest very strongly that coral reefs may be 
in real trouble, both because of ocean acidification and other 
environmental change. It's my view that ocean acidification is 
very likely to affect various vulnerable ecosystems, leading to 
changes in ecosystem resources and services important to 
society.
    Now, a touch on the NRC report. The NRC Ocean Acidification 
Committee released, today, a summary of their report, ``Ocean 
Acidification: A National Strategy to Meet the Challenges of a 
Changing Ocean.'' In this report, we outline a plan for 
observations and monitoring of ocean conditions, coupled with 
priorities for research, to examine the potential effects of 
future ocean acidification on natural resources.
    Thank you for the opportunity to comment on this very 
important issue.
    [The prepared statement of Dr. Barry follows:]

    Prepared Statement of James P. Barry, Ph.D., Senior Scientist, 
     Monterey Bay Aquarium Research Institute (MBARI) and Member, 
 Committee on Development of an Integrated Science Strategy for Ocean 
 Acidification Monitoring, Research, and Impacts Assessment, National 
                Research Council, The National Academies

    Good morning Madam Chair, Ranking Member Snowe, and members of the 
Committee. My name is Jim Barry. I am a Senior Scientist at the 
Monterey Bay Aquarium Research Institute (MBARI), located in Moss 
Landing California, where I have been employed for nearly 19 years. 
MBARI is a nonprofit research and technology institute funded 
principally by the David and Lucile Packard Foundation where we perform 
research and technology development to address important issues in 
ocean science. My research concerns the biology and ecology of marine 
animals, particularly those inhabiting the deeper waters of the oceans. 
During the past several years, my studies have focused on the effects 
of high ocean carbon dioxide levels on marine animals, from either the 
direct injection of waste CO<INF>2</INF> into deep-sea waters or by 
ocean acidification due to the passive influx of CO<INF>2</INF> from 
the atmosphere. I was a contributing author for the Special Report on 
Carbon Capture and Storage produced by the IPCC (Intergovernmental 
Panel on Climate Change) in 2005, and am currently serving for the 
National Research Council as a member of the Committee on the 
Development of an Integrated Science Strategy for Ocean Acidification 
Monitoring, Research, and Impacts Assessment (hereafter NRC Ocean 
Acidification Committee). The National Research Council is the 
operating arm of the National Academy of Sciences, chartered by 
Congress in 1863 to advise the government on matters of science and 
technology.
    This committee originated as a request from NOAA to the Ocean 
Studies Board, based on the call from Congress in the Magnuson-Stevens 
Fishery Conservation and Management Reauthorization Act of 2006, and 
later the Consolidated Appropriations Act of 2008, to conduct a study 
of the acidification of the oceans and how this process affects the 
United States. In addition to NOAA, input and sponsorship of the 
Committee was provided by the National Science and Technology Council 
Joint Subcommittee on Ocean Science and Technology (JSOST), the 
National Science Foundation (NSF), and the U.S. Geological Survey 
(USGS).
    I commend the Committee for convening a hearing on, The 
Environmental and Economic Impacts of Ocean Acidification,--the other 
CO<INF>2</INF> problem, due to the growing concern that this phenomenon 
may have important effects on marine organisms and ecosystems, as well 
as ecosystem services of great value to society. The history of ocean 
acidification research is relatively short. The notion that increasing 
carbon dioxide emissions absorbed through the sea surface are causing a 
change in ocean chemistry and may have important consequences for ocean 
biology was argued in the 1970s (Caldeira and Wickett, 2005). During 
the past ten to fifteen years, however, several studies and workshop 
reports have concluded that the very rapid and massive influx of 
CO<INF>2</INF> emissions into the oceans (now over 1 million tonnes of 
CO<INF>2</INF> per hour) could have very significant effects on marine 
ecosystems (Kleypas et al., 1999; Raven et al., 2005; Fabry et al., 
2008; Kleypas et al., 2006; Doney et al., 2009).
    In my testimony, I would like to address two main themes. First, I 
will provide my personal perspective based on my own studies and others 
concerning the potential effects of ocean acidification on the biology 
of marine organisms and how these affects are expected to scale up to 
ecosystem services important to society. Second, I will provide an 
overview of the key points and recommendations from the NRC Ocean 
Acidification Committee's report on Ocean Acidification: A National 
Strategy to Meet the Challenges of a Changing Ocean. The key points of 
my personal testimony are as follows:

  <bullet> Ocean acidification is changing the chemistry of the oceans 
        at a scale and magnitude greater than thought to occur on Earth 
        for many millions of years, and is expected to cause changes in 
        the growth and survival of a wide variety of marine organisms, 
        potentially leading to massive shifts in ocean ecosystems.

  <bullet> Ocean acidification, like other sources of environmental 
        variation, directly affects the physiological performance of 
        organisms, which can respond individually by acclimation 
        (tolerance), or collectively as a species by adaptation or 
        extinction. Sensitivity to ocean acidification is known to vary 
        among organisms and habitats, including ``winners'' and 
        ``losers'', with some photosynthetic organisms apparently 
        benefiting, while the performance of animals is generally 
        impaired.

  <bullet> Future changes in marine ecosystems expected to occur due to 
        ocean acidification are poorly understood for most habitats, 
        and difficult to predict from short-term studies of individual 
        species, a research approach that has dominated this field to 
        date. It is expected that biodiversity in many ecosystems may 
        decrease due to the generally negative impacts of ocean 
        acidification on marine animals, thereby impairing ecosystem 
        function. Severe changes could lead to ecological ``tipping 
        points.''

  <bullet> Ocean goods and services important to society (e.g., marine 
        fisheries), are dependent on the healthy function of marine 
        ecosystems. Although it remains unclear how marine fisheries 
        will be affected, changes in the photosynthesis at the base of 
        the food chain and shifts in the growth, survival, and 
        productivity of higher trophic levels due to ocean 
        acidification are expected to lead to important changes in 
        ecosystems.

1. Ocean chemistry is changing rapidly due to the influx of fossil fuel 
        carbon dioxide
    Roughly 40 percent of all fossil fuel emissions now reside in the 
oceans (Sabine and Tanhua 2010), and the ocean surface is 25-30 percent 
more acidic than prior to human fossil fuel use. Increasing carbon 
dioxide emissions are expected to increase ocean acidity (pH) by 200 
percent by the end of this century, with even greater changes beyond 
2100. In addition to increased acidity, ocean acidification causes 
higher carbon dioxide concentrations in seawater and a reduction in the 
saturation state of calcium carbonate minerals important for shells and 
skeletal formation in many marine organisms. This change in ocean 
chemistry is far more rapid and larger than has occurred throughout the 
past 800,000 years and perhaps as long as 25 million years, 10 million 
years before the first hominids appeared on Earth. Eventually, over 85 
percent of all emissions will reside in the ocean, and this carbon 
dioxide will mix throughout the depths of the oceans.

2. Ocean acidification acts on the physiology of individuals
    The response of organisms to ocean acidification depends upon 
physiological adaptations that have allowed them to survive and 
function in ocean ecosystems through their evolutionary history. In 
order to be successful--to survive, grow, and reproduce--organisms must 
maintain physiological function throughout a range of environmental 
variation or suffer reduced or impaired performance. As ocean chemistry 
diverges distinctly from the natural range of variation experienced 
through their recent evolutionary history, the tolerance of species is 
expected to decline.
    Several key physiological functions are affected by ocean 
acidification in marine organisms including photosynthesis, 
calcification, respiration, internal acid-base balance, and metabolic 
rates. Photosynthesis has been observed to increase in some species in 
high-CO<INF>2</INF> waters, although rates of calcification may be 
reduced. Ocean acidification has been shown in general to reduce the 
rates of calcification in many marine organisms, due to the reduction 
in the saturation of calcium carbonate minerals in seawater (e.g., 
Doney et al., 2009; Fabry et al., 2008). Ocean acidification can also 
disturb the internal acid-base balance of organisms, leading to reduced 
function of enzymes involved in a wide variety of fundamental 
biological processes. Increased seawater acidity can also impair oxygen 
transport and lead to lower metabolic rates in many organisms, which in 
turn limits their aerobic activity (e.g., chasing prey or escaping 
predators).
    Maintaining efficient physiological function in more acidic waters 
has been shown in some taxa to increase the energy required to cope 
with these stresses. This increased ``cost of living'' is expected to 
reduce the energy available for growth and reproduction in individuals. 
Reduced performance by individuals is expected to impact the entire 
species, leading to reduced abundance and productivity, and a greater 
likelihood of extinction.
    Though limited, research to date indicates that there will be 
``winners'' and ``losers'' in a high CO<INF>2</INF> ocean. In general, 
photosynthetic species may benefit in some ways from higher 
CO<INF>2</INF> levels in seawater, particularly some seagrasses 
(reviewed in Doney et al., 2009). Shifts in photosynthesis rates could 
lead to massive changes in the dominant phytoplankton species forming 
the base of marine food webs, with effects reverberating throughout 
pelagic ecosystems. Most animals, however, either do not benefit or 
have exhibited various combinations of impaired shell or skeletal 
formation (calcification), and reduced rates of growth, reproduction, 
or survival. Corals, particularly those forming aragonite (a form of 
calcium carbonate) skeletons appear particularly vulnerable to ocean 
acidification, and along with other aragonitic taxa, may be the 
ecological `losers' in the future high CO<INF>2</INF> ocean.
    There is considerable variation among organisms in coping with 
physiological stress caused ocean acidification. Adaptations that allow 
some organisms to have very active lifestyles, with a high capacity for 
gas exchange (respiration) and metabolism (e.g., actively swimming 
fishes or many mollusks), also preadapt these species for some of the 
stresses of ocean acidification. However, even though they may be able 
to tolerate ocean acidification, they may nevertheless experience 
reduced performance. In contrast, more sedentary animals may have less 
extra energy for coping with ocean acidification. Sensitivity also has 
been shown to vary among life stages of species and among habitats. 
Some deep-sea taxa have been shown to be sensitive to even moderately 
acidic waters (Barry et al., 2004, 2005), and the physiological 
tolerance of various higher taxa (fishes, crustaceans) to ocean 
acidification decreases greatly with depth (Seibel and Walsh 2003; Pane 
and Barry 2007).

3. Future changes in marine ecosystems due to ocean acidification are 
        understood poorly
    ``Scaling up'' from the effects of ocean acidification on 
individuals to entire ecosystems is difficult. Except for a series of 
experiments on marine plankton communities, most research on ocean 
acidification has been performed on individual species, thereby 
limiting our understanding of population and ecosystem-level effects of 
a high-CO<INF>2</INF> ocean.
    The function of marine ecosystems depends upon their biodiversity--
the wide variety of species in the habitat. Biodiversity forms a 
biological network that functions though the interactions between 
species and with their environment. Predation, competition, and other 
interactions among species, as well as the effects of environmental 
variation on species, determine how and how much energy flows from 
primary producers at the base of food chains to top predators.
    Biological networks with greater diversity (i.e., more species) are 
thought to be more stable, more resistant to disturbances, and allow 
more efficient energy flow to top predators. In part, this is related 
to overlapping ecological roles among species--the ability of multiple 
species to perform the same or similar functions in food webs. For 
example, if one species of prey goes extinct, a predator will be able 
to find another to take its place. Although we still don't know how 
ocean acidification will affect ecosystems, it is expected that 
ecosystem function will degrade if biodiversity is lost, and may reach 
an ecological tipping point if key species are reduced or removed. 
Studies of large marine ecosystems housing marine fisheries indicate 
that lower biodiversity is associated with low catch rates, greater 
variability, and higher chances of fisheries collapse (Worm et al., 
2006). And though the specific effects of ocean acidification on marine 
fisheries in the future remains uncertain, loss of biodiversity caused 
by ocean acidification and other environmental perturbations can affect 
ecosystem function, potentially leading to ecological `tipping points.'

4. Ocean resources and services important to society depend upon the 
        healthy ecosystems
    Humanity depends on the function of ocean ecosystems for a range of 
resources and services, from processes as fundamental as oxygen 
production by marine phytoplankton, to shoreline protection, fisheries 
and aquaculture harvests, and recreational or spiritual experiences. It 
is my personal opinion that although predicting changes in ecosystem 
function due to ocean acidification is difficult, key elements of some 
ecosystems appear to be at high risk due to the expected reduction in 
calcification (and perhaps other related physiological processes) with 
increasing ocean acidity. Tropical coral reefs, deep-sea coral reefs, 
and mollusk-dominated food webs in high latitude regions may experience 
reductions in calcification that lead to important ecosystem changes. 
Consequently, societies depending on tropical reef systems may 
experience significant ecological and economic disruption. On the other 
hand, the potential increase in photosynthetic rates by phytoplankton 
could increase the energy available within some ecosystems, potentially 
leading to increased production at higher trophic levels as long as 
food webs function efficiently. Finally, although there will be losers 
and winners throughout ecosystems, I expect society, along with most 
ecosystems, will be on the losing side of this ``game.'' Throughout 
Earth history, periods of rapid environmental change have often (but 
not always) led to a contraction in biodiversity that disrupted the 
function of ecosystems.

References
    Caldeira, K., Wickett, M.E. 2005. J. Geophys. Res. Oceans, 
110:C09S4
    Kleypas, J.A. et al., 1999. Science 284:118-120.
    Raven, J. et al., 2005. Ocean acidification due to increasing 
atmospheric carbon dioxide. The Royal Society.
    Fabry, V.J. et al., 2008. ECES. J. Mar. Sci., 65: 414-32.
    Kleypas, J.A. et al., 2006. Report of a workshop sponsored by NSF, 
NOAA, and the USGS, St. Petersburg, FL.
    Doney, S.C. et al., 2009. Annu. Rev. Mar. Sci. 1: 169-192.
    Sabine, C.L. and Tanhua, T. 2010. Annu. Rev. Mar. Sci. 2:175-198.
    Barry, J.P. et al., 2004. J. Ocean., 60: 759-66.
    Barry, J.P. et al., 2005, J.Geo. Res. Oc., 110, C09S12.
    Seibel, B. and Walsh, P. 2003, J. Exp. Biol., 206: 641-650.
    Pane, E.F. and Barry, J.P. 2007, Mar. Ecol. Prog. Ser., 334: 1-9.
    Worm et al., 2006, Science 314: 787-790.
Key Findings from the NRC Committee Report on Ocean Acidification: A 
        National Strategy to Meet the Challenges of a Changing Ocean
    The ocean has absorbed a significant portion of all human-made 
carbon dioxide emissions, benefiting society by moderating the rate of 
climate change, but also causing unprecedented changes to ocean 
chemistry. Carbon dioxide taken up by the ocean decreases the pH of the 
water and leads to a suite of chemical changes collectively known as 
ocean acidification. The long term consequences of ocean acidification 
are not known, but are expected to result in changes in many ecosystems 
and the services they provide to society. This report, requested by 
Congress, reviews the current state of knowledge and identifies gaps in 
understanding, with the following key findings.

  1. Ocean chemistry is changing at an unprecedented rate and magnitude 
    due to human-made carbon dioxide emissions. The average pH of ocean 
    surface waters has decreased by about 0.1 pH unit--from about 8.2 
    to 8.1--since the beginning of the industrial revolution, and model 
    projections show an additional 0.2-0.3 drop by the end of the 
    century, even under optimistic scenarios of carbon dioxide 
    emissions.

  2. Changes in seawater chemistry are expected to affect marine 
    organisms that use carbonate to build shells or skeletons. For 
    example, decreased concentrations of calcium carbonate make it 
    difficult for organisms such as coral reef-building organisms and 
    commercially important mollusks like oysters and mussels to grow or 
    to repair damage. If the ocean continues to acidify, the water 
    could become corrosive to calcium carbonate structures, dissolving 
    coral reefs and even the shells of marine organisms.

  3. It is currently not known how various marine organisms will 
    acclimate or adapt to the chemical changes resulting from 
    acidification. Based on current knowledge, it appears likely that 
    there will be ecological winners and losers, leading to shifts in 
    the composition of many marine ecosystems.

  4. The Committee finds that the Federal Government has taken positive 
    initial steps by developing a national ocean acidification program. 
    The recommendations in this report provide scientific advice to 
    help guide the program.

  5. More information is needed to fully understand and address the 
    threat that ocean acidification may pose to marine ecosystems and 
    the services they provide. Research is needed to assist Federal and 
    state agencies in evaluating the potential impacts of ocean 
    acidification, particularly to:

    <bullet> understand processes affecting acidification in coastal 
            waters;

    <bullet> understand the physiological mechanisms of biological 
            responses;

    <bullet> assess the potential for acclimation and adaptation;

    <bullet> investigate the response of individuals, populations, and 
            communities; understand ecosystem-level consequences;

    <bullet> investigate the interactive effects of multiple stressors;

    <bullet> understand the implications for biogeochemical cycles; and

    <bullet> understand the socioeconomic impacts and informing 
            decisions.

  6. The national ocean acidification will need to adapt in response to 
    new research findings. Because ocean acidification is a relatively 
    new area of research, the Program will need to adapt in response to 
    findings, such as the identification of important biological 
    metrics, analyses of the socioeconomic impact of ocean 
    acidification, and inclusion of concerns from stakeholder 
    communities.

  7. A global network of chemical and biological observations is needed 
    to monitor changes in ocean conditions attributable to 
    acidification. Existing observation systems were not designed to 
    monitor ocean acidification, and thus do not provide adequate 
    coverage or measurements of carbon parameters, such as total 
    alkalinity, pH, and dissolved inorganic carbon, or biological 
    constituents such as nutrients, oxygen, and chlorophyll. Adding 
    sites in vulnerable ecosystems, such as coral reefs or polar 
    regions, and areas of high variability, such as coastal regions, 
    would improve the observation system.

  8. International collaboration will critical to the success of the 
    program. Ocean acidification is a global problem that requires a 
    multinational research approach. Such collaborations also afford 
    opportunities to share resources, including expensive large-scale 
    facilities for ecosystem-level manipulation, and expertise that may 
    be beyond the capacity of a single nation.

  9. The national ocean acidification program should support the 
    development of standards for measurements and data collection and 
    archiving to ensure that data is accessible and useful to 
    researchers now and in the future. Steps should be taken to make 
    information available to policymakers and the general public in a 
    timely manner.

    Senator Cantwell. Thank you, Dr. Barry. And we'll look 
forward to asking you some questions about the recommendations 
from that report, and anxious to see those findings.
    Dr. Everett, welcome, thank you for being here. We look 
forward to your testimony.

                STATEMENT OF DR. JOHN T. EVERETT

    Dr. Everett. Thank you, Madam Chair and members of the 
Committee.
    Thirty years ago, I worked for the Committee, handling 
oceans and fisheries issues. I've sat behind you, and I've sat 
behind here for my other bosses, and this is the first time 
sitting at the table.
    What I am going to present is swimming against the tide of 
what we're hearing; and so, I just want to make sure everyone 
knows, I'm not on anybody's payroll, other than my own. I have 
accepted no money from any groups that in any way influence my 
views on climate change.
    My approach to the impact analysis is a product of my 
education and work at NOAA and for the Intergovernmental Panel 
on Climate Change. I led IPCC work on five impact analyses: 
fisheries, polar regions, oceans, and oceans and coastal zones, 
which was two reports. Since leaving NOAA, I have been an IPCC 
expert reviewer, and have maintained climate and other subjects 
in the U.N. Atlas of the Oceans, where I am the Chief Editor 
and Project Manager.
    I am also President of Ocean Associates, Inc., an oceans 
and fisheries consulting business, with 70 people in six 
states. I also have a website called ClimateChangeFacts.info, 
where I try to keep track of and share all the latest 
information about climate change.
    I have focused on seven concerns in my statement, including 
that marine life might lose the ability to make shells, and 
that existing shells will become weaker, and that the loss of 
shell-forming plants and animals will reduce food for those 
higher in the food chain; and there are about four others. 
These concerns are based on the work of respected scientists 
who believe increased CO<INF>2</INF> will dangerously increase 
acidification. They use IPCC scenarios developed in the early 
1990s.
    Other respected scientists believe that the scenarios have 
been overtaken by events; for example, the cost of fuels is 
rising, and the science shows the Earth's ability to absorb 
CO<INF>2</INF> has not diminished. And in my testimony, it also 
shows that the increase is a straight line, and may, in fact, 
be leveling off; still increasing, though.
    Importantly, oceans are alkaline, not acidic. If all the 
CO<INF>2</INF> in the air were put into the ocean, the oceans 
would still be alkaline. We need to reassure bathers and scuba 
divers that when they put their feet in the water, they're not 
going to dissolve.
    So, Madam Chair, a puddle of rainwater or a handful of snow 
is 100 times more acidic than the oceans will ever be.
    I have reviewed the IPCC and more recent scientific 
literature, and believe that there is not a problem with 
increased acidification, even up to the unlikely levels in the 
most-used IPCC scenarios. This assessment is due to four 
primary factors.
    First, laboratory work shows there is no basis to predict 
the demise of shell plants and animals living in the sea. The 
animals above them in the food chain will still find food. 
There are two noteworthy papers. In the first, Woods Hole 
Oceanographic researchers found that crabs, shrimp, and 
lobsters build more shell when exposed to acidification, and 
that hard clams and corals slowed formation of shells very--at 
very high CO<INF>2</INF> levels, while soft clams and oysters 
responded and--slowed at lower levels.
    Second, the Iglesias-Rodriguez paper found that 
calcification and production in an important shell planktonic 
plant are significantly increased by high CO<INF>2</INF>. Thus, 
the science actually indicates plants, crustaceans, and shelled 
algae plankton will be more successful. Since they are at, or 
near, the bottom of the food chain, this is good news.
    Second, the Earth has been this route before. Whether or 
not laboratory studies provide the answers we think are 
reasonable, we need to look more broadly. Russian 
academicians--these are members of their Academy of Sciences 
that I worked with on IPCC--taught me to look at how the Earth 
responded in past eras when conditions were like those 
projected. They gravely distrusted computer models.
    So, what can we learn from the past and what we see around 
us? The oceans have been far warmer and far colder and more 
acidic than as projected. During the millennia, that marine 
lift endured and responded to CO<INF>2</INF> that was many 
higher--many times higher than present. And it responded to 
temperatures that put tropical plants at the Poles or covered 
our land by a thick ice that was a mile thick. The memory of 
these events is built into the genes of all species, as Dr. 
Barry was talking about. Virtually all ecological niches have 
been filled at all times. If someone could demonstrate that 
there were no corals, clams, oysters, or shell plankton when 
there was double or triple the amount of CO<INF>2</INF>, I 
would be concerned. The opposite is true.
    Third, observational data show no harm. IPCC concluded, 
prior to the Iglesias-Rodriguez paper, that there is no 
observational evidence of oceanic changes due to acidification. 
There is also nothing conclusive in the recent research to 
indicate any reason for concern.
    Last, natural changes are greater and faster than those 
projected. Major warming, cooling, and pH changes in the oceans 
are a fact of life, whether over a few years, as in an el Nino, 
over decades, as in the Pacific oscillation, or over a few 
hours, as a burst of upwelling appears or a storm bring acidic 
rainwater to an estuary and perhaps kills oysters and clams.
    Despite severe and rapid changes that far exceed those in 
the scenarios, the biology adapts rapidly. The 0.1 change in 
ocean alkalinity since 1750 and the 1-degree Fahrenheit rise 
since 1860 are but noise in the rapidly changing system.
    In the face of all these natural changes, whether over days 
or millennia, some species flourish while others diminish. With 
no laboratory or observational evidence of biological 
disruption, I see no economic disruption of the commercial and 
recreational fisheries, nor harm to marine mammals, sea 
turtles, or any other protected species.
    Whichever response the U.S. takes, our actions should be 
prudent. Our research should focus on understanding those 
ecosystem linkages needed to wisely manage our fisheries and 
conserve our protected species. This includes research to 
explore further, the possible acidification effects, as wisely 
envisioned with the funds recently made available to NOAA.
    I would be pleased to answer questions.
    [The prepared statement of Dr. Everett follows:]

               Prepared Statement of Dr. John T. Everett

    Mr. Chairman and members of the Committee, thank you for inviting 
me to appear before you today. I am John Everett. I am not here to 
represent any particular organization, company, nor special-interest 
group. I have never received any funding to support my climate change 
work other than my NOAA salary, from which I retired after a 31-year 
career in various positions. I was a Member of the Board of Directors 
of the NOAA Climate Change Program from its inception until I left 
NOAA. I led several impact analyses for the Intergovernmental Panel on 
Climate Change from 1988 to 2000, while an employee of NOAA. The 
reports were reviewed by hundreds of government and academic scientists 
as part of the IPCC process. My work included five impact analyses: 
Fisheries (Convening Lead Author), Polar Regions (Co-Chair), Oceans 
(Lead Author), and Oceans and Coastal Zones (Co-Chair/2 reports). Since 
leaving NOAA I have kept abreast of the literature, have continued as 
an IPCC Expert Reviewer, have talked to many individuals and groups and 
have maintained these subjects in the U.N. Atlas of the Oceans, where I 
am the Chief Editor and Project Manager. I own a fisheries and oceans 
consulting business called Ocean Associates, Inc. and a website 
ClimateChangeFacts.Info \1\ that I try to keep unbiased in its 
treatment of conflicting science. This site is the number 1 Google-
ranked site of many million for certain search terms. My approach to 
impact analysis is a product of my education and work experiences at 
NOAA and the work I led for IPCC. This statement provides my analysis 
of the effects of ocean acidification on our living resources and our 
economy.
---------------------------------------------------------------------------
    \1\ http://www.ClimateChangeFacts.Info
---------------------------------------------------------------------------
    All opinions are mine alone.
Background
    I was assigned the climate change duties when I was the NOAA 
National Marine Fisheries Service Division Chief for Fisheries 
Development in the 1970s. The agency was very concerned about the 
impact of climate change on the United States fisheries and fishing 
industry. Global cooling would be devastating to our fisheries and 
aquaculture. About 1987, the momentum shifted to fears of global 
warming and with my background, and as Director of Policy and Planning 
for NOAA Fisheries, I was tasked to lead our efforts dealing with it. 
In 1996 I received the NOAA Administrator's Award for ``accomplishments 
in assessing the impacts of climate change on global oceans and 
fisheries.'' In 2008, I received recognition from the IPCC for having 
``contributed to the work of the IPCC over the years since inception of 
the organization,'' leading to its Nobel Peace Prize.
I. The Concerns
    There are several concerns about CO<INF>2</INF> entering the oceans 
and causing its pH to become lower. Their discussion in the press and 
among policy officials is at the foundation of this hearing. These 
concerns are:

        1. Animals with calcium carbonate shells will lose the ability 
        to make shells

        2. Existing shells will become weaker

        3. Loss of shell-forming animals will reduce food for those 
        higher in the food chain

        4. Many species will be gone in 30 years

        5. Oysters and clams are dying

        6. Jellyfish are increasing

        7. Seagrasses will be injured

    The concerns are based on the work of respected scientists who have 
shared the above beliefs or authored papers that argue the above 
points. They believe increased atmospheric CO<INF>2</INF> will increase 
the acidification of the oceans. The basis is largely a set of emission 
scenarios developed by IPCC in the early 1990s in an attempt to reign 
in the mass confusion about the future trajectory of CO<INF>2</INF> 
emissions. With this standard set of scenarios, climate modelers could 
then have a standard set of inputs in terms of what was broadly 
considered a primary determinant of climate--the proportion of 
CO<INF>2</INF> in the atmosphere. This proportion is based on new 
contributions after deducting removals by the Earth system and assumes 
a decreasing removal ability as CO<INF>2</INF> increases. For the first 
time, modelers around the world could compare results while impact 
assessment scientists and policymakers could look at points on which 
most models agreed. Standardization of scenarios allowed modelers to 
identify errors or alternative ways to predict or handle parameters, 
such as cloud cover. One of the scenarios became heavily used and is 
identified as IS92--Business as Usual. Nearly 20 years ago, it was a 
reasonable approach and pretty much in the middle range of alternative 
scenarios. It underpins much of the research findings I will present 
today.
    There are other respected scientists who believe that the Business 
as Usual scenario has been overtaken by events. The cost of fossil 
fuels is rising, reflecting increasing scarcity and contributing to a 
slower CO<INF>2</INF> growth in the atmosphere and a lack of 
acceleration. New science shows the Earth's ability to absorb the same 
proportion of new CO<INF>2</INF> each year has not been diminished, 
removing a key underlying assumption. Importantly, oceans are 
alkaline--not acidic (much more so than rain-water), so use of the term 
``acidification'' promotes fear. If all the CO<INF>2</INF> in the air 
were put into the ocean, the oceans would still be alkaline. With all 
this talk of acidification, we need to reassure bathers that their feet 
will not dissolve when they step into the ocean. Ocean water at the 
surface generally has a pH over 8 and neutral is 7.0 (pure water) while 
a puddle of rain water is far more acidic after having picked up 
CO<INF>2</INF> in its fall. Technically, we should say the oceans could 
become less alkaline, a term not so endearing to those trying to get 
attention.

II. The Physics
    At the bottom of our inverted pyramid of climate science are a few 
good scientists working to improve our knowledge of how the Earth 
system operates, and then to project future possibilities. The physics 
are daunting. Similarly, the modelers must get observational input data 
from the physical world and from prognosticators about how many people 
will be born in future years and how they will get and use their 
energy. The number of scientists doing this work is small compared to 
the number who will use their information to analyze impacts and make 
policy recommendations to governments and industry.
    As a research manager much of my life, I have a healthy skepticism 
of things that underpin important decisions. Whether it is a column of 
numbers that will tie up a fishing fleet because of an addition error 
or a wiring harness on a manned lunar rocket that doesn't quite fit, I 
have learned to pause and check it out. There are some things at the 
bottom of the CO<INF>2</INF> pyramid that make it seem wobbly and in 
need of a check.
    Physics tells us that increasing atmospheric CO<INF>2</INF> lowers 
oceanic pH and carbonate ion concentrations, thereby decreasing calcium 
carbonate. Surface ocean pH (a logarithmic measure of hydrogen ions) 
today is believed to be 0.1 unit lower than pre-industrial values. The 
median value of ocean model runs projects that pH will decrease by 
another 0.3 to 0.4 units by 2100. This translates into a 100 to 150 
percent increase in the concentration of H+ ions while carbonate ion 
concentrations will decrease. When water is undersaturated with respect 
to calcium carbonate, marine organisms can no longer form calcium 
carbonate shells. The model simulations project that undersaturation 
will be reached in a few decades.\1\ The conventional wisdom also says 
that as CO<INF>2</INF> concentration becomes higher, saturation will 
mean that more of it will remain in the atmosphere each year, 
accelerating its accumulation.
    However there are some major problems with the science. The wisdom 
at the time of the IPCC 2007 report was that half of CO<INF>2</INF> 
emissions would remain in the atmosphere and that we would have 712 ppm 
(IS92a) by 2100.\2\ This would require the atmosphere to more than 
double the present rate of growth of CO<INF>2</INF> to 3.05 ppm, yet 
the growth rate seems to be leveling off. The meaning of this 
information (and the future of all climate models based on it) became 
VERY cloudy on 31 December 2009 with the ScienceDaily acknowledgment of 
a paper published by American Geophysical Union and authored by 
Wolfgang Knorr that shows ``No Rise of Atmospheric Carbon Dioxide 
Fraction in Past 160 Years,'' despite the predictions of carbon cycle/
climate models.\3\ The implications of this have yet to be assimilated 
by the modeling community. This does not mean that CO<INF>2</INF> 
proportion is not rising but rather that the proportion not being 
assimilated has not changed since 1850. Importantly, it means that the 
rate of CO<INF>2</INF> cycling increases as it becomes more 
concentrated, and does not decrease as assumed in climate models. The 
rate of projected growth in CO<INF>2</INF> appears to be greatly 
exaggerated.
    The CO<INF>2</INF> scenarios are literally falling flat and need 
revision. The observational trend line shows monotonic growth--pretty 
much a straight line as in the chart below of global marine 
CO<INF>2</INF> measurements (NOAA data),\4\ while the IPCC scenarios 
used in most research rely on an accelerating growth. Certainly the 
predicted rapid acceleration of the IS92a model (see solid black line 
in middle of figure) is missing from the NOAA data plotted below. In 
fact, if we wonder if the last 8 or 12 years are representative of the 
future, we might imagine a downward slope in the growth rate. This 
could be real as rising prices cut usage and lead to economic distress. 
It could also mean that the ocean is absorbing more CO<INF>2</INF>, 
which might not bode well in light of concerns over acidification. 
However, it may be that the ocean is converting and storing the 
CO<INF>2</INF> as calcium carbonate in the form of shells of oyster, 
clams and planktonic organisms. It is a complicated environment and 
there is much we do not know.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Using the average rate of increase for the past 10 years (1.87/
year), and assuming a straight-line growth, my projection for 2100 is 
560 ppm. I have great reservations about our ability to find the 
necessary amount of fuel even this would require, never mind enough to 
reach 712 ppm (IS92a) or higher.
    Thus, if the projections we are concerned with today are based on 
the IPCC IS92a model, or one of its cohorts, and the concept of 
CO<INF>2</INF> sink saturation, we should give the information on its 
impacts a second look.
    Further, if a model can't replicate the past by relying on 
principles of physics and mathematics, without ``tuning'' its 
parameters to reflect past variations, we must not trust that it 
properly represents the real world. Some important physics may be 
missing or misrepresented. This is particularly true of any model that 
failed to predict the present leveling of temperatures in the face of 
rising CO<INF>2</INF>. I know of none that got it right.
    Something is very wrong at the bottom of our inverted pyramid!

III. The Biology
The Concerns
    Much of the concern flows form the latest IPCC report. The text 
from the Summary for Policy Makers states: ``The uptake of 
anthropogenic carbon since 1750 has led to the ocean becoming more 
acidic with an average decrease in pH of 0.1 units. Increasing 
atmospheric CO<INF>2</INF> concentrations lead to further 
acidification. Projections based on SRES scenarios give a reduction in 
average global surface ocean pH of between 0.14 and 0.35 units over the 
21st century. While the effects of observed ocean acidification on the 
marine biosphere are as yet undocumented, the progressive acidification 
of oceans is expected to have negative impacts on marine shell-forming 
organisms (e.g., corals) and their dependent species'' \5\

        1. Animals with calcium carbonate shells will lose the ability 
        to make shells. These animals include corals, coralline algae 
        (e.g., encrusting algae), and foraminifera, pteropods (swimming 
        planktonic snails with aragonite shells), and mollusks (e,g,. 
        clams and oysters).

        2. Existing shells will become weaker and even dissolve. 
        Dissolution of shells after death is the norm. Calcium 
        carbonate flows back into the water wherever it is not 
        saturated. In the deep ocean, this can happen rapidly to 
        exposed shells.

        3. Loss of shell-forming animals will reduce food for those 
        higher in the food chain. Dissolved calcium and carbonate ions 
        are used by ocean animals to produce their shells and skeleton. 
        A lower pH can slow shell production by disrupting the supply 
        of carbonate ions, thus slowing shell production and increasing 
        the susceptibility to dissolution, early death and predation.

        4. Many species will be gone in 30 years. This is founded in a 
        belief in the IS92a emission scenarios and some research 
        results.

        5. Oysters and clams are dying. In the Pacific Northwest there 
        are charges that an acidic ocean is to blame for extensive 
        mortalities of young oysters and clams. Fears include the 
        possibility that acidic upwelling waters will get even more so 
        when exposed to high CO<INF>2</INF> air.

        6. Jellyfish are increasing. Some have postulated that ocean 
        acidification could open ecological space for noncalcifying 
        species.

        7. Seagrasses will be injured. Acid waters will disrupt life 
        processes and slow growth.

Biological Considerations
    There is limited research. I have reviewed the major papers and the 
critiques about the papers. Below are a few that I think merit bringing 
before the Committee. It is only a few that show no obvious bias. For 
example, it is quite common among researchers vying for scarce funding 
dollars to hype their findings or the importance of the problem. 
Whether it is the use of hydrochloric (HCl) acid to mimic 
CO<INF>2</INF> but which introduces other issues such as shell decay, 
or presenting the findings of grave consequences at high acidity while 
not mentioning the lack of change at lower levels, or not investigating 
whether low pH was due to degraded water quality from runoff and 
sewage, the real cause of reduced growth or mortality. In some cases a 
lower base year is chosen that exaggerates the percentage change, such 
as ``pH levels will drop 30 percent from pre-industrial levels--when 
current levels are far less disputed, but the percent change is less.''
    Each study must be scoured for hints of inappropriate procedures 
and unfounded statements. None can be accepted at face value. The peer 
review process has warts. A good example is the dispute over whether 
acidification is good or bad for shell-forming plankton, a vital part 
of the ocean's biology and the ability to sequester vast amounts of 
CO<INF>2</INF>. The first paper says more CO<INF>2</INF> is good, the 
second bad, and then the first successfully refutes the criticism and 
gets the last word, sustaining the positive assessment in great detail. 
All published in Science.

        ``Ocean acidification in response to rising atmospheric 
        CO<INF>2</INF> partial pressures is widely expected to reduce 
        calcification by marine organisms. From the mid-Mesozoic, 
        coccolithophores have been major calcium carbonate producers in 
        the world's oceans, today accounting for about a third of the 
        total marine C<INF>a</INF>CO<INF>3</INF> production. Here, we 
        present laboratory evidence that calcification and net primary 
        production in the coccolithophore species Emiliania huxleyi are 
        significantly increased by high CO<INF>2</INF> partial 
        pressures. Field evidence from the deep ocean is consistent 
        with these laboratory conclusions, indicating that over the 
        past 220 years there has been a 40 percent increase in average 
        coccolith mass. Our findings show that coccolithophores are 
        already responding and will probably continue to respond to 
        rising atmospheric CO<INF>2</INF> partial pressures, which has 
        important implications for biogeochemical modeling of future 
        oceans and climate. \6\ ``However, Riebesell et al., vigorously 
        attacked the paper, claiming that ``shortcomings in their 
        experimental protocol compromise the interpretation of their 
        data and the resulting conclusions.'' \7\ In rebuttal, also in 
        Science, Iglesias-Rodriguez et al., successfully demonstrate 
        that the logic and methods of Riebesall et al., are the ones 
        that are flawed and the original findings of increased 
        calcification are valid.\8\

    Perhaps the most thorough review of the literature on acidification 
impacts is by Fabry et al.,\9\ They found that little research was done 
on CO<INF>2</INF> concentrations that were relevant to answer today's 
questions. They express much concern that acidification will retard 
development of shells. They as do several other authors, note that 
studies have not been long-term enough to discover adaptations over 
multiple generations. I believe this is key because these genera have 
genetic information about past events and this may well take several 
generations for stabilization. In any scenario, there will be ample 
time for this to happen. In a laboratory it happens with the throw of a 
switch. If my family or its descendants needs to hold its head 
underwater for 5 minutes and they have a couple generations to adapt, 
it can be done. However, I can't do it very well today.
    With respect to corals, Atkinson reviewed recent literature on . . 
. ``how ocean acidification may influence coral reef organisms and 
coral reef communities. We argue that it is unclear as to how, and to 
what extent, ocean acidification will influence calcium carbonate 
calcification and dissolution, and affect changes in community 
structure of present-day coral reefs.'' \10\ Also, the latest IPCC 
report (summary above) found no empirical evidence supporting effects 
of acidification on marine biological systems.\11\
    Kurihara et al., investigated the ``effects of seawater 
equilibrated with CO<INF>2</INF>-enriched air (2000 ppm, pH 7.4) on the 
early development of the mussel'' and found that the mussels, as clams 
studied by them earlier, were significantly impaired when exposed to 
CO<INF>2</INF> over 5X! that of today.\12\
    Marubini et al., found that seawater acidification may lead to a 
decrease of tropical coral growth calcification. This effect is either 
mediated by a decrease in carbonate, in pH, or by an alteration of the 
internal buffering system leading to a disruption of carbon supply to 
calcification rather than by a direct effect of CO<INF>2</INF> or a 
change of HCO<INF>3</INF>-concentration. Results showed that the 
negative effect of acidification may be counteracted by increasing the 
bicarbonate concentration of seawater, resulting in an increase in the 
carbonate concentration.\13\
    Research in laboratories shows that shell growth is slowed in some 
animals and enhanced in others. Woods Hole Oceanographic Institution 
(WHOI) researchers found that 7 of 18 species of animals ``such as 
crabs, shrimp and lobsters--unexpectedly build more shell when exposed 
to ocean acidification caused by elevated levels of atmospheric carbon 
dioxide (CO<INF>2</INF>)''S.\14\ They tested as high as 7 times present 
levels. They found that hard clams and corals slowed formation of 
shells but only above 1,000 ppm, while soft clams and oyster slowed 
formation at lower levels. Note that the shells did not dissolve, but 
only grew somewhat slower at 7X present CO<INF>2</INF> concentrations.
    There is no basis to predict the demise of shelled animals living 
in the sea or the animals above them in the food chain at any likely 
level of CO<INF>2</INF> that might be put in the air by humans.
    A study at the University of Hawaii found the olfactory-based 
homing ability of clownfish was disrupted at 1,000 ppm and non-existent 
at 2,000 ppm. The values of CO<INF>2</INF> acidification were high: 
``These values are consistent with climate change models that predict 
atmospheric CO<INF>2</INF> levels could exceed 1,000 ppm by 2100 and 
approach 2,000 ppm by the end of next century under a business as usual 
scenario.'' \15\ This has implication for all fish that need to find 
their way back to natal streams, if we were ever to get to 1,000 ppm.
    With respect to clam and oyster mortalities being caused by 
acidified water, it is unlikely that CO<INF>2</INF> deposition from the 
air is the culprit. Upwelling brings water from the depths to the 
surface. This water has been out of sunlight perhaps for centuries. 
There has been no photosynthesis for plants to turn the CO<INF>2</INF> 
into oxygen, and whatever oxygen there was, has been converted into 
CO<INF>2</INF> by animals. When this cold water reaches the surface, it 
is saturated with CO<INF>2</INF> and is acidic, plus it has little 
oxygen. This warming water will be outgassing CO<INF>2</INF>, rather 
than picking it up as claimed by some. Acidic water is also symptomatic 
of coastal eutrophication, whether caused by runoff or sewage. The WHOI 
work cited above shows that the growth of clams and oysters can be 
slowed by CO<INF>2</INF>-induced acidification. In their studies, the 
animals did not die even at rates several multiples of today's 
CO<INF>2</INF> levels and for clams, growth slowed only at the highest 
levels of CO<INF>2</INF>.
    Example of shell formation at 7X current CO<INF>2</INF>. Source: 
WHOI 2009

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    With respect to being overrun with jellyfish, because ocean 
acidification could open ecological space for noncalcifying species. 
Richardson and Gibson studied the possibility that there were more 
noncalcifying jellyfish when conditions were more acidic (lower pH) in 
the Northeast Atlantic using coelenterate records from the Continuous 
Plankton Recorder and pH data from the International Council for the 
Exploration of the Sea for the period 1946-2003. They could find no 
significant relationships between jellyfish abundance and acidic 
conditions in any of the regions investigated.\16\
    With respect to sea grasses, Zimmerman studied sea-grasses that 
form the bases of highly productive ecosystems ranging from tropical to 
polar seas. Despite clear evidence for carbon limitation of 
photosynthesis, seagrasses thrive in high light environments, and show 
little evidence of light-induced photoinhibition. Increasing the 
availability of dissolved aqueous CO<INF>2</INF> can increase 
instantaneous rates of light saturated photosynthesis by up to 4-fold. 
Prolonged exposure to elevated CO<INF>2</INF> concentrations increases 
the concentrations of non-structural carbohydrates (sucrose and 
starch), rates of vegetative shoot proliferation, and flowering, and 
reduces light requirements for plant survival. Consequently, seagrass 
populations are likely to respond positively to CO<INF>2</INF> -induced 
acidification of the coastal ocean, which may have significant 
implications for carbon dynamics in shallow water habitats and for the 
restoration/preservation of seagrass populations.\17\
IV. Has this Happened Before?
    From 50-600 million years ago, CO<INF>2</INF> levels in the 
atmosphere were usually 2-20 times higher than at present. All the 
animals of concern evolved during this period. This included the age of 
the dinosaurs, when life was so prolific on land and in the oceans that 
we are still using the carbon (and chalk) deposited during those 
periods. The animals of concern all should have the innate genetic 
plasticity to quickly respond to the relatively modest changes of even 
the unlikely worst-case scenarios, none of which move our atmosphere's 
present concentration of CO<INF>2</INF> into the earlier range. The 
CO<INF>2</INF> we are putting into the atmosphere, originally came from 
it during the epochs when the species of concern flourished. The chart 
below compiles the work of several authors and methods. It is from the 
latest IPCC report, showing time in Ma (millions of years) before 
present. For comparison, the present CO<INF>2</INF> level is 388 ppm.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

V. Is this Bad or Good or Just Different?
    We and all other animals use oxygen and expel CO<INF>2</INF>. 
Plants do the opposite. CO<INF>2</INF>, combined with light and 
nutrients is their food. We must not lose sight of the fact that plants 
have consumed once-abundant CO<INF>2</INF> to the point that it is 
0.000388 of the atmosphere. Many greenhouse operators pump 
CO<INF>2</INF> into their buildings to enhance growth, indicating 
plants evolved during higher concentrations of CO<INF>2</INF>. Plants 
in the ocean also rely on CO<INF>2</INF>. There is a high ability to 
move the excess out of circulation, turning it into oxygen (by plants) 
or calcium carbonate (by animals-mostly). A view of the CO<INF>2</INF> 
growth chart and analyses such as that of Wolfgang Knorr cited above 
show this has not been adequately taken into account by climate 
modelers or those who provided their inputs.
    We know that the Earth has seen these conditions before, and that 
all the same types of animals and plants of the oceans successfully 
made it through far more extreme conditions. Virtually all the 
ecological niches were filled at all times. If someone could 
demonstrate that there were no corals, clams, oysters, or shelled 
plankton when the Earth had double or triple the amount of 
CO<INF>2</INF> in the air, we would have reason for concern. Just as 
IPCC has concluded, there is no observational evidence that things 
would be better or worse, or even different. Similarly, there is 
nothing conclusive in the very recent scientific literature to indicate 
any reason for concern. If anything, the science indicates plants will 
be more successful, and since they are the bottom of the food chain, 
this cannot be totally bad.

VI. What Can Be Done about It?
    Oceans are actually alkaline with a surface pH of around 8.1. But 
it can vary from higher levels in shallow areas, where CO<INF>2</INF> 
and hydrogen ions are consumed by plants, to relatively acidic areas in 
eutrophic estuaries. Upwelling areas are also less alkaline, as cold 
bottom waters are brought into sunlight near the surface where algae 
use the deep-water CO<INF>2</INF> and nutrients to create a 
productivity boom that sustains fisheries production in several areas 
of the world. There are no long-term data, using similar instruments 
that provide a real clue as to global trends in alkalinity. There are 
only a few data sets of over a decade, such as that of the Monterrey 
Bay Aquarium. The variability, because of nearby ocean currents and 
upwelling shows the difficulty in portraying a global average value.
    Some pundits have argued that we could add limestone to the oceans 
to make them more alkaline, but this has little merit due to costs and 
the fact that the oceans already contain immense buffering capability. 
We should bear in mind that this limestone and chalk for the most part 
came from the shells of plankton as they fed on the CO<INF>2</INF>-
laden ancient seas.

VII. Research Suggestions
    There are some items that would go a long way toward establishing 
the likely effects of an increased CO<INF>2</INF> world.

        1. Develop a CO<INF>2</INF>/temperature timeline based on 
        extant research on past climates, at least back to about 600 
        million years before the present. This effort would provide a 
        critical review of candidate papers and unpublished work that 
        goes well beyond a typical peer-reviewed journal publication, 
        or prior summary reports of the IPCC.

        2. The acidification debate has showed us we lack a sufficient 
        understanding of some fundamental chemical and biological 
        processes. The research to resolve these questions should 
        continue and perhaps centrally coordinated so that scarce 
        dollars are targeted at real and important knowledge gaps.

        3. Examine the growth rates, densities, and shell thicknesses 
        of clams, oysters, or other mollusks from Indian middens and 
        sediments to determine if any changes can be detected and if 
        they correlate to any known changes in the oceans or 
        atmosphere, including pH and CO<INF>2</INF> levels.

        4. Before the next IPCC assessment begins, assemble a USA 
        review team and nominees for the IPCC writing and Chair 
        assignments that make up a cross-section of scientific 
        viewpoints. There are qualified scientists in agencies, 
        industry, and among the citizenry who can contribute. Just as 
        we shouldn't have too many from the energy industry, the same 
        goes for the agencies, universities, and NGO's. We all have 
        biases, even if we think it is the other person who is the one 
        with an agenda. We cannot afford to have only people with the 
        same agenda, no matter how righteous they might think it to be.

VIII. Concluding Remarks
    There is no reliable observational evidence of negative trends that 
can be traced definitively to lowered pH of the water. If there were, 
it would be suspect because there is insignificant change relative to 
past climates of the Earth. Scientific studies, and papers reviewing 
science papers, have similar messages. Papers that herald findings that 
show negative impacts need to be dismissed if they used acids rather 
than CO<INF>2</INF> to reduce alkalinity, if they simulated 
CO<INF>2</INF> values beyond triple those of today, while not reporting 
results at concentrations of half, present, double and triple, or as 
pointed out in several studies, they did not investigate adaptations 
over many generations.
    The oceans and coastal zones have been far warmer and colder and 
much more acidic than is projected by climate models. Marine life has 
been in the oceans nearly since when they were formed. During the 
millennia life endured and responded to CO<INF>2</INF> levels well 
beyond anything projected, and temperature changes that put tropical 
plants at the poles or had much of our land covered by ice more than a 
mile thick. The memory of these events is built into the genetic 
plasticity of the species on this planet. IPCC forecasts are for 
changes to occur faster than evolution is considered to occur, so 
impacts will be determined by this plasticity from past experiences and 
the resiliency of affected organisms to find suitable habitats.
    In the oceans, major climate warming and cooling and pH changes are 
a fact of life, whether it is over a few years as in an El Nino, over 
decades as in the Pacific Decadal Oscillation or the North Atlantic 
Oscillation, or in a few hours as a burst of upwelling moves into an 
area or a storm brings rainwater into an estuary. Upwelling and 
rainwater each have pH values that are dozens or orders of magnitude 
lower than in any scenario.
    Currents, temperatures, salinity, pH, and biology change rapidly to 
the new state in months or a couple years. These changes far exceed the 
changes expected with human-induced climate change and occur much 
faster. The estimated 0.1 change in alkalinity since 1750 and the one 
degree F. temperature rise since 1860 are but noise in this rapidly 
changing system. Sea level has been inexorably rising since the last 
glaciation lost its grip a mere 10,000 years ago. It is only some few 
thousand years since trees grew on Georges Bank and oysters flourished 
on its shores. Their remains still come up in dredges and trawls in now 
deep water, with the oysters looking like they were shucked yesterday. 
In the face of all these natural changes, and those we are here to 
consider, some species flourish while others diminish.
    I do not know whether the Earth is going to continue to warm, or 
that having reached a peak several years ago, we are at the start of a 
cooling cycle that will last several decades or more. I think carbon-
based fuels will continue to increase in price and become scarcer as 
reserves are depleted even though I am an optimist about our 
technological advances in helping us find and exploit additional 
reserves. Nevertheless, our consumption is more likely to fall than to 
rise. In any case, I am optimistic about our ability to deal with the 
consequences.
    The most important approach in determining the impact of 
CO<INF>2</INF> on the oceans is to examine what happened during past 
times. The world has been down this path before and all the existing 
genera, and many species, endured. It has often been a difficult 
journey, with volcanism, meteoroid collisions, severe ice ages, and 
great heat, with many of these events causing mass extinctions. The 
ancestors of these animals were on Earth long before humans. They are 
the survivors of great disasters. The memory of these difficult times 
is in their genetic makeup. Adaptation will be swift, if needed.
    Whichever response the U.S. takes, our actions should be prudent. 
Our fishing industry, maritime industry and other users of the ocean 
environment compete in a world market and are vulnerable in many ways 
to possible governmental actions to reduce CO<INF>2</INF> emissions. We 
already import most of our seafood and many of the nations with which 
we compete do not need further advantages. Our research should focus on 
those ecosystem linkages we need to understand in order to wisely 
manage our fisheries, and conserve our protected species.
    I think it is important to do the necessary research to see whether 
my views or those who see impending doom are correct. The research is 
important, but actions that would decrease our Nation's ability to 
afford the research should not be taken on the basis of what I believe 
is unfounded fear.

References
    \1\ IPCC Fourth Assessment Report: Climate Change 2007: Working 
Group I: The Physical Science Basis. 10.4.2 Ocean Acidification Due to 
Increasing Atmospheric Carbon Dioxide. Available: http://www.ipcc.ch/
publications_and_data/ar4/wg1/en/ch10s10-4-2.html.
    \2\ IPCC Working Group I: The Scientific Basis, 3.7.3.2 
Concentration projections based on IS92a, for comparison with previous 
studies available: http://www.
ipcc.ch/ipccreports/tar/wg1/122.htm.
    \3\ Knorr, Wolf. ``No Rise of Atmospheric Carbon Dioxide Fraction 
in Past 160 Years'' Geophysical Research Letters, Vol. 36, L21710, 5 
PP., 2009. Available: http://www.agu.org/pubs/crossref/2009/
2009GL040613.shtml.
    \4\ NOAA Earth System Research Laboratory (ERL). Recent Global 
CO<INF>2</INF>. Available: http://www.esrl.noaa.gov/gmd/ccgg/trends/
#global.
    \5\ IPCC. 2007. Climate Change 2007: Synthesis Report. Summary for 
Policymakers. Geneva.
    \6\ Iglesias-Rodriguez, M. D., Halloran, P. R., Rickaby, R. E. M., 
Hall, I. R., Colmenero-Hidalgo, E., Gittins, J. R., Green, D. R. H., 
Tyrrell, T., Gibbs, S. J., von Dassow, P., Rehm, E., Armbrust, E. V. 
Boessenkool, K. P. 2008. Phytoplankton calcification in a high-
CO<INF>2</INF> world. Science 320:336-340. Available:
    \7\ Riebesell, U., Richard G. J. Bellerby, Anja Engel, Victoria J. 
Fabry, David A. Hutchins, Thorsten B. H. Reusch, Kai G. Schulz, and 
Frangois M. M. Morel Comment on ``Phytoplankton Calcification in a 
High-CO<INF>2</INF> World'' December 2008, Science 322 (5907), 1466b.
    \8\ Iglesias-Rodriguez, M. D., Erik T. Buitenhuis, John A. Raven, 
Oscar Schofield, Alex J. Poulton, Samantha Gibbs, Paul R. Halloran, and 
Hein J. W. de Baar Response to Comment on ``Phytoplankton Calcification 
in a High-CO<INF>2</INF> World,'' December 2008, Science 322 (5907), 
1466c. Available: http://www.sciencemag.org/cgi/content/full/sci;322/
5907/1466c.
    \9\ Fabry, V. J., Brad A. Seibel , Richard A. Feely, and James C. 
Orr. Impacts of ocean acidification on marine fauna and ecosystem 
processes ICES Journal of Marine Science: Journal du Conseil Advance 
Access published on April 1, 2008, Available: http://
icesjms.oxfordjournals.org/cgi/content/short/65/3/414.
    \10\ Atkinson M. J., Cuet, P. (2008) Possible effects of ocean 
acidification on coral reef biogeochemistry: topics for research. Mar 
Ecol Prog Ser 373:249-256.
    \11\ Rosenzweig, C., and Others. 2007. Assessment of observed 
changes and responses in natural and managed systems, p. 79-131. In M. 
L. Parry, O. F. Canziani, J. P. Palutikof, P. J. van der Linden and C. 
E. Hanson [eds.], Climate change 2007: Impacts, adaptation and 
vulnerability. Contribution of Working Group II to the Fourth 
Assessment Report of the Intergovernmental Panel on Climate Change. 
Cambridge Univ. Press.
    \12\ Kurihara, H., Asai, T., Kato, S. and Ishimatsu, A. (2008) 
Effects of elevated pCO<INF>2</INF> on early development in the 
musselMytilus galloprovincialis. Aquat. Biol. 4:225-233.
    \13\ Marubini, F., C. Ferrier-Pages, P. Furla, and D. Allemand, 
``Coral calcification responds to seawater acidification: a working 
hypothesis toward a physiological mechanism,'' Coral Reefs, vol. 27, 
no. 3, pp. 491-499, 2008.
    \14\ WHOI. 2009. In CO<INF>2</INF>-rich Environment, Some Ocean 
Dwellers Increase Shell Production. Available: http://www.whoi.edu/
page.do?pid=7545&tid=282&cid=638
09&ct=162.
    \15\ Munday, P. L., J. M. Donelson, D. L. Dixson, and G. G. K. 
Endo, Effects of ocean acidification on the early life history of a 
tropical marine fish Proc R Soc B 2009 276 (1671) 3275-3283. Available: 
http://www.pnas.org/content/106/6/18
48.full.
    \16\ Richardson, A. J. and M. J. Gibbons, ``Are Jellyfish 
Increasing in Response to Ocean Acidification?,'' Limnology and 
Oceanography, v. 53, no. 5 (2008):2040-2045.
    \17\ Zimmerman, R.C. Seagrass Response to Ocean Acidification: From 
Individual Leaves to Populations, in Ocean Acidification Workshop, 
Scripps Institution of Oceanography, La Jolla, CA. October 9-11, 2007 
Department of Ocean, Earth and Atmospheric Sciences, Old Dominion 
University, Norfolk, Virginia.

    Senator Cantwell. Thank you, Dr. Everett, and thank you for 
your views. And we're glad that you've made it to the witness 
table, so--a long journey, being in the audience and back here.
    My colleague from Alaska has joined us.
    Do you want to make any kind of statement, Mr. Begich, 
before we go to questions?
    Senator Begich. Madam Chair, no. We'll--I'll be happy to 
just go to questions, when that time is allowed.
    Senator Cantwell. Thank you, Senator.
    I'm going to start off, and let's just jump right into it, 
Dr. Barry. And Dr. Everett claims that oceans will, you know, 
never truly become acidic, below a--a, you know, a pH below 7, 
and therefore, the term is somewhat misleading. But, isn't this 
really about, not the acidification level, but the chemistry of 
the oceans itself? And, as Mr. Waters correctly put it, why 
would we risk waiting to find out, when it's too late?
    Dr. Barry. Well, the pH of the ocean, or alkalinity or 
acidic--it's really just semantics. I think if we went to the 
newspapers and said, ``The oceans are getting less alkaline,'' 
that's a little confusing. But, I think something about acidity 
is something that we can understand. So, when this term first 
came up, the idea that the ocean was acidic--it was understood, 
by all the chemists: 7.0 is considered neutral, and the oceans 
are about 8.1 in pH. There's really no thought in the 
scientific literature or community that the oceans are 
``acidic,'' by that standard. They're becoming more acidic, or 
less alkaline, but it's really a semantic term.
    Now, what is going to go on in the future is really what's 
important. How much change have we seen, and how much will we 
see in the future? And all of the predictions that I have seen, 
even the most conservative models, suggest that we will see 
quite large changes in pH in the ocean in the future.
    Now, think of it this way, in temperature, because 
acidity's a little difficult to understand. But, let's say that 
the range--because Dr. Everett talked about the natural range 
of variability, and he's correct that there is quite a wide 
variety--or quite a wide range of variability in some habitats 
in ocean acidity. And I'll say two things about that.
    Number one, what if we took the temperature range that we 
live in--let's say, 50 degrees to 100 degrees--and we decided, 
we're going to now move that range by 50 degrees. Now we live 
between 100 degrees and 150 degrees. That would be quite 
stressful for humans, to live under those conditions.
    So, we are basically asking organisms that live in the 
ocean, if all of the best science is correct about where we're 
going in the future, we're going to ask them to live in an 
ocean that has a range in pH that is, in many cases, outside 
the entire range that they have seen throughout much of their 
recent evolutionary history.
    The second point I guess I'd like to make with this is that 
Dr. Everett is correct, environmental conditions change, and 
animals survive that. But, they--it doesn't mean that they 
perform at their optimal point throughout that period. So, 
animals might survive el Ninos, but their performance, their 
survival, their growth, and their reproduction may be impaired 
during periods of their normal range that are stressful. If we 
shift that entire range over to a period where maybe they can 
tolerate the lower acidity--I'm sorry, the--say, the warmer 
part of it, but when it gets really hot, they're going to die, 
we have a real problem. So, when we started shifting the entire 
environmental range, that's where we get into trouble, I think. 
And that's the comment I have for that.
    Senator Cantwell. And what do we do about that change in 
chemistry? I mean, I think your example is a good one. We, in 
the Northwest, always talk about this impact, because we're a 
hydro system--you know, all of--you know, 70 percent of our 
electricity comes from hydro, which means snowpack matters to 
us. One degree change in the temperature means millions of 
dollars difference in the cost of electricity--1 degree. And 
so, what--when you have this chemistry change, what does it 
mean for the uncertainty, and what can we do to address that? 
What are the recommendations?
    Dr. Barry. Well, in the report, we recommend a program that 
begins with many of the recommendations that came from the 
FOARAM bill and the scientific community, and builds a 
framework of research that includes a variety of themes, 
running from basic physiology--How do organisms make calcium 
carbonate shells?--because we need to understand some of the 
basic mechanisms, as well as trying to understand, from the top 
down, How do--will these changes in the performance of 
individual organisms scale up to what goes through food webs 
and eventually provides ecosystem services?
    And I can go into many more details, if you like. I'm not 
sure I answered this question entirely for you yet.
    Senator Cantwell. Well, I think the panel has done an 
excellent job. I wanted to ask Ms. Weaver about how she, you 
know, got involved in this issue, as it related to, you know, 
to acidification, you know, from the perspective of explaining 
it. But, I think you've all done a--you know, a fabulous job of 
talking about where we are today, in the graphics of that food 
chain and what's at risk, and yet doing nothing and saying, 
``Well, let's just see what happens''--it's just unacceptable.
    Dr. Barry. I agree with you.
    Senator Cantwell. It's just unacceptable.
    So, Ms. Weaver, did you want to comment on your--I mean, 
were you surprised, when you got more involved with this, at 
the level of impacts to our ocean? Was it something you had 
been----
    Ms. Weaver. I think that I--oh, thank you. I should know 
how to do that.
    I think that--you know, I consider myself a fairly well-
informed citizen, and, you know, someone who participates a lot 
in the water. And the fact that I knew nothing about the 
scientific data came as a--it came as a huge shock to me. And 
it seemed to me that if every American citizen were given--
could hear the testimony today, and could see this film we 
made, and certainly include Dr. Everett's testimony in this, 
that this is not an area--this is an area where we really look 
to our leadership to be informed and to take steps.
    I think that scientists are putting together different 
parts of the puzzle of climate change. We may not have 
absolutely all the pieces. There may be a couple under the 
sofa. But, we have enough of the pieces to be sending out a cry 
to face this. To see, you know, Mr. Waters' testimony is so 
moving, and it's a--it's very heartwarming to me, since I come 
from such a different world, to hear his testimony, seeing 
what's happening to his beloved finned creatures, you know, 
looking ahead and looking at their future, as a fisherperson, 
rather than as an eater and admirer, like myself.
    [Laughter.]
    Ms. Weaver. And, you know, I just feel that--such power in 
this committee. Even if we disagree on some of the scientific 
data, we're all sending the same message, which I think comes 
from all of the citizens, which is, ``We need your leadership, 
and we need your courage, and we need people to put aside 
whatever their partisan or regional view is and help each other 
pass this climate bill and get us toward a clean energy--clean 
and renewable energy future.'' You know, we just cannot take 
the chance that all four of us are correct. Only one of us is--
has a different opinion.
    So, thank you.
    Senator Cantwell. Thank you. Thank you.
    Senator Snowe?
    Senator Snowe. Thank you.
    Well, just to follow up, Ms. Weaver, because obviously I 
think anybody who sees this documentary can certainly 
appreciate it, because it graphically portrays the problem that 
we're presented globally. And it's a question of how to 
communicate that and make it more accessible to the public to 
enhance awareness, because that also generates public support 
for what we do.
    In your travels around the country, or the world, do you 
sense that people understand this, in your discussions? If they 
have seen this video, for example, or if you've had a chance to 
have conversations with people, do you feel that they have a 
better appreciation or understanding? Are they surprised? Or do 
you think it generates support?
    Ms. Weaver. I think the audiences are very surprised. I 
think this is completely off their radar. There's been so much 
attention to climate change, global warming, and for many years 
people were--seemed to be happy that the oceans were absorbing 
so much CO<INF>2</INF>, because it meant that things were not 
going to heat up quite as fast.
    And now the science has--you know, the scientists have 
discovered that it's having this unseen, really devastating 
impact. And I respect Dr. Everett's, you know, statistics, but 
I have read that, for instance, if, in Antarctica, where 
there's so much plankton--the plankton now, they are 30 percent 
less strong. Their shells have been compared to the shells that 
were found in the very bottom of Antarctica, and their shells 
are 30 percent less strong. The coral is growing off of 
Australia at a 14- percent less growth. We have the oyster beds 
off the coast of the Northwest.
    I mean, these creatures are like the canaries in a mine, 
and they are sending a message to all of us. And I think my job 
is certainly to try to reach out to, just, citizens and try to 
continue to carry this news, because, frankly, I think, if the 
man, the woman, and the child, certainly, on the street--
children in classes--they're actually more hip to the danger 
we're facing than a lot of other people. They may not have the 
facts that this film can give them; and when they get these 
facts; they are alarmed; and they know that we can't afford to 
waste any more time. We have to face this, and act.
    Senator Snowe. I appreciate that. And it is true, because 
public education and awareness have to be such a big part of 
this. And you being a great communicator, along with Mr. 
Waters. Maybe you can make a duo.
    [Laughter.]
    Ms. Weaver. We'll talk about it.
    [Laughter.]
    Senator Snowe. OK. In any event, communication has to be 
part of it. Communicating what the problem is, in terms of, 
obviously, the solution.
    In Maine, we have the Gulf of Maine Research Institute, 
which is a fabulous institution. I know the NRDC has worked 
with them, and they just screened this video, as a matter of 
fact, and they bring in schoolchildren from around the state to 
have a chance to understand and appreciate marine life, and the 
maritime way of life.
    Ms. Weaver. Yes. I actually was at Brooklyn Tech, in New 
York last Saturday, where some of us on ``Avatar'' were giving 
out eco-warrior awards, and the children spoke so passionately 
about our environment. One little boy said that we are the 
predators, now, and nature is our prey.
    Senator Snowe. Yes.
    Ms. Weaver. And I think the kids are really very concerned 
about what's going on, not only under the water, but all over 
the world and in our atmosphere, and we owe it to them to come 
up with answers now.
    Senator Snowe. Absolutely.
    Thank you.
    Dr. Barry my question is on public policy. I think, 
indisputably, there is a chemical reaction. I mean, the link is 
indisputable. And the real issue now is the implications of 
that and what we do, in terms of enhancing the certainty about 
the direction we take.
    At NOAA, can you comment on what you think the policy 
should be? Whether it's on the research, on the monitoring 
devices, or the biological assessments, for example. What are 
the issues? Do you think they're moving in the right direction? 
Because now we really have to refine and modify our policies, 
and I think we need to make sure exactly what direction we 
should be taking at as a committee and as a Congress.
    Dr. Barry. Well, I'll comment based on the report, because 
what the summary report has--is--that came out just this 
morning--recommends is a national ocean acidification strategy 
that is really a fairly large program that includes monitoring 
of conditions throughout areas in the ocean, and especially 
those that we don't--we're not certain about right now, as well 
as a program of research to try and understand, especially, 
areas of uncertainty.
    I think that the steps that NOAA has taken with the FOARAM 
Act is a perfect framework to begin with. And this program that 
the Committee is recommending leverages, off ocean observing 
systems, just about anything that will fit the bill within this 
framework to try and address this issue. And there's a lot that 
can. All of those should be used to begin moving forward to try 
and narrow the uncertainties concerning a variety of areas of 
this research. I'm----
    Senator Snowe. Well, it's a 10-year strategy that you're 
recommending?
    Dr. Barry. The recommendation in the FOARAM bill is for a 
10-year strategy that's--then is revised. And we--I would have 
to make sure that we follow the same--in the summary, I'm not--
I can't recall, specifically, if we----
    Senator Snowe. You did.
    Dr. Barry.--call for 10 years, here, or if there is no 
timeline. This calls for a program that still will require 
contact with a variety of stakeholders to define exactly what 
the program would be, but it would certainly include 
characterizing ocean chemistry better than we have, as well as 
trying to figure out, How can we characterize the biology, 
without spending billions of dollars, so that we can document 
these changes as we move forward?
    Senator Snowe. OK, are there any areas that we should be 
prioritizing, for example, in all of this and in the areas that 
you have identified?
    Dr. Barry. Well----
    Senator Snowe. Because I think that's critical. And you 
mentioned the ocean observing system, which I do, as you know, 
repeatedly----
    [Laughter.]
    Senator Snowe.--and, I don't know, it is moving in the 
wrong direction in terms of funding. This is an ideal network 
that we should be using for this purpose, but the funding 
recommendations are undercutting the system. It should be 
working in tandem.
    Dr. Barry. Well, the report in the Committee feels that we 
need to leverage off of just about any technology that's 
available and any system that's available. But, we did not set 
priorities for exactly which of these research tasks should be 
placed first. So, if--in number five, for example, we come up 
with eight research priorities that are unranked.
    Senator Snowe. Right.
    Dr. Barry. And so, the Committee did not rank those, at 
this point.
    Senator Snowe. OK. But, should they all happen at the same 
time?
    Dr. Barry. Well, in some cases, if you look through these, 
they do require some overlap, so they're--in some--some things, 
you would want to do in tandem. It makes no sense, for example, 
to characterize ocean chemistry without parallel biological 
studies going on at the same time.
    I wish I could give you more clear guidance about the 
priorities, but that's something that we didn't cover.
    Senator Snowe. I appreciate it. Thank you.
    Senator Cantwell. Senator Lautenberg?
    Senator Lautenberg. Thank you, Madam Chairman.
    And thank each one of you for your testimony.
    A couple things that are mystifying for me is the 
difference in perspective that we hear from Mr. Everett--Dr. 
Everett and the others of you.
    And, Mr. Waters, don't dismiss your articulate skills. 
Don't underestimate your message, because it comes from the 
gut, and that's the kind of thing that we have to hear. And 
you're onsite, I mean, you're--you see the effects of problems 
that are developing in our oceans. And obviously we think 
that--in this particular hearing, that one the major ones is 
the acidification of the oceans and its effect on coral, coral 
being kind of the home place that fish can find refuge and 
procreate and do all of the things that we want them to do.
    Dr. Everett, you're in business, am I correct? You said you 
had a consulting business?
    Dr. Everett. Yes, in my--I come from a fishing family, and 
I just----
    Senator Lautenberg. No, but----
    Dr. Everett.--divested of all of that, but I do ocean 
climate consulting.
    Senator Lautenberg. So, and you, therefore, have clients 
and----
    Dr. Everett. Yes.
    Senator Lautenberg. Yes.
    Dr. Everett. And let me say, they're all public-sector, 
there are no private-sector clients.
    Senator Lautenberg. Yes. What kind of clients might you 
have? Is it--can you tell us anything about----
    Dr. Everett. Yes, mostly NOAA and United Nations Food and 
Agriculture Organization.
    Senator Lautenberg. And do they give you opinions on your 
conclusions?
    Dr. Everett. Not about this. I have no work on climate 
change with NOAA.
    Senator Lautenberg. But, you know, you list the things that 
others are concerned about, in your testimony, about loss of 
shell-forming animals, reduced food for those high on the food 
chain.
    Dr. Barry, do we have specific things? You know, I know we 
often, around here, wait for studies to be concluded, and so 
forth, and it--but, meanwhile, if there's a fire in the house, 
you don't have to start figuring out how the fire got started, 
you've got to figure out how to put the fire out.
    Do we have things that you--using my analogy, do you have 
things that you would, say, tell us, ``There is fire there,'' 
that these are things that we can see, these are things that we 
can feel, like Mr. Waters in his comments?
    Dr. Barry. I think I understand the question, and this 
would be my personal view of this, as a scientist. And I would 
say, yes, I think there are things that we need to be very 
concerned about. Just as--and let's say that there isn't a fire 
in the house. We would certainly insure against the case that 
we might have one, and that's something we are not doing well 
with our oceans.
    Senator Lautenberg. Right.
    Dr. Barry. In this case----
    Senator Lautenberg. That's part A. And part B----
    Dr. Barry. Right. And then, part B, there are some things 
that are going on, although--it's interesting to look at how 
organisms respond to changes in their conditions. And let's--
just ocean acidification--it can affect your acid-based 
balance, but it might be--have a positive effect on 
calcification; or it could affect calcification, but at the 
expense of growth by tissues. And so, there is a lot of 
responses that organisms perform.
    In general, organisms calcify less under a more--more 
acidic conditions. But, there are a few species that are 
anomalous in that way. There is a--Dr. Everett mentioned Justin 
Ries' paper, which surveyed 18 species, showing that several 
crustaceans, a couple of lobsters, actually grew quite a bit 
larger.
    Now, I know Justin is now looking for funds to try and 
figure out what really happened there, because there have been 
a variety of studies that have shown--in cases where things 
have calcified more, which is not what you'd expect, they've 
actually found that they're--they had tissue loss or they had 
suffered some other problem, metabolically.
    So, to get back to the point, I think that we have to be 
worried about these trends in ocean chemistry, and the future 
in ocean chemistry, coupled with the information that we have 
now about the responsive organisms. There's a fire there, or if 
it's--if it's not--it may not be a roaring blaze yet, but it's 
certainly--there's something starting on the curtains in the 
corner.
    Senator Lautenberg. Right. Yes, but do we feel the heat? Do 
we see this--the reality of shells being too soft or even 
transparent in places? Is that there in any quantity that we 
can point to, that we--that reduce the supply of the numbers of 
crustaceans that we--that are out there?
    Dr. Barry. That's a tough one, because we don't have much 
of a context to measure that from. We have not been going 
along, measuring the thickness of shells for a variety of 
marine animals. There are now a few papers that have begun to 
come out to show that, in areas where we think there are some 
vulnerabilities--and in polar areas, that Sigourney mentioned, 
the calcification of marine terrapods, which are an important 
prey species for a variety of animals--they're little snails 
that live and float through the water, beautiful little 
things--their shells are affected by ocean acidification.
    And in the Antarctic--in polar regions, in general, the 
water's colder, it absorbs more CO<INF>2</INF>, it's naturally 
more acidic. And when you add the extra burden of 
CO<INF>2</INF> from the atmosphere, it makes it that much more 
acidic, and it's a more difficult place, in general, to make 
shells. There's evidence, there, that shell formation is 
decreasing.
    On--in the Great Barrier Reef, there's a paper recently 
that came out to show that there has been a reduction in the 
rate of calcification on the reefs itself. And it's difficult 
to attribute it to either--only to ocean acidification; it may 
be an acidification and global warming or water temperatures 
rising.
    So, the problem with multiple stressors is that it may be--
there's an effect of ocean acidification plus there's an effect 
of global warming plus there's an effect of pollution, but we 
don't really understand how those multiple stressors will work. 
It may not be A plus B plus C, it could be A plus B times C; it 
could be nonlinear. So, there are some real problems that we're 
not sure of.
    Senator Lautenberg. Dr. Everett, do you see any warning 
signs that concern you about the condition of the ocean's 
ecology?
    Dr. Everett. Well, sir, if you had asked me, say, 2 weeks 
ago, before this hearing, I would say that one of my primary 
concerns in the climate change area was ocean acidification. In 
the preparation of this, 2 weeks, perhaps 10 days of--this is 
pretty much all I did, and, one staff person, all that she did, 
poring over the literature, getting everything together, the--I 
changed my testimony from being of great concern to being as I 
testified. And so, that's----
    Senator Lautenberg. What was--just in short form, repeat 
for me the conclusion you've come to, that things are--that's 
life and, you know--let me not speak for you, let me----
    Dr. Everett. No, I think what Dr. Barry said is--I agree, 
100 percent, and we need to find out whether the conclusion I 
came to, which says it's--acidification is important, but 
doesn't look like it's a problem. But, we need to find out, 
it--you know, am I wrong? And let's follow the research 
protocol being laid out for NOAA and others, and let's get at 
the bottom of it.
    I come from a fishing family, as I said; and my father 
could also, as Mr. Waters, speak very eloquently. And my father 
didn't go to college, but he spoke from the heart. And we're 
very much in favor of the clean environment. Let's clean up our 
act. OK? That's the important thing. I'm not a CO<INF>2</INF> 
advocate. I'm just saying that I don't see damage.
    Senator Lautenberg. Well, you had a quick study, there, 
obviously. You've been--10 days, 2 weeks. You----
    Dr. Everett. Oh, I--but, I've done it for close to 30 
years. This was a brush-up.
    Senator Lautenberg. So, then you were a slow study for a 
lot of years----
    Dr. Everett. Yes.
    [Laughter.]
    Senator Lautenberg.--before that.
    Dr. Everett. That's right.
    Senator Lautenberg. The--we're not fishing families, but we 
are fish-eating people, and I thank you all for your testimony.
    Sigourney, you look like you want to say something. And I 
don't have the--I'm the seniority in the Committee, as you see, 
to cut you off, so--[Laughter.]
    Ms. Weaver. I hope that Dr. Everett watches our 
documentary. It's not fiction. And certainly I've done enough 
science fiction to know that the Earth can survive, in various 
forms, through lots of different nightmarish scenarios. But, 
again, that's sort of entertainment. And, as a citizen, I think 
that we simply cannot take the chance. We have to be on guard. 
We have to see these warning signs and act, and be able to look 
in our children's eyes in 20 years and say, ``Yes, we did the 
right thing when we got these early reports. We acted. We 
didn't have all the information, but we had enough to know 
which direction we should go in.''
    Senator Lautenberg. I thank the Chair----
    Senator Cantwell. Thank you. Thank you.
    Senator Lautenberg.--colleagues for the----
    Senator Cantwell. Thank you.
    Senator Begich?

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Thank you very much, Madam Chair. And I'll 
try to go through my questions, here, and then I've got to get 
back to another committee. I have some amendments pending.
    Let me ask, just first off, from Alaska, you know, we 
have--62 percent of the fresh-caught fish in the country comes 
from Alaska, so we have a huge interest in the issue of climate 
change or acidification of waters, as one element of it. We 
also see the greatest impacts. There's no other state that sees 
it, compared to us. So, I want to--most of you already know 
that.
    But, as I look at the document I have here, which is the 
draft--and I know you're going to have a much more formal, 
probably much thicker, nicer-looking, glossy top to it or 
whatever--but, let me ask you--when I look at the 
recommendations--and you have several through here--I think it 
was asked a little bit--are you going to--and I try to be 
realistic in all the work we do here, and I'm probably more 
aggressive now than ever before. I--we just had broadband, and 
a presentation on that last--a week or so ago, but presented a 
nice, big plan. I know enough that--serving in public office 
for almost, now, 20 years, that I've learned one thing, that a 
lot of plans end up on a great many shelves, and they look 
great, 20 years later, when we review them and find out what we 
didn't do. So, are you going to, in your recommendations, 
prioritize, recognizing the resources of this country are 
limited?
    Now, I will say this, saying that I do believe this is an 
important issue. I can tell you, the fishermen I talk to on a 
regular basis--just like Mr. Waters--on a regular basis--we 
have the best-managed fisheries in the country, if not, in my 
belief, in the world, when it comes to Alaska fisheries. But, 
the greatest threat is acidification, because it can't be 
managed by the fishermen, by themselves. And so, by that fact, 
after managing for more than 20, 30 years--and we've gone 
through the catch shares and all that, and we're glad we've 
done everything we've done. We still have our fish wars, but 
they're not like they were in the 1970s, and because of that we 
have an--incredibly successful fisheries. But, the piece that 
is the most dangerous, even if we believe a little bit or a 
lot, between the two doctors, it is a threat that cannot be 
managed after the fact.
    So, can you tell me, as you look at this, are you 
prioritizing to where we need to hone in resource-wise and 
subject-wise? I think that was one of the questions on policy. 
Because all of us will love to do everything in the report--who 
believe in this--but we have to be realistic of what we need to 
do first and how it has the longest impact. Are you going to do 
that? I know it's tough in a lot of these reports. Because they 
like to just give the recommendations and say, ``You're the 
policymakers, you figure it out.'' But we're all in this ship 
together.
    Dr. Barry. Agreed. We were tasked with saying, What do we 
need to do about this problem?--in a nutshell. So, we don't 
have a series of priorities for you, but what we do state is 
that, in order for this program to move forward, we must get 
together repeatedly with a variety of stakeholders, certainly 
the sponsors, and design explicitly what this is going to 
entail.
    At that point, what I would anticipate, is the starting 
point for where these priorities are going to start to fall 
out. Who's going to ocean observing? What piece of the pie must 
that be? Where are the highest research priorities, or where's 
the most economical place to start? Those are the sorts of 
considerations that the Committee was not tasked with. But, I 
can certainly see how that would start to play out once you 
really sat down and said, ``OK, let's get moving on this.''
    Now, getting moving on this is something that has already 
started to happen through the FOARAM Act, and, in part, the 
stimulus money. So, there----
    Senator Begich. Sure.
    Dr. Barry.--there's a lot of traction, I guess, is what you 
use here, for this. And so, I--although I can't tell you where 
those priorities lie, I think there is a mechanism by which 
those will be defined.
    Senator Begich. Very good.
    Let me ask both of you, Dr. Barry and Dr. Everett, do you 
think we have--this may be a very leading question, but do you 
think we have enough resources at this point to really 
understand what acidification of the waters means? To either 
one of you first, whoever wants to go first.
    Dr. Barry. Well, I guess I'll go first.
    Senator Begich. Do the Federal agencies, not necessarily--
just so I--because that's what we deal with.
    Dr. Barry. I mean, that's a little bit of an ambiguous 
question, so I can't really answer that in the context of the 
report, but I will answer that personally. And my view of this 
is--the first thing I'd say is that what we think is going to 
happen is that the oceans are going to be different. They're 
not going to die, life will continue, the oceans will thrive, 
but they're going to be different, and that may be quite 
disruptive for humans and society--societal economies.
    I'm not sure if we have the funds to understand everything, 
or the support to understand everything, about ocean 
acidification, but we can certainly make significant progress. 
We've already done this. This is a new field, the term was 
coined maybe 5 years ago.
    Senator Begich. Right.
    Dr. Barry. And so we're moving fast, now. There's a lot 
that we can make--make hay with right now.
    Senator Begich. Dr. Everett?
    Dr. Everett. Yes, I agree. And the--as perspective, I 
perhaps have, at this moment, maybe 60 or 70 contracts of--
working on fisheries and oceans, none of them are on 
acidification.
    Senator Begich. None are.
    Dr. Everett. None at all.
    Senator Begich. That's very interesting. Well, thank you 
very much.
    And, Ms. Weaver, thank you for putting your voice to the 
message. As the fishermen--I love your--I love that we picked 
Mr. Waters to be here to represent the fishing community, 
because the name is appropriate.
    [Laughter.]
    Senator Begich. But, I think that putting the voice to the 
struggles of what I see--not necessarily in the Gulf that you 
fish, Mr. Waters, but the Gulf of Alaska and throughout 
Alaska--putting a voice to it and helping advocate, I really 
appreciate that, because, I think, if you asked me, 4 or 5 
years ago, I wouldn't have much knowledge on acidification.
    When I was Mayor of Anchorage, I became more and more aware 
of it, because our city had the largest amount of commercial 
fishermen licenses there, even though they fished the whole 
state. And then, as I traveled, especially in southeast Alaska, 
I really started to hear the issue more and more. So, thank you 
for your willingness to kind of step to the plate, put your 
voice to it.
    And, Mr. Waters, I think you did great today. You know, 
fisherman, usually the meetings I'm in--and, I'm sure, my 
colleagues are in--usually they're yelling at each other. So, I 
appreciate your passion, directed in a way that is going to 
have, hopefully, some positive results. So, thank you very 
much.
    Senator Cantwell. Thank you, Senator Begich. He did mention 
Magnuson-Stevens, so--I mean, he did preface----
    [Laughter.]
    Senator Cantwell.--his----
    Senator Begich. I wasn't sure if he was going to go 
somewhere there on that, so----
    [Laughter.]
    Mr. Waters. Keep it closed.
    Senator Cantwell. So, one of the things that--we're going 
to do one more round. And I know--then we're going to let our 
panelists go. But, one of the things--we've talked a lot about 
fish, but I--if we could go back to the coral reef situation 
for a second, because obviously not only does acidification 
affect that, I'm concerned that it might prevent the coral 
reefs from even--that, you know, that initial damage might 
prohibit it from regrowing. And as people have explained to me, 
this is almost like our rain forest, if you will, for the 
species that live in that particular environment, so if you 
could talk about that.
    And then I want Mr. Waters and Mr. Ingram to talk about, 
Well, what are the kind of early warning systems that you see, 
that you think we should be doing as part of solutions?
    Dr. Barry. Well, concerning coral reefs, coral reefs are 
certainly dependent upon calcification.
    Senator Cantwell. And I should just mention to people, we 
have many coral reefs in the Northwest, and my colleague from 
Alaska can tell you about the coral reefs in his areas, so----
    Dr. Barry. Well, you also have them offshore, in deeper 
waters, too. I'm a deep sea ecologist, so I have a little bias 
toward the things that live in deep waters. But shallow-water 
reefs certainly depend upon calcification. And when you couple 
calcification with--I'm sorry--ocean acidification with 
warming, we've seen coral bleaching, just due to warming; and 
if that persists for a couple weeks, the corals die. The reefs 
will remain intact until they dissolve. As we make the oceans 
more acidic, then--or less alkaline--then they certainly could 
begin to erode more quickly.
    And the tropical Pacific--actually, if there is a--if I 
could get a slide up, this shows the change in the aragonite 
saturation state, how much saturation of carbonate minerals are 
in the ocean. And this is a little bit complicated--whoops--
well, this is a movie, produced by Sarah Cooley at WHOI, which 
is--the reds are areas--you can see the scale, going from 
purple to red. Purple means that--4.5 means there's a lot of 
carbonate minerals around to make their shells. And as things 
get lower--and corals when they get to around 2.2, 2.3--below 
that, it's becoming hard to calcify. If you go below 1, into 
the red, exposed carbonate minerals will dissolve, just because 
the ocean is sufficiently acidic at that point.
    So, as we move from 1900, at the beginning of this slide, 
to the right, at 2100, we see that the red starts to take over, 
and the purples and dark blues disappear. And I think this will 
stop, after this last one, and you'll see, at the end, toward 
the end of this century, the conditions for creating calcium 
carbonate are much, much weaker, and that the chemical 
conditions are not as appropriate as they are now or as they 
were in the past.
    Now, what happens in the long run? In the long run, when we 
make this ocean more acidic, that makes it harder to make the 
skeletons. There's evidence from different areas that are 
either more acidic or less acidic now. In areas where corals 
are living where it is now more acidic, they cement that 
calcium carbonate more weakly, so they have more fragile 
skeletons, which allows more rapid coastal erosion, et cetera.
    And as you move into the future, if all of the areas that 
are creating corals are more fragile cementation of that 
calcium carbonate, that means that they're much more 
susceptible to erosion if they die or when they die. And so, if 
you add warming on top of the story, all of a sudden we have a 
bunch of reefs that are now dead, that could be eroded.
    Now, I can't--there's no certainty that that's going to 
happen. But, it--there's quite a bit of worry in the scientific 
community, particularly about shallow water or tropical coral 
reefs.
    That being said, once you change that reef structure, 
because they're such an important structure-forming part of the 
community, everything else can change with it. So, instead of a 
coral-dominated community, with all the animals that you have 
now, and plants, you start to algal-dominated community, which 
has a whole different suite of things that may be completely 
different, in terms of its ecology, completely different for 
the services it provides, in terms of scuba divers, fishing, 
coastline protection, or even as a source of biodiversity that 
we--that pharmaceutical companies are interested in, to try and 
look for new medicines.
    So, in a kind of a wide-ranging tome, there's my answer for 
you.
    Senator Cantwell. Thank you.
    Mr. Waters, early warning systems. What should we be doing, 
or what do you think the fishing industry sees as ways to 
participate in helping with this information?
    Mr. Waters. Yes, ma'am. Well, so far, I only know of one 
thing, where the Coast Guard wants to do some baseline studies 
in the Gulf of Mexico. And our biggest threat is considered 
hypoxia, which is the nutrients coming down the Mississippi 
River, creating dead zones where we're at. But I think these 
baseline studies would be just a pure minimum for the 
monitoring of the Gulf of Mexico. I would like to see some 
funding for some more active and more proactive monitoring to 
see if we having any kind of acidity change in the Gulf of 
Mexico. Because, like all these doctors are saying, the colder 
waters absorb the carbon faster than the warm waters.
    So, I can't really sit here and tell you that I'm watching 
my fish die or my oysters die from acidification, but I also 
want to keep my eyes open. I don't want to turn my back on it, 
and I don't want to--I'd love to believe in Dr. Everett, and 
I'm scared to death of Dr. Barry. And----
    [Laughter.]
    Mr. Waters. So, I mean, I've really--you know, my whole 
life, my family's life, is all in a fishing community. And even 
though we fish hard against other fishermen, and they don't 
seem to be your friends, if you ever holler ``mayday,'' they 
are your friends. So, at this time, we just--we really need to 
keep our eyes open and have some fundings to monitor this in 
the southern regions, and I believe a little more proactive in 
the northern regions, and really see what's going on in this.
    Thank you.
    Senator Cantwell. Thank you.
    Mr. Ingram?
    Mr. Ingram. I guess this--this seems to me like the proverb 
of boiling a frog. We don't really know precisely that 
somebody's turning up the heat on us just yet, because we 
haven't really felt it. And if we were that frog in water that 
was being increasingly heated, we would, sooner or later, find 
ourselves in deep trouble.
    We, in the diving industry--you know, there are three and a 
half million active divers in the United States. And some of 
those people are scientists, and some of them have been able to 
help us to understand what's going on around us. We have a 
couple of environmental organizations that are very tightly 
tied to the diving industry--the Reef Environmental Education 
Foundation, the Coral Reef Alliance, and the Project AWARE 
Foundation. And they do help us to understand what's going on. 
They very frequently provide us with information that helps to 
educate all of our constituents about what's going on.
    But, I think, for us, the biggest issue that we would need 
is to work with somebody like Jim Barry, like Dr. Everett, to 
help us to understand what those early warning signs could be. 
There's a lot of signs that we see firsthand, as I mentioned 
before, that are signs that there is something wrong. There's 
coral bleaching that's taking place. We see, unfortunately, 
trash on the bottom of the ocean. We see all sorts of different 
things, from pollution, that probably should not be there. And 
so, when we do see those things, we try to do our best to clean 
that stuff up and get it off the bottom, and also report it to 
those organizations that can help us to keep our area clean.
    So, I think, for us--from the diving industry's 
perspective, the thing, for us, that would be the most critical 
would be for us to continue our education toward understanding, 
so that we can help to provide as much information as we 
possibly can on reporting what's happening as the heat gets 
turned up on our frog.
    Senator Cantwell. Well, thank you, Mr. Ingram.
    And I will just say, I--you know, I know, Mr. Waters, 
you're saying, you know, this event has, you know, worried on 
one side or listening to the results. I mean, my--you met one 
of our Northwest shell growers, and you saw what he was going 
through. And I can tell you, we don't want that to continue or 
to broaden to a larger group and classification of either the 
shellfish industry or the fishing industry. And that's why I 
think this letter from the shellfish growers and the commercial 
fishermen, today that we received, about how important this is, 
and making sure that we come up with answers.
    That's--I can't say to shellfish growers who've been in 
Washington State for 126 years, ``We're going to do nothing.'' 
I simply can't. So, we're going to get answers, and we want to 
work with you.
    Senator Snowe, do you have any----
    Senator Snowe. Thank you, Madam Chair. Just briefly.
    Mr. Waters, certainly we want to prevent any trauma to your 
industry. I know, speaking firsthand, in my own state, many of 
our sectors in the fishing industry, particularly the 
groundfish industry, is faced with tremendous challenges, the 
reduction of the number of days at sea, and enormous Federal 
regulations are a result of what has happened in the past, in 
losing so much of their fisheries, and trying to rebuild it 
now. That's what we've got to avoid and to prevent and preempt. 
It's always a delicate balancing act about whether you do too 
much or too little, and that's the debate that even is 
reflected here today, in some senses, in how far we go.
    And also, from my standpoint of the fishing community in 
Maine, a couple of things that are really important. The 
credibility and the integrity of the science is so important to 
the outcome and the decisions that have to be made as a result 
and collaboration should exist between the scientists and the 
fishermen.
    Think about the Gulf of Mexico. I mean, talk about a dead 
zone--7- to 8,000 square miles literally described as a dead 
zone because of hypoxia. I have introduced legislation that has 
passed out of this committee to assist in that effort, but as 
you mentioned, acidification cannot be considered in a vacuum. 
There are so many other aspects that are affecting, and could 
affect, your livelihood.
    So, do you see your fishing community with whom you work, 
recognizing that this is a serious issue, and that fishermen 
can play a vital role in helping in this process of scientific 
research?
    Mr. Waters. Ms. Snowe, it's--we've had so many fires in our 
cabin with fighting catch share--or not fighting against catch 
share, as we've come to you before--or I have visited your 
office and had help from you and other things with Magnuson and 
Stevens. But, there are so many fires in the fishing industry. 
As you know, I spent last week with some of the monk fishermen 
in Galveston with the Fishermen's Exchange. It--it's--you know, 
it just hasn't been brought forward.
    I mean, we're having a presentation in Tampa by an 
organization for--The Gulf of Mexico Shareholders Alliance. The 
Alliance signed off--you know, I was the founding president of 
the Alliance, and they signed off on this, and they're becoming 
aware. And this is a new topic. I mean, we've had so many 
battles. And how many battles can you fight? You, yourself, 
know of how many issues you have to deal with in 1 day. How 
many issues can you deal with as a person? And a lot of our 
fishermen don't have staffs as intelligent or as responsible as 
your staffs, relaying information to you.
    So, I believe it's going to come to the forefront, it's 
coming very quickly. And, like I said, the news is just 
reaching our fishermen. And talking to some of the fishermen 
from your area last week, you know, it's concerning them. I 
mean, when you start getting other fishermen, and you sit down 
and have your discussion, and they say, ``Well, it's killing 
us. Our oysters are dying,'' and stuff like this. So it's, you 
know, we--we've had the issues of management and turf wars, the 
days at sea, the sectors, and on and on and on and on and on. 
And I mean, it's just----
    Senator Snowe. I know.
    Mr. Waters.--we've got to go fishing sometimes.
    [Laughter.]
    Senator Snowe. I know. I couldn't agree with you more, 
you're right on. You're absolutely right. I think people would 
be surprised to what degree the fishing industry is regulated 
by the Federal Government. I sympathize and empathize.
    Mr. Waters. But, I do thank you for your support.
    Senator Snowe. But, your eyes and ears are on the water, 
and you can share firsthand information, so that's what's 
important. My fishing industry asked for us to be part of the 
process and to make sure we're doing our part and investing in 
quality research so that whatever emerges from that research 
and the decisions that are made, they are ones that they can 
accept and embrace.
    Mr. Waters. Yes, ma'am, and I do appreciate your concerns. 
And mostly my cries have been from other fishermen warning me 
of what's coming to my area, from their heart, just as I have 
spoke to you from my heart. And I appreciate your help with us.
    Senator Snowe. We thank you for giving your time, your 
precious time, away from your work. So, we thank you very much.
    Mr. Ingram, your clients as well, do they recognize this 
issue? Because coral reefs are very integral to the diving 
industry. So, do you see a general awareness?
    Mr. Ingram. Well, as Dr. Barry indicated, the term was only 
coined about 5 years ago, so it is--it's just coming to the 
forefront. We have seen a number of articles that have been 
posted within our industry to start to educate. And the fine 
film, ``Acid Test,'' has really been kind of making its way 
through the diving industry here, of late. And I think that 
that is a key to this, because, as I said before, we have 3 and 
a half million divers out there that are watching what's going 
on with the coral reefs. And they can be a wealth of 
information to everyone here at this table. So, I think it's an 
important thing for us to continue to be involved, as well, to 
be able to help the scientists, as best we can, but also help 
from the standpoint that I think we can look at this from an 
economic standpoint, as well, just as Donny has indicated.
    Diving feeds our families, and we want them to be able to 
do that. And we have to do that for the long haul. It's not 
just for the short run. It's for both, actually; both are 
critical.
    Senator Snowe. Thank you.
    Dr. Barry and Dr. Everett, on the issue of research versus 
mitigation, the question is, first of all, How much research is 
necessary to determine whether or not mitigation steps are 
essential? Are we doing enough research, at the Federal level 
right now, that is sufficient to warrant steps to be taken? How 
much research and how much funding should we be spending on 
research? I think that's the real question, because, obviously, 
between you, Dr. Barry and Dr. Everett, there are some 
differences and questions on not--whether or not there is 
sufficient science. That's what I'm hearing from Dr. Everett 
and that would suggest that there is a real problem.
    On the other hand, do we know that we're spending enough 
money on sufficient research to document the problem, and 
whether or not we should take the next step for mitigation or 
adaptation, whatever the case may be?
    Dr. Barry. I think--so, there are a couple questions here 
really. One of them, Is there--are we doing enough right now? 
This committee was charged with defining, What do we need to 
do, as a Nation, to get a grip on this problem? And so, the 
report that was released today really does outline what this 
committee feels are the necessary steps that we should take in 
order to find out what's going on, get to the bottom of this 
science, so that we can understand what's going to happen in 
the future, much--or at least constrain the range of 
possibilities so that it will give us some power to adapt, as a 
Nation, as a society.
    How much money should we put into this is something that 
the scientific community would love to tell you. I'd love to 
help you say that we should do this or that, but that's not 
something that we were charged with, and it's probably good to 
separate that. Just as we would love to say, as a committee, 
here's what the priorities should be, because we have--each 
have our own key ideas of what we think should be done. But, 
that's also not really appropriate, and that's not something 
the Committee addressed.
    Senator Snowe. Dr. Everett, what are your views?
    Dr. Everett. Well, one of the ways to look at it is--as I 
said, presently I'm not involved in any of the work. It's 
highly likely I would be. And so, the--there's very little 
being done.
    Now, if the--one of the ways that I always looked at it, 
when I was head of policy and planning at the Fishery Service, 
was to--you know, how important is the problem, OK?--and--
versus the amount of money being spent on it, versus the other 
problems? You know, it--does it merit just a fraction of 1 
percent, or, you know, is it fundamental, and therefore, it 
ought to be several percent? And when you look at it, I think 
the funding now is below 1 percent, even in the plans. And so, 
if it's a bigger problem, then guidance is needed from you all. 
So----
    Senator Snowe. Thank you.
    Thank you.
    Senator Cantwell. Thank you.
    Thank you. And I want to thank Dr. Everett, Dr. Barry, Ms. 
Weaver, Mr. Waters, Mr. Ingram, for your testimony today.
    Senator Snowe and I and Senator Lautenberg, along with 20 
of our colleagues, are calling for Fiscal Year 2011 funding for 
ocean acidification and monitoring and research. So, we are 
going to be proceeding, moving ahead on this issue. So, we 
thank you.
    We want to, specifically, thank you, too, for being here on 
the 40th anniversary of Earth Day. I think we all helped make 
sure that the oceans got their fair due in this big debate 
about our planet, that--70 percent of our Earth's planet being 
oceans, that not all is well underneath those waters, and we 
need to be good stewards of that part of our planet, as well.
    So, thank you for helping us illuminate that, and for your 
testimony today.
    The hearing is adjourned.
    [Whereupon, at 11:54 a.m., the hearing was adjourned.]


                            A P P E N D I X

  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                             Thomas Ingram

    Question 1. When we're faced with scientific uncertainty about how 
present actions will impact the future environment, it makes decisions 
to permit or prohibit certain actions more difficult. Because your 
industry is likely to be affected by whatever regulatory action is 
taken to deal with this issue, how do you feel that public 
participation should be incorporated into the policy-making process to 
minimize negative impacts on your industry today and in the future?
    Answer. Thank you for the opportunity to respond to your thoughtful 
questions. We appreciate being included in this discussion.
    There are a number of ways that public participation should be 
incorporated into the policy-making process to minimize the negative 
impacts on the diving industry, both for today and for the future.

        a. I recommend strongly that such active participation and 
        discussion continue through DEMA. We are eager to assist, and 
        can continue operating as a conduit of information and feedback 
        for this government body from both the professional and 
        consumer perspective.

        As the trade association for the Recreational Diving Industry 
        DEMA has members encompassing the five different active major 
        stakeholder groups in the industry; equipment manufacturers, 
        training organizations, retail dive centers, travel/boat 
        operators, non-retail services and the media. Any legislation 
        enacted will have an impact on one or more of these stakeholder 
        groups. As DEMA's Board and staff can provide information and 
        help facilitate communication with members of the industry, we 
        are glad to offer our assistance and play a continuing role in 
        the process. In addition, several diving-related NGO's also 
        exist with which DEMA interacts, such as the Project AWARE 
        Foundation and the Reef Environmental Education Foundation. 
        These NGO's can assist with policy input and communications to 
        the general public.

        DEMA can provide business-related information to this Senate 
        Committee as well as operational details needed to help this 
        body understand the long term impact of legislation for the 
        industry/professional diving community. DEMA has the capability 
        and expertise to make general recommendations on methodologies 
        to protect this important resource and soliciting the input of 
        business professionals. Working directly with the professional 
        diving community as we do, DEMA will assist by keeping this 
        issue in front of the professional audience.

        DEMA is positioned to assist this body in reaching the diving 
        consumer to bring Ocean Acidification and any legislative 
        activity to their attention.

        b. In addition to utilizing DEMA's resources to reach the 
        professional and consumer audience, we believe the best way to 
        incorporate public participation in policy-making is to bring 
        the proposed policies before this intelligent audience in a 
        series of face-to-face meeting opportunities, as well as to 
        provide access to the information through government and 
        private websites and other communication means. By working 
        through DEMA, through the environmental NGO's and though 
        members of the professional dive community, meeting 
        notifications, explanations of the pros and cons of proposed 
        legislation and ample time for analysis will provide the kind 
        of transparency needed to develop agreement within this diverse 
        but involved community.

    Question 2. As you pointed out in your testimony, divers can act as 
stewards of the marine environment, and their contributions to coastal 
economies are substantial. Coral bleaching events and die-offs as a 
result of ocean acidification and rising sea temperatures have already 
affected your industry, and the downturn in the economy seems to be 
affecting your industry as well. Overall, ocean acidification has the 
potential to impact your business on an even broader scale. What kinds 
of monitoring data or other research activities would most benefit 
industries like yours that support coastal communities while 
simultaneously building public appreciation for the oceans?
    Answer. It appears that a need exists for accurate, readily 
available, and easily understood baseline information regarding the 
health of aquatic resources which may be impacted by ocean 
acidification. Developing consumer-friendly baseline information for 
such resources as coral reefs, current ocean pH, marine life activity 
and growth, and other biological factors should make it easier for the 
professional and consumer diving communities to observe and provide 
feedback on advancement of the phenomenon and on its correction should 
legislation be enacted. As previously mentioned, the diving-related 
NGO's such as the Project AWARE Foundation and Reef Environmental 
Education Foundation, along with DEMA, can assist in developing and 
dispersing such baseline data to the diving community.
    In addition to baseline scientific data that provides references 
for the biological processes impacted by ocean acidification, it is 
also important to develop and use baseline economic data for the diving 
related businesses that may be impacted by any enacted legislation. 
These small (and sometimes micro-sized) businesses depend on the 
availability of inexpensive energy, in the form of fuel for diving 
vessels, electricity to run their land and electronic operations and 
easy, inexpensive, and unfettered access to diving locations. Direct 
and indirect jobs as well as induced jobs and the tax-revenues 
generated by them, are likely to be impacted by any legislation which 
restricts or otherwise impairs the diving business community. While 
DEMA has provided some of this current economic data as part of our 
Senate Committee testimony, this data should be considered when 
legislation is proposed.
    In summary, divers want to be involved. A clear set of economic and 
biological baselines and guidelines to monitor changes will help keep 
divers involved and will help divers advocate for economic and 
biological resource protection.

    Question 2a. In your interactions with your clients, do you get the 
sense that the general public awareness of ocean acidification is 
growing?
    Yes, but public awareness still remains somewhat limited. Using 
vehicles such as the video presentation ``Acid Test'' has been helpful 
in generating public awareness. The opportunity for DEMA to testify 
before this committee was also helpful in bringing the issue to the 
attention of the professional members of the diving community. The DEMA 
Board of Directors has also indicated their desire to provide more 
economic information to assist in educating the professional diving 
stakeholder groups.

    Question 2b. How can your industry contribute to, and benefit from, 
increased public awareness of this issue?
    There are three means by which this industry can contribute to 
public awareness of ocean acidification:

        1. Professional members, environmental NGO's and consumer 
        participants in the diving industry have the unique opportunity 
        to observe first-hand any impacts or changes in the close-to-
        shore aquatic environment. Divers can contribute to the body of 
        directly observable information available to this committee and 
        any scientific or economic group involved in the future.

        2. DEMA, the organization, and diving's environmental NGO's, 
        can contribute to public awareness through the use of published 
        papers written by qualified member groups, through the 
        educational component its annual trade-only convention, by 
        disseminating information directly to its professional members 
        for further distribution to diving consumers, and by 
        disseminating information directly to diving consumers through 
        videos, articles and other means, such as the consumer diving 
        website, www.BeADiver.com.

        3. Because diving has a high level of visual media appeal, the 
        diving industry can continue to offer its resources to groups 
        that provide science-based and economics-based information for 
        media dissemination. DEMA has made such an opportunity 
        available for showing the previously mentioned ``Acid Test'' 
        video during the annual trade-only DEMA Show, and invited 
        Sigourney Weaver to participate. As you well know, such 
        opportunities draw media attention to these issues, helping to 
        increase public awareness.

    The diving industry will benefit from increased public awareness of 
this phenomenon in several ways:

        1. Senate Committee involvement and concern with this issue 
        brings aquatic resources and diving to attention of the general 
        public, generally having a positive effect on diving 
        participation.

        2. Protecting our aquatic resources is absolutely necessary to 
        health of the recreational scuba diving and snorkeling 
        industries. Without a healthy aquatic environment and ease of 
        access to that environment, these industries cannot exist. As 
        we have seen in the last few weeks, even the suggestion of 
        aquatic resource degradation can have a devastating effect on 
        these industries. When we consider that diving businesses in 
        Florida, Alabama, Mississippi, Louisiana and even Texas are 
        being impacted by the mere publicity surrounding the current 
        Deepwater Horizon oil spill, the economic damage that could be 
        caused to these industries by ocean acidification, true oil 
        spill damage, and other real environmental problems should be 
        apparent.

        3. Bringing attention to this issue provides the industry with 
        a better understanding of the governmental role in protecting 
        these resources, and provides an opportunity to demonstrate 
        DEMA's role in assisting these businesses by helping to protect 
        them. It also provides an opportunity for stakeholders in the 
        diving industry to develop a greater understanding of the 
        economics of the diving industry and provides them with 
        guidelines for operating using long and short-term objectives 
        that preserve this industry.

    Ranking Member Snowe, we again applaud the efforts of this 
committee. Your willingness to solicit input from a variety of sources 
in the professional and lay communities is a good example of private 
industry and government working together to understand the issues and 
bring them to the public for their careful consideration. Thank you for 
your service and your continued interest.
                                 ______
                                 
  Response to Written Question Submitted by Hon. Olympia J. Snowe to 
                            Donald A. Waters

    Question. When we're faced with scientific uncertainty about how 
present actions will impact the future environment, it makes decisions 
to permit or prohibit certain actions more difficult. Because your 
industry is likely to be affected by whatever regulatory action is 
taken to deal with this issue, how do you feel that public 
participation should be incorporated into the policy-making process to 
minimize negative impacts on your industry today and in the future?
    Answer. Thank you for asking about this, Senator Snowe. After 
reading your question I think it's possible that we share some of the 
same hopes and concerns. And I do have some ideas about how to make a 
public process that might help us find a good, balanced way to move 
forward.

We Need Balanced Solutions
    I'm happy to see your interest in dealing with ocean acidification, 
because it looks like a problem for fishermen and shellfish growers. 
I'm also happy to see that you aren't rushing into radical measures to 
eliminate carbon emissions no matter what the consequences. I support 
your effort in the Senate to cap carbon emissions from utilities. It's 
a step in the right direction. If it reduces the amount of acid going 
into the ocean, I can live with a small increase in my utility bill. 
Once I get used to that, I might be ready to go the next step. You've 
already got power companies in the Northeast working in a regional 
emissions-reduction program that shows they can do this without 
breaking the economy. To scale that up sounds like a practical way to 
go.

Use Public Involvement For Science
    You asked about public process, and as far as fishermen are 
concerned I can tell you that's a very welcome question. From talking 
to fishermen I know around the country, I can tell you the stakes are 
high and the knowledge about ocean acidification is low. There aren't 
many of us who really know a lot about what carbon emissions do to our 
fisheries. There are a lot of rumors and fears out there about what it 
might cost to solve this problem. We need to understand the problem 
better, and we also need to understand the solutions better.
    I also want to suggest that a really good public involvement 
program might help the whole country deal with this problem. Ocean 
acidification could be a problem for the whole nation. The oil spill in 
the Gulf has made it pretty clear that when the ocean gets messed up, 
the consequences reach a long way from the coast. When it stays 
healthy, there are benefits for everyone.
    A good public process on the waterfront might help at both ends of 
this problem. There's the science end where we need to understand 
what's happening to the ocean, and there's the policy end where we need 
to do something about it.
    I'll start with the science. We all need to understand the problem 
of ocean acidification better. There are a lot of us who spend our 
working lives on the water. We can help the scientists look in the 
right places. This problem of acidification is important to fishermen, 
even though we don't know much about it yet. It has the potential to 
affect our livelihood. We don't now how yet, but we need to find out.
    Consulting with fishermen and aquaculture people and divers can 
help scientists deliver a good, focused research and monitoring program 
on acidification. Scientists are gearing up the national research 
program on acidification under the FOARAM Act that you helped to pass 
in 2009 (and thank you for that, it was a good first step).
    I know the funding for the research and monitoring is modest, 
because there's a real need to control Federal spending. In April 
several Senators on this subcommittee mentioned this when they asked 
how to prioritize investment in research and monitoring. That's a good 
question to put to a combined group of scientists and user groups, and 
I know you're going to be hearing some ideas about that soon from 
people who are already pulling some of those groups together. Those of 
us who work on the water, fishermen and divers and growers, can help 
figure out where to get the best bang for your buck. We can point 
scientists to the places that produce the most seafood, and together we 
can pinpoint the resources that might be affected the most or the 
soonest. We can also help by working with scientists to collect data 
and water samples and provide boats for at-sea research.
    We might even be able to help work out ways to duck some of the 
damage that acidification may cause to fisheries and aquaculture. I'm 
not saying we can live with an ocean that doesn't produce fish any 
more. I do not buy the idea that we just have to accept destruction and 
``get used it.'' The oyster hatcheries on the West Coast aren't waiting 
around for the world to stop emitting carbon dioxide. They've already 
taken some hard punches from corrosive water that dissolves their 
oyster larvae before they can grow. They're trying to find ways to 
protect their oyster larvae by monitoring chemical changes in the 
seawater. They are timing when they try to grow larvae so they can take 
advantage ``good water'' periods. They are doing broodstock research to 
try to improve the oysters' resistance to low-pH seawater. They are at 
the front line, and the rest of us should be learning from them and 
teaming up to help them beat this problem.

Go Local and Regional
    If you really want to get people prepared to deal with this 
problem, it will probably take a lot of meetings. Fishing is local, and 
the knowledge that fishermen can offer is local. It's a big job, but 
you could do a lot of good by reaching out to fishermen and seafood 
growers and other users in the bayous, in the little bays up the coast 
of Maine, in the ports where they fish in Alaska--all around the 
country.

Public Involvement For Policy
    Senator Snowe, you're absolutely right that anything you do to 
reduce carbon emissions is going to affect fishermen. Doing nothing 
will affect us too, if this problem turns out to be as serious as most 
of the scientists say.
    It's fairly obvious that fishermen are going to see changes in the 
ocean. For example, back in the 1970s in the Gulf of Mexico I used to 
pull up a very thin-shelled, delicate thing called a paper nautilus, 
and I hardly ever see them now. If you ask, fishermen might give you a 
lot of observations like that, and maybe scientists can use that 
information to understand what's happening.
    Fishermen have a stake in both sides of this problem. Whatever you 
do, we want it to work. We need the sea to be healthy so it still 
produces lots of fish. At the same time we need to run boats so we can 
go out and bring that food home from the sea. We need affordable fuel 
to do that.
    If you can find a way of reducing carbon emissions that fishermen 
can live with, then the odds are good that most other people can get 
comfortable with it too.
    I understand that one of the ways to reduce emissions is to put a 
price on carbon emissions, and maybe at some point we'll have to live 
with higher costs at the fuel pump. We hear reports that the EPA is 
taking steps to regulate emissions from fishing boats and other 
commercial marine vessels. We know that fishing vessels are a tiny 
source of emissions, but if it is done fairly, a lot of us will 
probably be willing to do our part, especially if there is help 
available to fishermen for the investment that may be required to make 
boats more fuel-efficient.
    I make my whole living from the ocean. As long as it doesn't drive 
me broke, I'm more than willing to pull my share of the load to keep it 
healthy.
    I think a good public process might ask people how to encourage 
more fuel efficiency. In fishing, those who can afford the investment 
can cut fuel use by repowering, or putting in more efficient 
generators, pumps, and other things. There are also some out-of-the-box 
approaches like changing the way fisheries are managed and regulated so 
they can become more fuel-efficient. This isn't for everybody, but one 
example is the Gulf of Mexico reef fish fishery, where we went to a 
catch-share system. It reduced the fuel each of us burns to catch a 
fish, and it also led to fleet reduction. Put the two together and you 
see a drastic reduction in the amount of fuel used in our fishery. Now, 
I don't want to force catch shares on fisheries that don't want them, 
and I'm not saying the same approach will work everywhere. But if the 
goal is to help people reduce emissions, it's not just about equipment. 
Sometimes it's about the way regulations define how efficient a guy can 
be in his operation.
    These are the kind of questions that you can bring up in a good 
public process on the waterfront. If you ask people first, you might 
get some good options on the table for dealing with this carbon 
problem. Should the government help people invest to become more fuel-
efficient? How much? What are the best ways to do it?

An Independent Process
    Getting scientists and fishermen to work together isn't always 
easy, as you know. It takes a lot of skill, communications expertise, 
and a pretty good understanding of how to herd cats.
    I think it would be good to do this through an independent 
organization instead of a Federal agency. Getting the right outfit to 
put all this together is important. It's probably going to vary from 
one area of the country to another. In some places, like in the Gulf of 
Mexico where I'm from, the Sea Grant programs are good at creating ways 
for scientists and the user groups to work together. In some places, 
the best organizers for this might be fishing associations, or really 
well respected nonprofit groups or university people who can build a 
trust between the fishing communities and the scientific community.
    Some of this is already going on. The oyster growers, Sea Grant, 
some of the fishing groups are working with the Sustainable Fisheries 
Partnership, other groups and universities and so on. They have been 
putting together some regional workshops about acidification. It's a 
good model.

User Advisory Group
    It would also be good to find some smart fishing, aquaculture, and 
diving leaders and form a user advisory group to consult with the 
scientists about the research and monitoring on acidification.
Oil Industry Should Help Pay
    Down on the Gulf coast before the oil spill, it was hard to believe 
we could have such incredible consequences. Now we know, and we've 
begun to push BP to pick up the tab for the cleanup and for research 
and monitoring so we can understand what the spill is doing to sea life 
and to the ocean's chemistry.
    Maybe the oil industry should do more. If you're going to have some 
public participation, you could ask people if they think the oil 
business should pay for a lot of the science to understand what all 
that carbon does to the ocean. Maybe the oil industry should be picking 
up their fair share of the long-term research and monitoring costs, not 
just for spills but to show the effects of all the carbon emissions 
that get into the sea. I saw a report that says oil and gas are 
responsible for about half of all the carbon dioxide produced by the 
world's energy economy. (http://www.eia.doe.gov/.../emissions.pdf). So 
maybe they should pay for half the science on this even though these 
cost will probably be passed on to the consumer. Senator Snowe, I know 
that you've been pushing to create an ocean endowment for marine 
research. I think if you had a string of meetings around the coasts you 
might find a lot of support for making the oil companies pay their fair 
share.
    Once again, thanks for your leadership on this issue, Senator 
Snowe. It means a lot to those of us who make our living fishing.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                         James P. Barry, Ph.D.

    Question 1. A recent study published in the journal of the 
Geological Society of America, found that when 18 different types of 
marine organisms were exposed to seawater with four different levels of 
partial pressure of carbon dioxide the calcification rates of those 
organisms did not all respond the same way. In fact, three species had 
their highest calcification rates at the highest level of 
CO<INF>2</INF>: species of crabs, lobsters, and shrimps. What does this 
study tell you about the ability of some species to adapt to or perhaps 
even be genetically predisposed to thrive in oceans that experience 
higher degrees of acidity?
    Answer. The recent paper by Justin Ries (Ries et al., 2009) 
demonstrated that calcification rates among 18 marine organisms 
responded in different ways to simulated ocean acidification. While it 
is widely expected that calcification rates of marine organisms would 
decrease in more acidic waters with low saturation states for calcium 
carbonate, Dr. Ries found that some organisms studied increased their 
production of calcium carbonate skeletal material under even very high 
simulated atmospheric CO<INF>2</INF> levels. In particular, the 
crustaceans studied (crab, lobster, shrimp) increased skeletal 
production as the acidity of waters was increased, while most in most 
other species, calcification declined.
    What does this tell us about the effects that future ocean 
acidification might have on these animals or on marine ecosystems in 
general? First, let's consider what changes in calcification may mean 
for the lives of these animals. To be successful, organisms must 
survive, grow, and reproduce. For organisms forming calcium carbonate 
skeletons or shells, calcification is one of many important processes 
that contribute to successful growth, survival, and reproduction. As 
Dr. Ries notes, we do not know how ocean acidification waters might 
have affected physiological processes other than calcification in these 
organisms, or how lifelong immersion in acidified waters would affect 
their growth, survival, and successful reproduction. This is a critical 
observation because calcification alone may not be a good indicator of 
success.
    The exact mechanisms of calcification are not understood for all 
organisms, but research to date indicates that forming calcium 
carbonate in acidic waters is energetically more costly for organisms 
than in normal seawater. In a sense this is saying, ``There is no free 
lunch.'' If it is costs (energetically) more to make either the same or 
a larger skeleton in acidified waters, where does the extra energy come 
from? The crustaceans studied by Ries may have had plenty of extra 
energy available (food) to support the extra cost of calcification. 
Could animals in the wild respond similarly? Will they be able to 
simply feed more to compensate for the presumed higher costs of shell 
formation in more acidic waters, or might there be energetic tradeoffs? 
For example, would they grow more slowly or produce fewer young to 
support high skeletal growth?
    Crustaceans are also very different physiologically than many of 
the other organisms studied and Dr. Ries' results pose several 
questions concerning factors influencing growth and shell formation in 
these animals. Crustaceans increase in size by molting (shedding their 
shell) periodically, since they cannot make their shells larger once it 
is formed. Molting involves very complex changes in hormonal and 
internal chemistry that may actually favor larger new shells during 
molting in acidified waters. As they begin to molt, crabs inflate their 
bodies with water as much as possible, to maximize their size while the 
new shell is hardening (calcifying). This hardening process occurs over 
days. One the new shell is formed, tissue grows in slowly to fill the 
now larger shell, followed by another molt cycle. Could higher acidity 
slow the process of calcification during molting, allowing the animals 
to inflate to a greater size before hardening occurs? Does the larger 
shell also allow more rapid tissue growth leading to faster growth 
rates and larger individuals?
    At this point, we do not know how immersion in acidified waters 
will affect the lifelong survival, growth, and reproduction of any of 
the species studied by Dr. Ries. His study provides some tantalizing 
evidence that there are likely to be winners and losers as ocean 
chemistry changes in the future. However, his work and that of others 
looking at the short-term physiological performance of animals under 
ocean acidification cannot tell the whole story. We need to understand 
how these physiological changes (and others) will affect lifelong 
performance for individuals, which in turn scales up to populations 
(population growth rates, reproductive rates, and productivity). 
Ultimately, changes in populations and species due to ocean 
acidification can affect entire ecosystems. These are the sorts of 
questions we need more information about to understand the 
comprehensive effects of ocean acidification.
    A second aspect of Dr. Ries' study that is important to consider is 
how the differing effects of ocean acidification on many species will 
affect marine food webs and ecosystem processes. Let's assume, perhaps 
incorrectly, that higher calcification is good and reduced 
calcification is bad, in terms of the growth and survival of animals. 
If so, then crustaceans will benefit (i.e., live longer, grow faster or 
larger), than most of the other animals studied, including most 
mollusks, which appear to be the losers in a high-CO<INF>2</INF> ocean 
(based on calcification rates). These differences alone could lead to a 
disruption of marine food webs due to the reduction in some prey or 
predators and increase in others. If the abundance of important prey or 
predators changes greatly due to the direct physiological impacts of 
ocean acidification, this could indirectly affect many other species 
due to shifts in prey and predator abundance. Ultimately, changes in 
the performance of even a relatively small number of species due to 
ocean acidification could modify energy flow through marine food webs 
and drive important changes in the function of ecosystems.
    Dr. Everett testified at the Ocean Acidification Hearing, cited Dr. 
Ries' paper as one piece of evidence to conclude that there is little 
concern that ocean acidification is a serious problem. Dr. Ries, along 
with Dr. Iglesias-Rodriguez (whose paper (Iglesias-Rodriguez et al., 
2008) was also cited by Dr. Everett as evidence to alleviate concern 
about ocean acidification) submitted a rebuttal to the Senate, 
objecting strong to what they felt was Dr. Everett's serious 
misinterpretation of their studies.

    Question 1a. What do studies such as this one say about the future 
of the science of ocean acidification and where we should be focusing 
our efforts?
    Answer. Dr. Ries' study is one of many excellent efforts to 
understand how ocean acidification will affect marine organisms and 
ecosystems. Society needs to know how changes in ocean chemistry due to 
ocean acidification will affect the growth and productivity of species, 
their interactions with other species, and other processes that may in 
turn affect a wide variety of ecosystem services we depend upon. Will 
fisheries production change, and if so, how? How will the biodiversity 
of marine ecosystems change, if at all? These are important but 
difficult questions that cannot be addressed easily. The scientific 
community has started where it can--what is the physiological response 
of organisms to future conditions for short periods? While these sorts 
of studies will continue to be important, we need to be able to scale 
up the results of these studies to the level of populations and 
ecosystems over longer time scales. How will ocean acidification affect 
the growth, survival, and reproductive rates of organisms over their 
entire lives? How will changes in individuals affect populations, in 
terms of productivity or resilience to disturbance? How will changes in 
individual species affect food webs from phytoplankton and algae at its 
base to top predators such as salmon and tuna?
    Scientific inquiry concerning all aspects of ocean acidification is 
developing rapidly. While we still need more studies just like Dr. 
Ries', he and many others are already working to broaden the scope of 
these studies to address some of the more difficult longer-term and 
broader scale questions mentioned above. Scaling up from single 
organism studies to populations and ecosystems is difficult and will 
require innovative approaches and sustained effort. It is important to 
remember that our activities are changing the chemistry of the ocean 
faster and further than is thought to have occurred for many millions 
of years, with unknown consequences for ocean ecosystems. Just as we 
wouldn't drive down a dark road without headlights, we should not forge 
ahead into a future within some insight into where we are going.
References
    Ries, J. B., Cohen, A. L., McCorkle, D.C. 2009. Marine calcifiers 
exhibit mixed responses to CO<INF>2</INF>-induced ocean acidification. 
Geology 37(12): 1131-1134.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                         James P. Barry, Ph.D.

    Question 1. You discussed in your testimony that research 
concerning ocean acidification's impact on marine life is limited, 
particularly on populations and ecosystem dynamics. Can you please 
describe other areas of study which lack sound scientific research that 
would provide better understanding of this issue?
    Answer. The field of ocean acidification is quite new, and 
important questions concerning how populations and ecosystems will 
respond to future ocean acidification are the tough questions we face. 
These are difficult questions, but they lie at the heart of what 
society needs to know to plan for the future and adapt (as a society) 
to potential changes in resources and ecosystem services provided by 
the oceans. There are research programs underway now (European Project 
on OCean Acidification: EPOCA), Biological Impacts of Ocean 
ACIDification (BIOACID)--the German National program on ocean 
acidification, the UK Ocean Acidification program, and now the National 
Research Council has published its report on a U.S. National Strategy 
for Ocean Acidification Research. Each of these program outlines a 
series of efforts to investigate the effects of ocean acidification, 
often in combination with other climate-related stressors (warming, 
hypoxia), on marine organisms, including efforts to ``scale-up'' our 
understanding of individual effects to populations and ecosystems.
    Regarding ocean acidification research, we need to understand not 
only the effects on individual organisms, but also require a much 
broader understanding of future changes in ocean chemistry, from the 
scale of entire ocean basins to the apparently more complex coastal and 
inshore areas. Ocean chemistry in these areas are also affected greatly 
by other factors such as nutrient loading. Within this context of 
anthropogenic influences on ocean chemistry, we hope to gain an 
understanding of the effects of changing chemistry on ecosystems. Thus, 
ocean chemistry is one area where we require much more information 
before we can predict changes in marine populations and ecosystems.
    Because society acts in many ways to affect ocean ecosystems 
(fishing, habitat degradation, pollution, climate change, ocean 
acidification (Jackson et al., 2001), it may be difficult to determine 
the relative roles of various anthropogenic influences and natural 
factors in the trajectories of marine ecosystems. Knowledge of the 
influence of each of these factors can be of obvious importance, and 
efforts to integrate information concerning the influence of human 
stresses on the performance of species from the level of individual 
physiology up to populations and eventually to ecosystems will be a key 
to predicting future ecosystem changes in response to our activities.

    Question 2. I understand it is estimated that average pH of ocean 
surface waters has decreased approximately 0.1 pH unit, from 8.2 to 
8.1, since the beginning of the industrial revolution. Estuarine and 
tidal creek organisms, such as oysters, shrimp, and blue crabs in the 
Gulf and Southeast U.S. undergo daily shifts in pH that can range above 
8.2 and down to 7.0. How does the current estimated shift in pH of 0.1 
impact these organisms given their adaptability to routine naturally 
occurring shifts in pH?
    Answer. This is an excellent question that relates to the potential 
effects of an anthropogenic shift in the mean pH of a natural ecosystem 
with a large range of natural variation in pH. The short answer is that 
we do not yet know if, or how much, the current shift in ocean pH (-0.1 
units in the open ocean) is affecting estuarine and tidal creek 
organisms. The long answer involves the details of carbonate chemistry 
in estuaries, any effects of fossil fuel CO<INF>2</INF>, and the 
physiological tolerance of estuarine species, including all life 
history phases (eggs, larvae, juveniles, adults), to variation in pH 
(and other potential stress factors).
    First, some background on estuarine pH variation. The pH in tidal 
creeks and estuaries is naturally variable due to diurnal and seasonal 
shifts in the balance between photosynthesis and respiration in the 
environment. During the day, especially during Spring and Summer, high 
rates of photosynthesis by plants, algae, and phytoplankton consume 
CO<INF>2</INF> and produce O<INF>2</INF>. This typically dominates over 
respiration by all organisms, leading to higher O<INF>2</INF> levels, 
lower CO<INF>2</INF>, and consequently, higher pH. During night 
(especially during Winter), photosynthesis effectively ceases and 
respiration dominates, consuming oxygen and releasing carbon dioxide, 
leading to low O<INF>2</INF>, high CO<INF>2</INF>, and low pH. The 
magnitude of these changes can be affected by many factors, such as the 
abundance of habitat with plants/algae versus mudflat and animal 
populations, as well as water depth and tidal flat exposure during 
night and day. This natural variability is modified by anthropogenic 
nutrient loading in the coastal zone (primarily agricultural runoff), 
which can influence the balance between photosynthesis and 
respiration--high nutrient loading often increases primary production, 
followed by higher net respiration rates, reduced oxygen levels (dead 
zones in some cases), where CO<INF>2</INF> is high and pH is low (e.g., 
Diaz et al., 2008).
    Ocean acidification (OA) due to fossil fuel emissions can modify 
the natural pH variation in coastal and estuarine areas even further, 
either from the inflow of acidified waters into estuaries (Feely et 
al., 2010), or by direct CO<INF>2</INF> influx into estuarine waters 
from the atmosphere. However, during periods when the CO<INF>2</INF> 
levels in estuarine surface waters may be higher than the atmosphere, 
those waters would act as a source of CO<INF>2</INF> to the atmosphere, 
rather than a sink--that is, high atmospheric levels from fossil fuel 
emissions would may not increase the CO<INF>2</INF> levels of the 
estuary (and reduce pH further), but could impede CO<INF>2</INF> efflux 
to the atmosphere. The bottom line for this discussion is that: (1) the 
pH of coastal and inshore waters is considerably more variable than 
found offshore, (2) several human activities appear to be affecting 
inshore pH, and (3) we do not yet have a good idea of how human 
influences including ocean acidification have or will affect the 
carbonate chemistry of estuarine areas.
    If estuarine pH is naturally variable, should we worry about the 
tolerance of estuarine organisms to what may be a relatively small 
additional pH shift? Common sense may say that since estuarine animals 
tolerate a wide pH range, then a 0.1 unit shift overall shouldn't make 
much of a difference. I expect that may be true for many organisms, 
particularly those with the physiological capacity to deal with 
CO<INF>2</INF>-related stresses (e.g., many fishes), but doesn't tell 
the whole story. Because organisms tolerate the entire natural pH range 
does not mean that they can ``perform'' equally well throughout the 
natural range or slightly outside it (the new range with ocean 
acidification), particularly marine larvae or other vulnerable life 
history phases. While it is clear that organisms inhabiting estuarine 
habitats must be tolerant of the conditions, it is also likely that 
their performance--survival, growth, and reproduction--is not the same 
at all locations or times and probably varies with pH. Therefore, 
diurnal or seasonal changes in estuarine pH may be quite important. 
Particularly during the more acidic periods or locations where minerals 
used for shell formation are low in abundance (low aragonite saturation 
state), it may be difficult or impossible for some species (e.g., 
clams, mussels, oysters) to create calcium carbonate skeletons. This 
appears to be particularly important for oyster larvae as shown in one 
recent study. Miller et al., (2009) measured the growth and survival of 
oyster larvae and modeled the carbonate chemistry of Chesapeake Bay, 
both under realistic current and future atmospheric CO<INF>2</INF> 
levels, to estimate how future changes in atmospheric CO<INF>2</INF> 
might affect oysters. Oyster larvae are expected to be more vulnerable 
than adults because their larval shells are made of aragonite, a form 
of calcium carbonate that is more easily dissolved than the calcite 
shells made by adult oysters. There is already a region in the upper 
bay where larval shells will dissolve (where the aragonite saturation 
is below 1.0), related to the temperature, salinity, and CO<INF>2</INF> 
content of the water (Figure 1). Their conclusions are that as 
atmospheric CO<INF>2</INF> rises, this zone will expand seaward, since 
the waters will become more and more acidic. Thus, although the 
Chesapeake, like many estuaries, has considerable pH variation, it 
appears that ongoing and future changes due to ocean acidification 
could have important effects. This process can be exacerbated by 
nutrient loading in the coastal zone, which can amplify the boom and 
bust cycle of estuarine primary production and organic consumption, 
leading to expanding zones of low oxygen or hypoxia and high acidity 
(low pH).
    We need much more research to understand how these and other 
organisms will respond to shifts in pH as we move toward the future. 
Perhaps a 0.1 unit shift in the mean pH of a highly variable system 
will be tolerable, at least in currently marginal areas, but the much 
larger pH changes expected by the end of this century may cross 
thresholds leading to important ecosystem changes.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 1. Map of Chesapeake Bay showing summertime salinity, and 
changes in the position of the aragonite saturation boundary--the point 
above (inshore from) which exposed aragonite (e.g., shells of oyster 
larvae) will dissolve. The boundary moves seaward with increasing 
atmospheric CO<INF>2</INF> levels listed (280 to 800 ppm 
CO<INF>2</INF>). From Miller et al., (2009).

    Question 3. How does seawater acidification through run-off and 
pollutant input compare to that caused by atmospheric deposition?
    Answer. There are both similarities and differences between ocean 
acidification (changes in ocean chemistry driven by adding fossil fuel 
carbon dioxide from the atmosphere to the ocean) and acidification 
caused by coastal nutrient loading due to run-off and pollutant input. 
Here I consider pollutants as nutrient inputs (nitrogenous wastes and 
agricultural fertilizers) carried by rivers to the coastal ocean as 
well as nitrogenous aerosols deposited on the oceans from fossil fuel 
combustion (Figure 2; Doney 2010). Ocean acidification affects the 
carbonate chemistry of the ocean, increasing CO<INF>2</INF> levels, 
leading to the formation of carbonic acid, which ultimately causes a 
rise in acidity (lower pH) and lower levels of carbonate ions--minerals 
used for the shells of many marine animals. This is a global phenomenon 
which occurs through most of the oceans, though in some regions where 
surface CO<INF>2</INF> levels are naturally high, the oceans are a 
source of CO<INF>2</INF>, rather than a sink--there CO<INF>2</INF> 
degasses from the surface ocean into the atmosphere. Coastal nutrient 
loading increases the productivity of phytoplankton and algae in 
surface waters, particularly in nutrient poor regions. As this 
``extra'' organic material sinks to deeper waters, it is consumed and 
degraded, which consumes oxygen and produces respiratory carbon 
dioxide. Overall, this process has increased the production of organic 
material in the oceans, and reduced oxygen levels and acidifying deeper 
waters to some degree. Where coastal nutrient loading is fairly 
intensive, oxygen levels near the bottom can drop to zero or nearly so, 
with simultaneous acidification of those waters. This process continues 
to expand and is causing the development of ``dead zones'' at coastal 
regions around the globe (Figure 3; Diaz et al., 2008).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 2. Estimated deposition of anthropogenic reactive nitrogen 
to the ocean surface for oxidized forms (NOy), mainly from fossil fuel 
combustion sources, and reduced forms (NHx) primarily from agricultural 
sources (from Doney 2010).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 3. Global distribution of 400-plus systems reported to have 
eutrophication-associated dead zones. Their distribution matches the 
global human footprint in the Northern Hemisphere. Dead zones are only 
recently reported for the Southern Hemisphere. From Diaz et al., 2008.

    Unlike nutrient additions, ocean acidification does little to 
affect oxygen levels directly, though they may be affected by changes 
in the response of ecosystems. To date, nutrient loading is a more 
significant problem since it is driving oxygen levels to zero in areas, 
with important consequences for ecosystems (Diaz et al., 2008; Doney 
2010). As we move through this century, both processes are expected to 
increase their `footprint' on ocean ecosystems.

    Question 3a. Does this differ by region in the U.S.?
    Answer. Ocean acidification probably does not vary considerably 
among regions in the US, other than its potentially synergistic 
interaction with other factors (nutrient loading, warming). For 
example, along the Pacific Northwest, the upwelling of acidified waters 
affected by ocean acidification, coupled with nutrient loading, is 
causing very low pH waters in areas of Puget Sound and the local 
region, with potentially important impacts on local ecosystems (Feely 
et al., 2008; Feely et al., 2010). Similar synergistic interactions 
among anthropogenic factors may also occur elsewhere, but may be milder 
than occurs in the already acidic, upwelled waters along the NW 
Pacific.
    Eutrophication due to the input of nutrients is most severe in more 
urbanized coastal areas and at the outputs of major rivers with 
carrying large nutrient loads to the ocean (e.g., Mississippi River). 
The eastern seaboard and the Gulf of Mexico coast have many more 
reports of hypoxic zones or events driven by nutrient loading. However, 
these events are increasing as well along the western U.S. coast.
References
    Diaz, R. J. et al., 2008. Spreading dead zones and consequences for 
marine ecosystems. Science 321, 926.
    Feely, R. A. 2010. The combined effects of ocean acidification, 
mixing, and respiration on pH and carbonate saturation in an urbanized 
estuary. Est. Coastal, and Shelf Sci. 88: 442-449.
    Doney, S. C. 2010. The growing human footprint on coastal and open-
ocean biogeochemistry. Science 328: 1512.
    Feely, R. A. et al., 2008. Evidence for upwelling of corrosive 
``acidified'' water onto the continental shelf. Science 320: 1490.
    Feely, R. A. et al., 2010. The combined effects of ocean 
acidification, mixing, and respiration on pH and carbonate saturation 
in an urbanized estuary. Est. Coastal, and Shelf Sci., 88: 442-449.
    Jackson, J. B. C., et al., 2001. Historical overfishing and the 
recent collapse of coastal ecosystems. Science 293: 639.
    Miller, A. W., Reynolds, A. C., Sobrino, C., Riedel, G. F. 2009. 
Shellfish face uncertain future in high CO<INF>2</INF> world: influence 
of acidification on oyster larvae calcification and growth in 
estuaries. PLOS One, 4(5): e5661.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                          Dr. John T. Everett

    Question 1. A recent study published in the journal of the 
Geological Society of America, found that when 18 different types of 
marine organisms were exposed to seawater with four different levels of 
partial pressure of carbon dioxide the calcification rates of those 
organisms did not all respond the same way. In fact, three species had 
their highest calcification rates at the highest level of 
CO<INF>2</INF>: species of crabs, lobsters, and shrimps. What does this 
study tell you about the ability of some species to adapt to or perhaps 
even be genetically predisposed to thrive in oceans that experience 
higher degrees of acidity?
    Answer. This study tells us that we need to look carefully for the 
benefits just as we do for the harm from any change to the environment 
that concerns us. Since the crustaceans that did better with a higher 
CO<INF>2</INF> environment are not substantially different than the 
krill and small shrimp that feed on algae, which themselves do better 
in a CO<INF>2</INF>-rich environment, we must be very cautious before 
we say that higher pH in the oceans will lead to the demise of all sea 
creatures. In terms of productivity, there could well be an increase, 
rather than decrease. Much of the coal and oil resources that we have 
available to us are the result of the tremendous productivity of the 
Earth during past times of high atmospheric CO<INF>2</INF>.

    Question 1a. What do studies such as this one say about the future 
of the science of ocean acidification and where we should be focusing 
our efforts?
    Answer. Our research should focus on the likely changes in ecology 
as a result of more acidic water. A strong component in that research 
should investigate how we can take advantage of the opportunities and 
also deal with the problems. Things will be different, neither 
necessarily worse nor better. We should be preparing ourselves to make 
the most out of whatever conditions come to be--ready to take advantage 
of the opportunities and prepare for any disadvantages.

    Question 2. Your testimony suggests a high degree of uncertainty 
remains even in what other scientists consider to be the relatively 
undisputable fact that the chemistry of our oceans is changing. Even 
the NRC report unequivocally asserted that the chemical changes are 
``well understood.'' You have also asserted that perhaps the 
terminology used to describe this problem--acidification--is inaccurate 
and intended to directly influence public opinion and draw attention to 
the issue. Your conclusion is that we should continue to carry out 
research on ocean acidification, but not take drastic action to address 
it. In your opinion, are the actions taken to date by NOAA and the 
scientific community appropriate, or should we scale back our efforts 
to investigate this potential area of concern?
    Answer. Since the American public has been targeted with a great 
deal of fear mongering, it behooves us to determine whether there is 
really a problem or not. I think that the amount of funding provided by 
the Congress is about right. However, as I indicated above, I believe 
that we should be directing a reasonable amount of the total funding 
toward seeking out the opportunities and preparing for the negatives.

    Question 2a. What degree of certainty in the research is sufficient 
to dictate additional actions, either regulatory or otherwise, to 
address ocean acidification as a real problem?
    Answer. I do not have a problem with things that are different, 
provided that I am prepared for these changes and they are not harmful 
overall. I believe that under extreme ocean acidification things will 
be different, but not worse, for us and for the animals near the top of 
the ocean food chain. Under the relatively small amounts of being 
discussed, I don't see significant threat, nor even any measurable 
change. I am not an advocate of further regulations, particularly any 
that make our goods and services non competitive in the global market.

    Question 2b. Should we even bother pursuing mitigation measures at 
this time?
    Answer. We should not be pursuing mitigation measures if they place 
our country at a disadvantage relative to other countries with whom we 
compete in the world economy.
    I wish to make it clear that I am addressing, with respect to this 
question and the others, only increases of CO<INF>2</INF> in the 
atmosphere and ocean. If the CO<INF>2</INF> comes with increases in 
heavy metals and other toxic elements, there is much more reason for 
concern. We and other nations of the Earth must work together to reduce 
the amount of harmful pollution reaching the oceans. I don't believe 
that CO<INF>2</INF> is harmful overall at the levels under discussion 
and should not be used as an excuse to stop the use of hydrocarbon-
based fuels.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                          Dr. John T. Everett

    Question 1. You mention in your testimony that research concerning 
broad impacts of ocean acidification on marine life is limited. Can you 
please describe what areas of study lack sound scientific research that 
would provide better understanding of this issue?
    Answer. There is a lot of good research that is being conducted. A 
major problem is that there also is a lot of bad research being 
conducted. Much of the research seems to be aimed at proving that ocean 
acidification is bad. This is evidenced by the use of hydrochloric and 
sulfuric acid (to simulate CO<INF>2</INF>), by not allowing creatures 
time to adapt to major increases, by using unrealistically high levels, 
and in the narrative justification for the research, among other 
things. There is rarely an objective observation of the changes, only a 
search for the negatives. This makes it unlikely that positive effects 
will be observed and reported. Positives cannot be found when no one is 
searching for them as carefully as they are for the damage. To make 
matters worse, positives are not newsworthy and are not reported in the 
press whereas the negatives often make headlines, causing a distortion 
of the facts in the minds of the citizens.
    The research items that intrigue me are finding an explanation for 
how we might actually get at the asserted damages from relatively 
miniscule PH changes. For example, how can mollusk larvae be damaged by 
a small change in acidification when their cousins that live in fresh 
water do just fine under actually acidic waters that are hundreds or 
thousands of times more acidic than the oceans will ever be? How can 
fisheries be destroyed by pH levels that are no worse than in upwelling 
regions that are the most productive areas for marine life of all 
kinds?
    I would like to see more research that addresses true understanding 
rather than the fulfillment of an activist agenda of any flavor. It is 
difficult for scientists, no matter how objective, to receive funding 
for such research from philanthropic organizations and government 
agencies.

    Question 2. There have been claims that oyster hatcheries in the 
Pacific Northwest have experienced effects of lower pH seawater on 
developing larvae stocks. Was this a result of upwelling cold deep 
water off the coast of Oregon and Washington?
    Answer. The conjecture among many scientists not participating in 
the work is that any changes in pH of the level observed would have to 
be due to upwelling waters that moved into the area, or by rain, or by 
pollution. I do not have enough information to form an opinion of my 
own.

    Question 3. Have similar acidification events occurred in other 
areas of upwelling around the world? In other words, is this a common 
event or isolated incident?
    Answer. If a lowered pH was in fact the root cause of oyster larvae 
mortalities, it may well happen in other parts of the world. However 
the NW area in question is more susceptible to a deep water upwelling 
event than, say the Chesapeake Bay, where it would be virtually 
impossible from an oceanographic standpoint. In most areas of the 
world, the pH of the water is not routinely measured and would not 
likely be suspected if there were a mortality event of larvae or other 
organisms.

    Question 4. What scientific evidence exists that suggests similar 
acidification events occurring in other regions of the U.S. are 
significantly impacting wildlife?
    Answer. Much of the most thorough research on acidification 
occurred during the scare over acid rain a few decades ago. That 
research indicated that the makeup of the ecology could be quite 
different under acidic conditions that were hundreds of times more 
acidic than the changes we're talking about for the oceans. Levels 
practically reached the acidity of vinegar before life was severely 
compromised. Again, ecology was very different but the overall 
production stayed quite constant at any reasonable pH level.
    The importance of this is when we are using the harm to marine 
mammals and fisheries as a research or mitigation justification. There 
will still be about the same amount of food available for the those 
animals even if it is a different form of a species or in fact a 
different species.

    Question 5. What proportion of CO<INF>2</INF> in upwelled ocean 
water can be attributed to deposition from the atmosphere? What 
proportion can be attributed to biological processes?
    Answer. Near the surface a high proportion of the CO<INF>2</INF> 
can be from the atmosphere because the exchange of gases is constant. 
However well below the surface, where the sunlight is dim or 
nonexistent, all the animals and bacteria are consuming oxygen and 
giving up CO<INF>2</INF> faster than algae and plants can convert it 
into oxygen. This and other processes cause the deep water to become 
high in CO<INF>2</INF> and thus more acidic. When the deep water rises 
to the surface as part of an upwelling current, it is often at a pH 
that is lower than is contemplated in the global warming scenarios for 
the future.

    Question 6. Since ocean circulation and upwelling events occur on a 
global basis, what role do other countries play in contributing 
CO<INF>2</INF> to waters that impact the coastline of the United 
States?
    Answer. All nations of the world contribute to the CO<INF>2</INF> 
reaching the coastal waters of the United States. The amount of 
CO<INF>2</INF> in the atmosphere that is the product of humans is 
contributed by each nation in proportion to its emissions. There are no 
boundaries slowing the mixing of CO<INF>2</INF> and it occurs rapidly 
and quite thoroughly. The CO<INF>2</INF> coming from the Chinese, 
Australian and American coal that is being burned in China has no 
signature different from used that in Australia or the US, or from any 
other country. It is also not generally distinguishable from that 
emitted by humans and other animals or volcanoes.

    Question 7. How does lowering of seawater alkalinity through run-
off and pollutant input compare to that caused by atmospheric 
deposition?
    Answer. For the global ocean, deposition would be the larger 
contributor. However, in a localized area, such as a bay, pollution and 
rainwater, whether from run off or from rain falling on the water, 
would be the more important source.

    Question 7a. Does this differ by region in the U.S.?
    Answer. Yes, it varies by location because pollution and runoff 
vary, as does their mixing with the ocean water depending on whether 
they flow into a narrow bay or into a rapidly moving ocean current.

    Question 8. Is there scientific research showing that ocean 
acidification may be caused by factors other than atmospheric 
CO<INF>2</INF>, such as nutrient loading, pollution, or habitat 
degradation?
    Answer. Yes, research shows that pH can be changed in a number of 
ways, but generally not at the global level. Research of the types 
presented, has been more localized such as in harbors, bays, and 
rivers. It would be very difficult to demonstrate that any of these 
factors were at play in the ocean as a whole.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
